<html>
<title> - WEAKNESSES IN CLASSIFIED INFORMATION SECURITY CONTROLS AT DOE'S NUCLEAR WEAPON LABORATORIES</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




WEAKNESSES IN CLASSIFIED INFORMATION SECURITY CONTROLS AT DOE'S NUCLEAR 
                          WEAPON LABORATORIES

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                      OVERSIGHT AND INVESTIGATIONS

                                 of the

                         COMMITTEE ON COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 11, 2000

                               __________

                           Serial No. 106-148

                               __________

            Printed for the use of the Committee on Commerce



                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
67-110                     WASHINGTON : 2000


                         COMMITTEE ON COMMERCE

                     TOM BLILEY, Virginia, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
MICHAEL G. OXLEY, Ohio               HENRY A. WAXMAN, California
MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    RALPH M. HALL, Texas
FRED UPTON, Michigan                 RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               EDOLPHUS TOWNS, New York
PAUL E. GILLMOR, Ohio                FRANK PALLONE, Jr., New Jersey
  Vice Chairman                      SHERROD BROWN, Ohio
JAMES C. GREENWOOD, Pennsylvania     BART GORDON, Tennessee
CHRISTOPHER COX, California          PETER DEUTSCH, Florida
NATHAN DEAL, Georgia                 BOBBY L. RUSH, Illinois
STEVE LARGENT, Oklahoma              ANNA G. ESHOO, California
RICHARD BURR, North Carolina         RON KLINK, Pennsylvania
BRIAN P. BILBRAY, California         BART STUPAK, Michigan
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
GREG GANSKE, Iowa                    TOM SAWYER, Ohio
CHARLIE NORWOOD, Georgia             ALBERT R. WYNN, Maryland
TOM A. COBURN, Oklahoma              GENE GREEN, Texas
RICK LAZIO, New York                 KAREN McCARTHY, Missouri
BARBARA CUBIN, Wyoming               TED STRICKLAND, Ohio
JAMES E. ROGAN, California           DIANA DeGETTE, Colorado
JOHN SHIMKUS, Illinois               THOMAS M. BARRETT, Wisconsin
HEATHER WILSON, New Mexico           BILL LUTHER, Minnesota
JOHN B. SHADEGG, Arizona             LOIS CAPPS, California
CHARLES W. ``CHIP'' PICKERING, 
Mississippi
VITO FOSSELLA, New York
ROY BLUNT, Missouri
ED BRYANT, Tennessee
ROBERT L. EHRLICH, Jr., Maryland

                   James E. Derderian, Chief of Staff

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

              Subcommittee on Oversight and Investigations

                     FRED UPTON, Michigan, Chairman

JOE BARTON, Texas                    RON KLINK, Pennsylvania
CHRISTOPHER COX, California          HENRY A. WAXMAN, California
RICHARD BURR, North Carolina         BART STUPAK, Michigan
  Vice Chairman                      GENE GREEN, Texas
BRIAN P. BILBRAY, California         KAREN McCARTHY, Missouri
ED WHITFIELD, Kentucky               TED STRICKLAND, Ohio
GREG GANSKE, Iowa                    DIANA DeGETTE, Colorado
ROY BLUNT, Missouri                  JOHN D. DINGELL, Michigan,
ED BRYANT, Tennessee                   (Ex Officio)
TOM BLILEY, Virginia,
  (Ex Officio)

                                  (ii)


                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Aftergood, Steven, Senior Research Analyst, Federation of 
      American Scientists........................................   169
    Browne, John C., Director, Los Alamos National Laboratory....   152
    Glauthier, T.J., Deputy Secretary; accompanied by: General 
      Eugene E. Habiger, Director, Office of Security and 
      Emergency Operations; General John McBroom, Director, 
      Office of Emergency Operations; and General Tom Gioconda, 
      Deputy Administrator for Defense Programs, National Nuclear 
      Security Administration, Department of Energy..............   140
    Podonsky, Glenn S., Director, Office of Independent Oversight 
      and Performance Assurance, U.S. Department of Energy.......    16
    Robinson, C. Paul, President and Laboratories Director, 
      Sandia National Laboratories...............................   145
    Tarter, C. Bruce, Director, Lawrence Livermore National 
      Laboratory.................................................   164
    Wells, Jim, Issue Area Director, Energy, Resources, and 
      Sciences Issues, U.S. General Accounting Office, 
      accompanied by William F. Fenzel...........................    11
Material submitted for the record by:
    Aftergood, Steven, Senior Research Analyst, Federation of 
      American Scientists, letter dated August 1, 2000, to Hon. 
      Fred Upton, enclosing response for the record..............   215
    General Accounting Office, response for the record...........   218
    Robinson, C. Paul, President and Laboratories Director, 
      Sandia National Laboratories, responses for the record.....   216

                                 (iii)

  

 
WEAKNESSES IN CLASSIFIED INFORMATION SECURITY CONTROLS AT DOE'S NUCLEAR 
                          WEAPON LABORATORIES

                              ----------                              


                         TUESDAY, JULY 11, 2000

                  House of Representatives,
                             Committee on Commerce,
              Subcommittee on Oversight and Investigations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m., in 
room 2322, Rayburn House Office Building, Hon. Fred Upton 
(chairman) presiding.
    Members present: Representatives Upton, Cox, Burr, Bilbray, 
Ganske, Bryant, Stupak, Green, and DeGette.
    Also present: Representative Wilson.
    Staff present: Tom DiLenge, majority counsel; Yong Choe, 
legislative clerk; and Edith Holleman, minority counsel.
    Mr. Upton. Good morning, everyone. Today we will continue 
this subcommittee's focus on the security problems apparently 
still unresolved at DOE's nuclear weapon labs, as evidenced by 
the most recent security breach at Los Alamos involving some of 
the Nation's most sensitive nuclear weapons-related data. This 
data, containing hard drives utilized by DOE's Nuclear 
Emergency Search Team, or NEST, includes information on 
detection of and response to incidents involving improvised 
nuclear devices or other nuclear weapons in the United States 
or foreign stockpiles.
    Many of the shocking facts concerning this latest incident 
already have made their way into the public. We all know about 
how 26 individuals had unrestricted access to the vault 
containing these sensitive NEST hard drives and that they could 
take them at any time without creating any written record of 
their removal.
    But recent committee staff interviews of relevant Los 
Alamos officials have revealed that roughly half of these 26 
people, including the vault custodian, were not members of the 
NEST team and did not have any, ``need to know'' the 
information contained on those hard drives.
    Thus, numerous individuals, without any legitimate reason 
to have access to this highly sensitive data, could have 
entered this vault at virtually any time and taken these hard 
drives without anyone knowing. Instead of ``need to know,'' we 
had a system of ``want to know.''
    We also have recently learned that Los Alamos failed to 
change the combination on the vault as required when there are 
changes to the authorization access list. In fact, the last 
time the vault combination had been changed was in 1996, 
despite changes in the list of authorized personnel since that 
time.
    Thus, individuals beyond those 26 whose involvement in 
these programs had already ended continued to have access or 
could have continued to have access to the vault.
    These particular deficiencies reflect poorly on Los Alamos, 
and there is no doubt that there was substantial confusion at 
the lab about who was supposed to be doing what when it came to 
security of classified assets used by NEST.
    Part of this confusion stems from the fact that line 
managers believed the lab program officials were in charge, 
while the program officials thought the opposite. But part of 
this confusion also arises from the unique situation of these 
DOE-led swat teams like NEST. We have learned that DOE 
headquarters essentially picked the NEST management team at Los 
Alamos, which in effect reports to DOE on operational issues, 
while reporting through the lab management structure on 
administrative issues.While this arrangement probably makes 
sense, it requires close coordination and communication to make 
it work, and we now know the price of such failure.
    The greater problem, however, goes beyond this particular 
team to the overall system in which it operates. As our first 
panel today will explain, DOE essentially has set a low 
threshold of security requirements for its labs to follow, 
leaving them substantial discretion and flexibility on how they 
implement actual security practices.
    The result--as both Mr. Podonsky's and this committee's 
oversight have discovered--is that the effectiveness of 
security practices at the labs varies greatly, both within and 
among the labs, even for very similar types of information. And 
because of the lack of clear and tough requirements, the built-
in system of laboratory and DOE security oversight is destined 
to failure, since virtually any state of affairs could be 
considered to be technically in compliance with DOE orders. 
Thus, while DOE may want to blame the labs whenever something 
goes wrong in security, it seems clear that the real fault lies 
much closer to home.
    The saddest fact is that the most recent national security 
threat posed by these missing hard drives might have been 
avoided had numerous expert recommendations to the 
administration been implemented in a more timely fashion.
    As far back as 1994, DOE and the Department of Defense were 
engaged in discussions to increase controls on the more 
sensitive nuclear weapons information that the two agencies 
share, such as the data on these hard drives, but no consensus 
was ever reached. In February 1996, a draft report commissioned 
by Secretary of Energy O'Leary recommended that higher security 
fences be established for similar categories of data, but DOE 
failed to issue a formal proposal to DOD until December of last 
year, and it seems that Defense will not lightly accept such 
recommendations anyway, for its own reasons.
    And two 1999 recommendations, one from the labs themselves 
and another from the President's Foreign Intelligence Advisory 
Board, urged DOE to tighten control requirements for such data, 
apparently to no avail. Nothing prevented DOE from tightening 
controls on its own material while in its possession, even if 
DOD opted not to go along. Indeed, it is now doing so in 
response to the latest crisis.
    Yet instead of tightening controls on our most sensitive 
secrets years ago, DOE moved in the exact opposite direction. 
In January 1998, DOE eliminated controls on Top Secret data, 
much as DOE had reduced controls on lower level classified 
matter back in 1992.
    Today's hearing hopefully will allow us to have an honest 
discussion of what is and what is not required by DOE orders 
and what is and what is not being done by the labs to properly 
control access to our Nation's most sensitive nuclear 
information, and what more should be done to remedy this 
situation.
    I echo Chairman Bliley's call today for a more centralized 
Federal role in security affairs at our nuclear weapons labs. 
Let's leave the science to the scientists, but let's make 
security the responsibility of Federal security experts over 
whom we have direct and personal accountability.
    I yield to the acting ranking member of this subcommittee, 
from the great State of Michigan, Mr. Stupak.
    Mr. Stupak. Thank you, Mr. Chairman, and thank you for 
holding this hearing. Last time this subcommittee had the 
opportunity to ask questions about the missing hard drives at 
the Los Alamos National Lab, the Department of Energy witnesses 
had few answers to give this subcommittee. Today we know the 
hard drives have been found. Although the investigation is not 
complete, the FBI and the DOE do not believe the missing hard 
drives were the result of espionage. Rather, their loss 
resulted from sloppy handling and potentially criminal attempt 
to cover up the cause of their loss.
    The chain of events that led to the discovery of the 
missing hard drives has been well publicized. The Los Alamos 
lab took 3 weeks to inform the DOE of the missing hard drives 
when it was required to do so within 8 hours. The procedures at 
Los Alamos for handling the secret nuclear weapons information 
was completely inappropriate.
    While all three of the labs have inadequate procedures for 
handling this material in place, Los Alamos allowed more people 
greater access with fewer controls than either Sandia or 
Livermore.
    You know, Mr. Chairman, the McDonald's restaurant employees 
check the cleanliness of their bathrooms and keep better 
records of their maintenance than Los Alamos does of its 
nuclear weapons data. As a result of the loss of these drives, 
I and other members of this subcommittee wrote Secretary 
Richardson asking him to terminate the contract with the 
University of California, because it has been unable to perform 
its security functions in accordance with its contract with the 
Department of Energy and its responsibility to the American 
people.
    Time and time again, the labs have asked us to excuse their 
mistakes, overlook their failures and trust them to properly 
handle sensitive materials they are entrusted with. I don't 
know about you, Mr. Chairman, but I am all out of trust.
    Although I was a State police officer for many years, I am 
certainly not a nuclear security expert. Yet, when I analyzed 
the proposed improvements to the proposed tracking and 
inventory procedures at Los Alamos, I am left scratching my 
head. Los Alamos will institute a new bar coding system that 
will allow these sensitive documents to be inventoried, but it 
will not allow the lab to track who has the information. What 
is the use of bar coding the information if you can't track who 
is removing it and who has it?
    As I mentioned in the earlier testimony and before this 
last subcommittee meeting, the Menominee Public Library has the 
ability to use its bar coding system to make sure when a book 
leaves the library. The coding system will also tell you who 
has the book, who removed the book. Why can't Los Alamos do the 
same? I am starting to believe that DOE should award the 
contract to Menominee Public Library.
    Mr. Chairman, I don't believe the labs have produced any 
evidence to assure me that they are suddenly going to take 
their security function seriously. Rather than complain about 
budget cuts or other concerns, the labs need to require their 
people to do their job and protect our Nation's nuclear weapons 
data. McDonald's and the library keep track of their employees 
and property for a lot less than Los Alamos. I believe it is 
time for common sense and action, not more excuses.
    I yield back the balance of my time, Mr. Chairman.
    Mr. Upton. Thank you.
    Mr. Burr.
    Mr. Burr. Thank you, Mr. Chairman.
    Once again, this subcommittee is meeting to examine 
security problems at the Department of Energy in our Nation's 
nuclear weapon laboratories. Needless to say, I am disappointed 
to be here. I had hoped that the work of this subcommittee, the 
Cox Commission, the President's Foreign Intelligence Advisory 
Board, and others over the course of the last year would have 
prompted DOE to take action. Unfortunately, that's not the 
case.
    While Secretary Richardson has taken some steps to improve 
physical security at the labs, it appears as though DOE has 
ignored, until recently, recommendations suggesting basic 
changes in the way the agency does business.
    Once again, we are forced to bring the Department and the 
labs to Congress to figure out why these incidents continue to 
occur. No one is suggesting that we will be able to prevent all 
security lapses or stop every spy, but we can certainly take 
steps to make it as difficult as possible for them to occur in 
the first place.
    Over the last year, a number of recommendations have been 
made and a number of recommendations have been ignored. Last 
summer, for example, Senator Rudman made some very specific 
recommendations: establish clear chains of authority; implement 
effective personnel security programs; reinstitute 
comprehensive classified document control systems; and conduct 
a comprehensive classification review.
    Once again, recommendations made and recommendations 
apparently and unfortunately ignored.
    We know they were ignored because Mr. Podonsky's recent 
review of Lawrence Livermore and Sandia contained similar 
recommendations. Secretary Richardson has apparently determined 
that responsibility for security belongs with the labs. If it 
were only that simple.
    I have been among the most critical of the labs' management 
practices, but it is clear that Secretary Richardson's 
arguments ring hollow. The Department has a responsibility to 
see that its security policies are clear and leave no room for 
confusion. Its policies are anything but clear and confusion 
reigns.
    The Podonsky review indicates that the labs have generally 
implemented standard DOE policy. The labs do indeed bear some 
responsibility for security failures that occur on their watch, 
but clearly the policies in place at DOE deserve equal 
attention. Despite Secretary Richardson's protest to the 
contrary, there is simply no clear guidance from DOE on 
security issues, period.
    Nowhere is that lack of guidance more readily apparent that 
than in the NEST program. This little known element of DOE is 
one of the most important tools in our national security 
apparatus. The lack of accountability and absence of clear 
lines of authority in this program are extremely disturbing. 
The lab directors and DOE managers seem to be consistently at 
odds over who is responsible for the program. This program is 
too important for disputes over who is accountable. Someone is. 
And this member, for one, intends to find out who.
    I also have to express my disappointment with General 
Habiger, General McBroom, and General Gioconda. Gentlemen, I 
have the utmost respect for the long years of service and 
sacrifice you have given to your country. Perhaps better than 
any others, you understand the threats posed to our Nation by 
nuclear weapons and the damage that could be caused to our 
national security should such sensitive information fall into 
the wrong hands. That's why we ask you to continue your service 
to your Nation at the Department of Energy. We hope that your 
backgrounds and knowledge of security issues will serve to 
strengthen what has historically been weak security programs.
    Somehow, some way, you have lost that focus. Perhaps the 
culture of disregard for security at DOE is actually so 
pervasive that it consumes all who attempt to run, but we 
expect you to fight against that culture. You are all take-
action types. But why haven't we? When you recognize a problem, 
you should take the steps to correct it. That's how you became 
generals in the first place. You were brought in to DOE to 
continue that approach and to pass on your security-conscience 
attitudes to the rest of that Department. Gentlemen, we expect 
a great deal from you. We want you to succeed. The Department 
has a long way to go to improve its security programs and we 
will continue to turn to you for the answers.
    This member, and I expect this entire subcommittee, stands 
ready and able to do whatever the request is.
    With that, I yield back, Mr. Chairman.
    Mr. Upton. Thank you. Mr. Bilbray.
    Mr. Bilbray. Yes, Mr. Chairman. Mr. Chairman, I would like 
to echo my colleague from Michigan, the acting ranking member, 
and I want to--mostly because he is here--I want to praise 
him--or because he is not here, I want to praise him. The fact 
is is that I think that he articulated the issue that this is 
not a partisan issue, it is an American issue. I for one am 
very, very concerned that we handle this in a very nonpartisan 
way. I want to ask my colleagues on the Republican side to 
remember that the implementation of whatever correction we have 
will probably be executed by another administration in another 
year, and sadly looking at the next--until the end of the year, 
of basically just trying to cover ourselves until that set 
time.
    I also want to point out to my Democratic colleagues that 
defending a status quo, either be it from a previous 
administration or this administration, doesn't solve the 
problem and doesn't avoid future risks.
    Mr. Chairman, the 7-Eleven stores in America can tell you 
who picked up lip balm at their counter 3 months ago. They can 
give you that type of inventory control because they use very 
simple technologies: time delayed video surveillance.
    There is almost no company in America that I know of, and 
especially in my district with all the high-tech work, that do 
not have what appears to be a much superior security, not just 
system but mindset, than what we have seen to have been exposed 
with our laboratories.
    Now, Mr. Chairman, I want to say that I don't know, 
speaking to generals, about what is going on in the Army or the 
Air Force, but as somebody who worked around nuclear facilities 
and nuclear crafts in the United States Navy as a contract 
worker, I know the security that the United States Navy puts to 
its nuclear secrets and its nuclear information. And as a 
worker, firsthand exposure to this, I tell you I am almost to 
the point of saying, why can the United States Navy be able to 
secure its secrets and its information about its ships that are 
sitting in the middle of a 2 million population and all at once 
watch our laboratories misplace information that's as critical 
as we have seen in the last year?
    I just think that we have got to recognize, though, that it 
is not just the systems's breakdown that we have witnessed in 
the last few years, and I would ask my colleagues and the 
witnesses to address the issue of the mindset that has infected 
this agency, the mindset which appears to be that this is a 
campus environment that is not the precious treasure of 
information that is owned by the people of the United States, 
and only the people of the United States. It is not the 
personal property of the laboratory, of the university system, 
or of the world. It is the taxpayers of the United States who 
developed this information. It is their right and their right 
only to be able to use it as they see fit.
    Mr. Chairman, I appreciate the chance to be here today. I 
think this is a very important challenge, and I think it is a 
challenge to all of us in Congress to be able to understand 
that we need to find answers and we need to implement 
responses. If my 15- and 14-year-old children had lost their 
disks and said, ``Well, we are lucky, dad, nobody stole them, I 
just misplaced them,'' as a parent I would be more outraged at 
the fact that my children did not take care of what was their 
responsibility, even more than thinking that they allowed 
somebody to steal it.
    I don't think we should celebrate the fact that they were 
lost. I think that we should be frustrated and terrified that 
they were lost. And I yield back, Mr. Chairman.
    Mr. Upton. Thank you. Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. I am glad to follow my 
San Diego colleague, and I agree that this is a bipartisan 
issue and it is a national security concern that should be 
bipartisan or nonpartisan. I know not only do we need these 
continued hearings, but we need to follow up with the 
appropriations necessary with the Department of Energy. And 
also as testimony in our earlier hearings showed, we need to 
follow up to make sure the money is spent for the security 
issues.
    Like all the members of the committee, and I think all of 
Congress, we have become increasingly concerned about security 
controls at DOE and the weapons--nuclear weapon laboratories 
and the disappearance and the reappearance of the sensitive 
hard drives, and I believe improvements are necessary. And 
whether it is changing the contract or maybe bringing someone 
else in to make sure, I know we benefit from the campus-like 
attitude that we have at both Los Alamos and the other 
facility, but we also need to make sure that that campus-like 
attitude is not to the detriment of the national security of 
our Nation.
    I know it is a concern we have, but the testimony we have 
had for a number of hearings is that this is not a current 
problem. Sure, we have it now and we hear the problems, but it 
is a recurring problem over the last number of years and in 
different administrations. So I don't want it to be just a 
Secretary Richardson problem. It is a national problem that 
spans both Republican and Democrat, but we need to solve it.
    That's why, Mr. Chairman, I thank you for having these 
hearings and to keep the follow-up. We need to make sure that 
we don't have these hearings a year and a half from now and 
find out something else was misplaced, whether it is the 
easiest thing of putting security cameras in sensitive areas, 
but again there are lots of solutions that could be done and 
hopefully DOE and the administration will do it on their watch 
and not wait until the next watch.
    Thank you, Mr. Chairman.
    Mr. Upton. Thank you. Dr. Ganske.
    Mr. Ganske. Mr. Chairman, in March 1999, following the Cox 
Commission report findings, the three lab directors wrote to 
the DOE Under Secretary, urging that formal accountability 
requirements for Secret and Top Secret restricted weapons data 
be reinstituted, ``as quickly as possible.'' The Redmond 
report, issued shortly thereafter, contained a similar 
recommendation, but DOE did not take any apparent action to 
address these recommendations prior to this latest security 
incident.
    A couple of weeks ago this committee meet in secret, 
received a briefing on this problem, and what I will say--it 
has been reported in the press--and that is that the 
information on those disk drives were pretty important. I was 
astounded at that briefing at the lack of commonsense security 
arrangements, to say the least.
    So I think there are some things that we need to determine 
in this hearing. For instance, why does there seem to be such a 
big difference between DOE minimum security requirements and 
commonsense security controls, as outlined so well by Mr. 
Stupak already?
    Why has DOE failed, since 1996, to act on repeated 
recommendations to impose tighter controls on its most 
sensitive nuclear weapons information? And why did DOE in 1998 
actually move in the other direction by eliminating controls 
for Top Secret data? Those are all very important questions for 
us to determine today in this hearing. And I thank you, Mr. 
Chairman, for calling this hearing.
    Mr. Upton. Thank you. I would just note for the record that 
for those members that are not here, we will leave the record 
open for opening statements and I would make a unanimous 
consent request that all members of this subcommittee will have 
an opportunity to submit their opening statements as part of 
the record. Without objection.
    [Additional statements submitted for the record follow:]
Prepared Statement of Hon. Ed Bryant, a Representative in Congress from 
                         the State of Tennessee
    Thank you Mr. Chairman: I appreciate your holding this very timely 
hearing, and I want to welcome our distinguished panels.
    In May of last year, the nation was shocked to learn that a 
suspected Chinese spy had been repeatedly transferring top-secret 
computer files at the Los Alamos National Laboratory from a classified 
system for over 10 years before he was finally arrested. These computer 
files contained classified programs used to develop, build, test and 
simulate several generations of nuclear weapons. According to the Los 
Angeles Times, the loss of this information represents ``a staggering 
blow to U.S. national security.''
    A little over a month after learning of this security breach, the 
full Commerce Committee held a hearing on Department of Energy security 
lapses. During this hearing, the chairman of the President's Foreign 
Intelligence Advisory Board, former Senator Warren Rudman, reported 
that his commission had found evidence of serious security failings, 
including: foreign scientists visiting labs without proper background 
checks and monitoring; classified computer systems and networks with 
innumerable vulnerabilities; and instances where secure areas were left 
unsecured for years.
    In the wake of this report, Secretary of Energy Bill Richardson 
stated that ``I can assure the American people that the nuclear secrets 
are now safe.'' Less than a year later, however, news agencies began 
reporting that two computer hard drives containing sensitive 
information about U.S., Russian, and other nuclear weapons was missing. 
The information on these disks is used by the Nuclear Emergency Safety 
Team (NEST) to respond to terrorist activities or accidents involving 
nuclear weapons.
    Investigations into the disappearance of these hard drives have 
revealed that security was so lapse that the 26 NEST members were able 
to enter the vault where these devices were stored without ever having 
to sign in or sign out. NEST team members were also able to remove and 
return sensitive nuclear information without filing any type of report.
    Although the hard drives were recovered a few weeks ago, during a 
recent Senate hearing it was revealed that the information on these 
drives could have been copied in such a way that we may never know if 
this information has been given to other countries.
    The Department of Energy has just recently announced plans to 
tighten security by replacing combination locks with more sophisticated 
palm scanning locks, and possibly installing video surveillance 
systems. While this is encouraging, it is a little like closing the 
barn door after the horses have decided to leave. The real question, 
isn't what can the Department do to tighten security, but why wasn't 
this done before our nation's nuclear secrets were compromised.
    I look forward to hearing today's testimony but I want the folks 
from DOE to listen carefully. I do not want to hear what has become a 
seemingly boiler plate answer that ``yes, mistakes were made and we are 
fixing the problems.'' I have heard that too many times before and 
without fail another security breech has closely followed such 
supposedly reassuring statements. I believe it is time for a more frank 
discussion, I'm owed it, this Committee is owed it and most 
importantly, the American people are owed it.
    I thank the chair and yield back the balance of my time.
                                 ______
                                 
 Prepared Statement of Hon. Tom Bliley, Chairman, Committee on Commerce
    Thank you, Mr. Chairman. Today we continue our long-running effort 
to get to the bottom of DOE's security problems. The latest incident 
involving the disappearance, and now mysterious re-appearance, of two 
highly sensitive hard drives used by Los Alamos's nuclear emergency 
search team has already been the subject of numerous press reports and 
Congressional hearings, including one by this Subcommittee several 
weeks ago when the story first broke. But today's hearing will go 
beyond this single incident, to expose a security system that has deep 
flaws--a system that has failed to keep up with the changing security 
threats we face, and the ability of technology to both hurt and help 
our security posture.
    Based on the Committee's oversight work in this area, last Fall I 
became increasingly concerned about how DOE and its labs were 
controlling access to their highly sensitive information, such as that 
found on these missing hard drives. I instructed Committee staff to 
work with the General Accounting Office to set up a review, and we 
reached agreement on a scope of work in March of this year. Little did 
we know, at that time, how timely this work would become.
    GAO is with us today to lay out its findings from the first portion 
of its review--a survey of what DOE does, and quite surprisingly does 
not, actually require of its labs when it comes to controlling 
classified data, and how these requirements have been weakened over 
time. While DOE's requirements don't tell the whole story--the labs 
often do more than is required--they are, nonetheless, an important 
part of why we're in the trouble we're in today. As DOE's own internal 
inspectors will tell us today, DOE's minimal, and terribly vague, 
security orders create a situation in which inconsistency and 
ineffectiveness can, and often do, reign supreme.
    Indeed, what both of these recent GAO and DOE independent reviews 
confirm is something that this Committee has been exposing for years--
that the labs can be in total compliance with DOE security requirements 
and still have poor security practices. And we don't have to look any 
further than the latest Los Alamos security breach for an example. Yes, 
it appears that Los Alamos violated at least some DOE requirements, and 
swift punishment should follow. But the facts that have most of 
Congress and the American public up in arms--the lack of any record of 
who enters these sensitive vaults and removes classified data--do not 
amount to violations of DOE orders. In fact, as GAO and DOE experts 
will tell us today, the Department does not now have, and never has 
had, such specific requirements for even highly sensitive data. The 
suggestion by some that changes in controls in the early 1990s did away 
with such common-sense requirements is thus simply not true, and should 
not be used as an excuse for the pitiful current state of affairs.
    Los Alamos and the other nuclear weapon labs certainly can be 
faulted for following such minimal requirements and not using better 
local judgment in protecting highly sensitive assets. But it also must 
be noted that, in many cases--particularly at Sandia--the labs imposed 
greater controls than required by DOE, and fought efforts by DOE 
Headquarters to weaken them. And when the Cox Commission raised 
concerns last Spring about Chinese espionage at the labs, the lab 
directors urged DOE to tighten requirements for control of nuclear 
weapons data ``as quickly as possible''--a recommendation that either 
fell on deaf ears or through the bureaucratic cracks, as similar expert 
recommendations had since 1996.
    I firmly believe that, at the end of the day, responsibility for 
setting and enforcing proper security controls on this Nation's most 
sensitive nuclear secrets must be borne by the Federal government. The 
current system--which allows DOE to blame its contractors, and its 
contractors to return the favor--will never truly achieve effective 
security. The new National Nuclear Security Administration, designed by 
Congress to streamline the chain of command and enhance accountability 
for security, so far has done neither. Despite a proliferation of 
``generals'' within DOE--as evidenced by our witnesses today--we don't 
have any greater accountability. Indeed, all of these generals will 
tell us that they didn't know about, and weren't responsible for, the 
poor state of security affairs at Los Alamos with respect to these 
missing hard drives, and similarly sensitive materials scattered 
throughout these weapon labs.
    We need to put this nuclear agency's security chief firmly in 
charge of both security policies and practices at our weapons labs--and 
hold him personally accountable for future failures. And the days of 
relying on Federal contractors to establish security practices must 
end.
    Finally, let me urge caution against any reactive effort by either 
DOE or the Congress to try to impose a one-size-fits all approach to 
information security at DOE, or to return to out-dated notions of 
information ``accountability.'' As we will see today, the pre-1992 
controls, if they had been left in place, would not have prevented this 
latest incident at Los Alamos, nor would they have made our job of 
detection and investigation significantly easier. Manual, paperwork-
intensive controls do little to catch those intent on avoiding them.
    So the answer is not to return to the old rules, but to develop new 
ones that take into account the different risks that increases in 
technology and the use of electronic media pose to our nuclear 
security. At the same time, we also must embrace the benefits of 
today's technology, which allows us to better control and track our 
most sensitive data in a more effective and less costly manner--
technology being used today by private industries ranging from high-
tech powerhouses to our local grocery stores. While these technologies 
surely are not the theft-proof panacea some might suggest, they do 
provide a good starting point. I look forward to this debate, and thank 
you Mr. Chairman for holding today's hearing.
                                 ______
                                 
Prepared Statement of Hon. Diana DeGette, a Representative in Congress 
                       from the State of Colorado
    Thank you Mr. Chairman.
    I plan to make my remarks brief so that we may more quickly hear 
from our witnesses.
    I would like to thank our witnesses for coming today, I look 
forward to hearing from you. Unfortunately, I have another hearing that 
conflicts with this one so I will probably have to step out from time 
to time.
    As you know, we had a rather timely hearing on this subject roughly 
a month ago, just a day after it was revealed that computer hard drives 
containing sensitive nuclear defense information were missing from Los 
Alamos National Laboratory. I know that some of our witnesses, along 
with Secretary Richardson, have been working hard over the past month 
to ensure we know what happened to the material these disks contained, 
and to ensure that this kind of inexcusable security lapse does not 
happen again in the future. I recognize that you may not have much new 
information, or at least information appropriate for an open hearing, 
but I do look forward to an update on the progress of the 
investigation.
    On June 15, 2000, I joined five of my colleagues in sending a 
letter to Secretary Richardson. Our letter requested that the Secretary 
revoke the University of California's contract to manage and operate 
Los Alamos National Laboratory because repeated security violations 
represent a breach of contract. We obviously did not make this request 
lightly. We all recognize the tremendous intellectual value the 
University brings to our national defense and research programs. The 
problem is that the University does not seem to be able to effectively 
manage the contract, which directs them to provide security and comply 
with Department of Energy security rules and procedures. The University 
has an outstanding reputation and has great intellectual assets, this 
does not mean it has the capacity to operate an effective security 
program.
    I do not hold the University singularly responsible. The Department 
of Energy bears some blame. It is the Department's responsibility to 
oversee the contract and provide that proper security guidance, rules, 
and enforcement authority exists. It certainly appears that the 
Department has never mastered these functions. We should all agree that 
this is not a partisan issue. These problems go back years through both 
Democratic and Republican Administrations.
    I understand that the Department is now considering issuing a 
security contract. Unfortunately, adding yet another contractor into 
the mix is not likely to solve the problems we are here to discuss 
today. I am not very confident that a new contractor whose role may be 
relegated to providing technical assistance on security matters to 
laboratory management is going to remedy our security problems.
    I thank you Mr. Chairman for calling this hearing.
    I yield back the balance of my time.
                                 ______
                                 
    Prepared Statement of Hon. John D. Dingell, a Representative in 
                  Congress from the State of Michigan
    Thank you, Mr. Chairman for holding this hearing, and for the 
bipartisan staff work that led up to it. Security at DOE weapons 
laboratories is a longstanding and stubborn problem. For example, last 
year, after the downloading of nuclear weapons information by a weapons 
scientist from classified computers at the Los Alamos National 
Laboratory, the Rudman panel concluded that the Department of Energy 
``and the weapons laboratories have a deeply rooted culture of low 
regard for and, at time, hostility to security issues, which has 
continually frustrated the efforts of its internal and external 
critics, notably the GAO [General Accounting Office] and the House 
Energy and Commerce Committee.''
    But even the recommended changes in structure--even if fully 
implemented could not guarantee security. According to Senator Rudman, 
``[T]he most powerful guarantor of security at the nation's weapons 
laboratories will not be laws, regulations, or management charts. It 
will be the attitudes and behavior of the men and women who are 
responsible for the operation of the labs every day.'' Those attitudes 
ranged, according to the panel, from ``half-hearted, grudging 
accommodation'' to ``smug disregard.''
    Secretary Richardson took many steps to correct deficiencies. Most 
significantly, the Department hardened its security and greatly 
expanded the counter-intelligence operation. I wish that I could say 
the same about the laboratories. Upon the order of Secretary 
Richardson, the laboratories had a two-day security training stand-down 
last year, but apparently it was not sufficient to change the culture.
    In many ways, the loss of the hard drives at Los Alamos reflected 
that ingrained culture even more than the Wen Ho Lee incident did. It 
involved not one person, but many who knew that they were violating 
DOE's security directives when they did not report the missing disks. 
Someone--deliberately or otherwise--removed the hard drives from their 
secure location. Many, many other people tried to cover up the loss. 
But why shouldn't they? No one was disciplined for the weak cyber 
security last year. Why would anyone be punished now?
    The University of California will tell us today of its ``integrated 
security and safeguards management'' system which will instill security 
awareness in every employee. Perhaps it would have prevented the latest 
incident. But it is still not operational. Mr. Chairman, the chronic 
security problems at Los Alamos led me and five other Democrats on this 
Committee last month to call for the removal of the University of 
California as the contractor at Los Alamos. Only when contractors 
understand that there are real consequences to pay for security 
breaches will they make necessary changes.

    Mr. Upton. This morning, for our first panel, we have Mr. 
Jim Wells, Issue Area Director for Energy Resources and Science 
Issues of the U.S. General Accounting Office. Welcome, and you 
will be accompanied by Mr. Fenzel.
    We also have Mr. Glenn Podonsky, a familiar face to members 
of this subcommittee, Director of the Office of Independent 
Oversight and Performance Assurance at the Department of 
Energy.
    As you gentlemen know, we have had a longstanding tradition 
of taking testimony under oath. Do you have any objection to 
that?
    Mr. Podonsky. No.
    Mr. Wells. No.
    Mr. Fenzel. No.
    Mr. Upton. The committee rules also allow you to have 
counsel help represent you. Do you wish to have counsel?
    Mr. Podonsky. No.
    Mr. Wells. No.
    Mr. Fenzel. No.
    Mr. Upton. If you would stand and raise your right hand.
    [Witnesses sworn.]
    Mr. Upton. Thank you. You are now under oath.
    Mr. Wells, we will start with you and I would note we would 
like you to keep your remarks to about 5 minutes and your 
entire statement is now part of the record. Mr. Wells.

TESTIMONY OF JIM WELLS, ISSUE AREA DIRECTOR, ENERGY, RESOURCES, 
     AND SCIENCES ISSUES, U.S. GENERAL ACCOUNTING OFFICE, 
   ACCOMPANIED BY WILLIAM F. FENZEL; AND GLENN S. PODONSKY, 
   DIRECTOR, OFFICE OF INDEPENDENT OVERSIGHT AND PERFORMANCE 
              ASSURANCE, U.S. DEPARTMENT OF ENERGY

    Mr. Wells. Thank you, Mr. Chairman, members of the 
subcommittee. Once again, GAO is here to present information--
--
    Mr. Upton. If you would just pull the mike just a little 
closer so the folks in the back can hear.
    Terrific. Thank you.
    Mr. Wells. Once again, GAO is here to present information 
regarding a lapse in security at the Department of Energy. 
Accompanying me today is William Farrell Fenzel, our assistant 
director, who over the years has done a lot of the security 
work in the Department of Energy.
    At your request several weeks ago, we received a letter 
asking for an audit investigation of accountability of 
classified material controls that were in existence at the 
Department of Energy. That audit has begun and it is still 
ongoing.
    During our work, you asked us today to appear before this 
committee to discuss the answers to two questions. The first 
question was, what are the minimum DOE requirements imposed on 
classified material by the contractors who do the work for the 
Department of Energy? And the second question was, are document 
sign-in and sign-out sheets required?
    We have this information. It is shown in pages 4 and 5 of 
my written statement, but I will also refer to the charts on my 
left-hand side. What I would like to do is quickly just 
highlight those charts that deal with Secret and Top Secret 
requirements to show you how basic accountability requirements 
have changed over the last 12 years.
    I want to turn your attention now to the Secret chart. 
These are changes in the minimum requirements for controlling 
secret documents.
    What you see on the left-hand side are typical 
accountability document requirements, things like frequency of 
inventories. These are the types of things that were required 
under DOE, things like unique identification numbers, putting a 
number on a document so that you know whether that document is 
present or not; things like approval for reproduction so before 
one can make a copy of a classified document, one must go back 
to the originator of the document, and seek permission and 
document that an extra copy has been made. As you can see by 
that chart, most of those requirements were dropped and 
discontinued in 1992.
    If I could refer you to the second chart, which talks about 
some of the changes in the minimum requirements for controlling 
Top Secret documents, once again on the left-hand side you will 
see typical accountability-type controls. What I would like to 
point out for Top Secret documents, in terms of DOE minimum 
requirements, is that some of these requirements have been 
reduced not once but twice.
    Looking at frequency of inventories, as you can see, 
required every 6 months in 1988. That was changed to annually 
in 1995, and in 1998 the requirement for inventories was 
discontinued.
    Looking at items like a Top Secret control officer and end-
of-day verification, we are talking about a requirement that 
did exist at one time for a custodian, a person that would know 
who had what document and where, and at the end of each day 
would verify and certify that the Department of Energy had 
control over where that particular document was.
    And last, let me answer that question in terms of whether 
there are required sign-in and sign-out sheets. Based on our 
audit team's discussion with agency officials, we have spent 
hours combing hundreds of pages of DOE orders and current 
security manuals and cannot find any requirement, minimum 
requirement, for sign-in and sign-out sheets.
    The bottom line, Mr. Chairman, clearly what you see 
represented on those charts document that the requirements have 
gone down, or as Mr. Bilbray talked about, the threshold has 
been lowered.
    This is what we found to date. We still need to look at 
what is being done in terms of the actual practices; even why 
these changes are being made and what impacts, if any, exist 
out there when we finish our audit for this committee.
    Mr. Chairman, I am going to stop here. I probably have a 
couple more minutes but I am going to stop here because I think 
we have much more to do and a lot more answers to come up with. 
We do, however, share the concern of the committee about 
document accountability and, like you, we too look forward to 
hearing the answers of the witnesses that follow this panel.
    Mr. Chairman, thank you. We will be glad to respond to any 
questions you may have.
    [The prepared statement of Jim Wells follows:]
   Prepared Statement of Jim Wells, Director, Energy, Resources, and 
    Science Issues, Resources, Community, and Economic Development 
                             Division, GAO
    Mr. Chairman and Members of the Subcommittee: We are pleased to be 
here today to provide information on the Department of Energy's (DOE) 
requirements for protecting and controlling classified documents. DOE's 
requirements are designed to protect classified documents from their 
inception to their destruction. At the Subcommittee's request, we have 
begun an evaluation, which is still underway, of DOE's classified 
matter protection and control program. During the past few weeks, we 
briefed your staff on DOE's requirements for controlling classified 
documents. At your request, we are testifying today on changes in DOE's 
requirements since 1988, when complete accountability was required for 
Secret and Top Secret documents. You also asked us to testify on the 
extent to which sign-out sheets have been required to provide a record 
of who removed a classified document from storage and when it was 
removed.
    I would like to emphasize that the requirements we address today 
are DOE's minimum requirements. The contractors who operate DOE's 
facilities may require additional controls and procedures to protect 
and control classified documents. We are providing information on the 
requirements for controlling both Secret and Top Secret documents in 
protected areas. Protected areas have physical barriers and also have 
controlled access. Secret and Top Secret documents stored outside of 
these areas require additional protective measures.
    In summary, DOE has numerous procedures designed to protect 
classified documents. The requirements vary depending on the type of 
document being protected and the nature of the protection provided 
where the document is stored. We found that many requirements for 
protecting and controlling Secret and Top Secret documents stored in 
protected areas were discontinued in the 1990s. For example, the 
requirement to inventory Secret documents every 3 years was 
discontinued in 1992 with other controls over Secret documents. In 
regard to Top Secret documents, many requirements, such as a Top Secret 
Control Officer, were eliminated in 1998.
Background
    DOE is responsible for administering a security program that 
protects classified documents from loss or theft. DOE's memoranda, 
orders, and manuals set forth the requirements for protecting and 
controlling classified documents at DOE facilities. DOE's strategy for 
protecting classified documents involves a ``graded protection'' 
system. Under such a system, the level of protection for a classified 
document is commensurate with the threat to the document, the 
vulnerability of the document, the value of the document, and the level 
of risk to the document that DOE is willing to accept. Not all items 
are protected to the same degree; furthermore, locations on a DOE site 
may be protected differently. Protection is provided by various means, 
such as physically protecting classified documents with guards, 
buildings, vaults, and locks; limiting access to classified documents 
to personnel with proper security clearances and a legitimate need to 
have the information; and the processes and procedures known as 
classified matter protection and control.
    DOE's classified matter protection and control program has included 
a wide variety of requirements. These requirements have included 
conducting inventories of classified documents and maintaining an 
accountability record for each classified document. The accountability 
record can include a description of the document, date, classification 
level and category. DOE has also required that each classified document 
be assigned a unique identification number--to allow the identification 
and tracking of the document--and a copy and series designation--to 
provide information on how many copies exist. Additionally, DOE has 
required the use of receipts for internal and external distribution to 
provide a record of dissemination of a classified document within a 
facility and outside a facility, respectively. Finally, DOE has 
required certain procedures for maintaining receipts and destruction 
records and obtaining approval for the reproduction of a classified 
document. Other requirements could also be used, such as maintaining a 
sign-out sheet to provide a record of who removed a classified document 
from storage and when it was removed.
    DOE has also required additional controls for Top Secret documents. 
These have included assigning a Top Secret Control Officer, who has 
ultimate responsibility for Top Secret documents; conducting a 
verification to certify that all Top Secret documents have been 
returned to storage at the end of each work day; and maintaining a Top 
Secret access record that lists all persons who are authorized access 
to Top Secret documents.
Changes to DOE's Requirements Over the Past 12 Years
    In general, over the past 12 years, many requirements for Secret 
and Top Secret classified matter protection and control have been 
discontinued. Specifically, requirements for maintaining records and 
receipting and reproducing classified documents were discontinued. 
According to DOE classified matter protection and control officials, 
these changes were implemented to promote governmentwide uniformity 
among contractors and to account for technological changes, such as 
computers, copiers, and faxes, in the processing and storage of 
classified information. In our ongoing evaluation, we will be looking 
at how other agencies protect and control classified documents.
    The following tables show the requirements, or lack of 
requirements, for certain classified matter protection and control 
procedures. Several points in time were selected to demonstrate the 
changes in requirements from 1988 to 1998. The 1988 requirements are 
used as a baseline because, in that year, DOE required accountability 
procedures and receipting and reproduction requirements that applied to 
all Secret and Top Secret documents. The requirements for Secret 
documents for 1992 are shown because in that year DOE modified 
accountability requirements for Secret documents. The 1992 requirements 
for protecting and controlling Secret documents have not changed.
    Table 1 shows that many requirements for controlling Secret 
documents that were required in 1988 were discontinued in 1992. Among 
those discontinued were DOE's requirement to conduct inventories, 
maintain an accountability record, assign a unique identification 
number and copy and series to each Secret document, use receipts for 
the dissemination of Secret documents within a facility, and obtain 
approval from the document's originator before reproducing a Secret 
document. The requirements for retaining receipts and destruction 
documentation did not change. DOE has not and does not require a sign-
out sheet for Secret documents.

     Table 1: Changes in Minimum Requirements for Controlling Secret
                                Documents
------------------------------------------------------------------------
       Control requirement               1988                1992
------------------------------------------------------------------------
Frequency of inventories........  Every 3 years.....  Requirement
                                                       discontinued
Accountability record...........  Required..........  Requirement
                                                       discontinued
Unique identification number....  Required..........  Requirement
                                                       discontinued
Copy and series designation.....  Required..........  Requirement
                                                       discontinued
Receipts for internal             Required..........  Requirement
 distribution.                                         discontinued
Receipts for external             Required..........  Required
 distribution.
Retention of receipts...........  2 years...........  2 years
Retention of destruction records  2 years...........  2 years
Approval for reproduction.......  Required..........  Requirement
                                                       discontinued
Sign-out sheets.................  Not specified.....  Not specified
------------------------------------------------------------------------
Source: Prepared by GAO on the basis of DOE documents.

    Table 2 shows DOE's requirements for safeguarding Top Secret 
documents in 1995 and 1998 in addition to the 1988 baseline 
requirements. The requirements in 1995 are included because DOE revised 
its classified matter protection and control manual, changing several 
inventory and accountability requirements. DOE decreased the frequency 
of inventories from semiannually to annually. DOE had also discontinued 
the requirements for assigning a copy and series designation to each 
document and the requirement for verifying that all Top Secret 
documents had been returned to storage at the end of the work day.
    DOE's minimum requirements for 1998 are included because DOE again 
revised its classified matter protection and control manual to 
eliminate additional accountability requirements for Top Secret 
documents. In 1998, DOE eliminated requirements for performing annual 
inventories, maintaining an accountability record, assigning a unique 
identification number to each document, assigning a Control Officer, 
maintaining an access record, using receipts for the dissemination of 
Top Secret documents within a facility, and obtaining approval before 
reproducing a document. The requirements for using receipts for 
dissemination of Top Secret documents to recipients outside the 
facility and retaining receipts and destruction documentation did not 
change. DOE has not and does not require a sign-out sheet for Top 
Secret documents. The 1998 requirements for protecting and controlling 
Top Secret documents have not changed.

                  Table 2: Changes in Minimum Requirements for Controlling Top Secret Documents
----------------------------------------------------------------------------------------------------------------
         Control requirements                    1988                     1995                     1998
----------------------------------------------------------------------------------------------------------------
Frequency of inventories.............  Every 6 months.........  Annually...............  Requirement
                                                                                          discontinued
Accountability record................  Required...............  Required...............  Requirement
                                                                                          discontinued
Unique identification number.........  Required...............  Required...............  Requirement
                                                                                          discontinued
Copy and series designation..........  Required...............  Requirement              No change from 1995
                                                                 discontinued.
Top Secret Control Officer...........  Required...............  Required...............  Requirement
                                                                                          discontinued
End-of-day verification..............  Required...............  Requirement              No change from 1995
                                                                 discontinued.
Access record........................  Required...............  Required...............  Requirement
                                                                                          discontinued
Receipts for internal distribution...  Required...............  Required...............  Requirement
                                                                                          discontinued
Receipts for external distribution...  Required...............  Required...............  Required
Retention of receipts................  5 years................  5 years................  5 years
Retention of destruction records.....  5 years................  5 years................  5 years
Approval for reproduction............  Required...............  Required...............  Requirement
                                                                                          discontinued
Sign-out sheets......................  Not specified..........  Not specified..........  Not specified
----------------------------------------------------------------------------------------------------------------
Source: Prepared by GAO on the basis of DOE documents.

    While we were asked to discuss document protection and control 
within DOE protected areas, it should be noted that Secret and Top 
Secret documents stored outside of these areas require additional 
protective measures. In addition, these requirements have not been 
discontinued for some specific types of Secret and Top Secret 
classified documents. These include classified documents related to 
special access programs, cryptographic information, and NATO classified 
information.
    I would like to reiterate that the requirements we address today 
are DOE's minimum requirements. The contractors who operate DOE's 
facilities may require additional controls and procedures to protect 
and control classified documents. In addition, as you know, we have 
recently begun our work for the Subcommittee related to accountability 
for classified documents and will be doing further work on these 
issues.
    We discussed the information related to classified matter 
protection and control requirements with DOE's Office of Safeguards and 
Security and Office of Independent Oversight and Performance Assurance 
officials, who agreed with its factual accuracy.
    Mr. Chairman, this concludes our formal statement. We would be 
happy to respond to any questions that you or Members of the 
Subcommittee may have.
Contact and Acknowledgements
    For future contacts regarding this testimony, please contact Jim 
Wells at (202) 512-3841. Individuals making key contributions to this 
testimony include William F. Fenzel, Kenneth E. Lightner, Jr., and 
Ilene M. Pollack.

    Mr. Upton. Thank you.
    Mr. Podonsky.

                 TESTIMONY OF GLENN S. PODONSKY

    Mr. Podonsky. Thank you, Mr. Chairman. I appreciate the 
opportunity to appear before this subcommittee to discuss 
classified information security controls at DOE's nuclear 
weapon laboratories. As you all are aware, my office provides 
the Secretary of Energy with an independent view of the 
effectiveness of departmental policies, programs and procedures 
in the areas of safeguards and security, emergency management 
and cyber security.
    At the outset of my statement, I believe it is particularly 
important to inform this committee about some significant 
aspects of DOE's current administrative requirements for 
protecting classified information and how those requirements 
came about.
    Ten years ago, DOE required a formal accountability system 
for all Secret and Top Secret information. Each document or 
item was accounted for from origination to destruction, and 
each was identified by unique number, page count, and various 
other specific markings. A chain of custody was maintained 
throughout the item's life. Additionally, periodic inventories 
were required to ensure that all documents or items were 
present and or accounted for.
    In 1991, DOE began modifying its requirements for 
classified matter accountability. This action was in response 
to a governmentwide initiative that originated from a 1990 
National Security Council assessment, intended to establish a 
single security program that could be applied to both industry 
and government.
    Consequently, in February 1991, DOE modified its policy to 
eliminate the requirement to account for Secret-level national 
security information, which was not directly related to nuclear 
weapon information.
    In May 1992, DOE again modified its requirements based on 
the provisions of part 2001 of Title 32 of the Code of Federal 
Regulation; this time eliminating formal accountability 
requirements for Secret RD; that is, nuclear weapons-related 
information.
    In January 1998, under the authority of Executive Order 
12958 dated April 1995, DOE eliminated security accountability 
requirements for all Top Secret information stored in secure 
areas.
    With these modifications, current DOE policy only requires 
sites to formally account for certain types of documents, such 
as sensitive compartmented information, foreign government 
information, some sensitive nuclear weapons use control 
information, and special access program information.
    These reductions of accountability requirements were part 
of a general trend toward reduction in security that occurred 
in the early to mid-1990's. During that period, DOE initiatives 
were aimed at reducing security costs, declassifying 
information and increasing openness at DOE sites. That general 
trend included DOE's encouragement for sites to reduce security 
costs through such actions as downsizing protective forces, 
downgrading clearances and eliminating or consolidating 
security areas, all elements of the overall program for 
protection of classified information.
    However, as we have seen, security requirements subject to 
a wide range of interpretations do not enhance the security 
posture of our entire government. In response to the 1999 
allegations of espionage at Los Alamos, Secretary Richardson 
took some extensive and unprecedented actions. Security within 
DOE, and particularly at the three national weapons labs, 
received high-level management attention. Secretary Richardson 
directed the implementation of an extensive set of cyber 
security enhancements; strengthened DOE security management 
organization through functional reorganizations, in addition to 
personnel and expertise; elevated the oversight function to be 
a direct report to his office; implemented a polygraph program 
and issued a zero tolerance policy for security violations.
    At the same time, the Headquarters Office of Defense 
Programs published a ``goal post'' document that established 
expectations for near-term improvements that would enable each 
site to achieve a satisfactory security program. Under these 
initiatives, DOE sites took aggressive action and strengthened 
their security programs and practices in several areas, 
including cyber security, control of foreign nationals and 
storage of classified weapon components. However, since these 
efforts were initiated within the DOE, they did not address the 
governmentwide policy problems associated with the control of 
Secret and Top Secret classified information.
    DOE is unique in that it possesses and is responsible for 
safeguarding certain types of information that no other agency 
possesses; specifically, information categorized as restricted 
data that deals with nuclear weapons design, manufacture and 
testing, and includes information about disabling or enabling 
nuclear weapons. Such information merits a higher degree of 
protection than any types of classified information.
    Consequently, at the direction of Secretary Richardson, DOE 
is currently evaluating and/or implementing four departmental-
wide recommendations:
    First, reinstitute requirements for a formal accountability 
system for Top Secret and Secret weapons data.
    Second, establish a clear and comprehensive graded approach 
for information protection and issue appropriate implementing 
guidance. This approach should include practical guidelines for 
determining relative importance of information, provide more 
sensitive information and greater amount of protection.
    Third, clarify the need-to-know policy in order to better 
limit access to information.
    Fourth, continue efforts to expand the human reliability 
programs to include personnel with access to the most sensitive 
nuclear secrets.
    When the Secretary was informed in June of this year of the 
security incident at Los Alamos involving missing classified 
hard drives, he demanded to get to the bottom of the situation 
and once again he took a number of aggressive steps to increase 
the control and protection of particularly sensitive weapons-
related data.
    The Secretary directed immediate implementation of several 
recommendations. Other recommended changes, including the four 
I specifically mentioned, should be incorporated--and these 
should be incorporated into DOE orders as soon as possible.
    Additionally, he directed my office to make an immediate 
assessment on an expedited basis of the adequacy of security 
procedures and administrative controls for such information at 
Los Alamos, Livermore, and Sandia National Laboratories. We 
completed reviews of Livermore and Sandia and we will conduct a 
similar review at Los Alamos after the FBI has completed its 
criminal investigation surrounding the classified hard drives.
    This concludes my comments. Thank you, Mr. Chairman.
    [The prepared statement of Glenn S. Podonsky follows:]
     Prepared Statement of Glenn S. Podonsky, Director, Office of 
  Independent Oversight and Performance Assurance, U.S. Department of 
                                 Energy
    Thank you Mr. Chairman. I appreciate the opportunity to appear 
before this subcommittee to discuss classified information security 
controls at DOE's nuclear weapons laboratories. As you are aware, my 
office provides the Secretary of Energy with an independent view of the 
effectiveness of departmental policies, programs, and procedures in the 
areas of safeguards and security, emergency management, and cyber 
security.
    At the outset of my statement, I believe it is particularly 
important to inform you about some significant aspects of DOE's current 
administrative requirements for protecting classified information and 
how those requirements came about.
Historical Summary
    Ten years ago, DOE required a formal accountability system for all 
Secret and Top Secret information. Each document or item was accounted 
for from origination to destruction, and each was identified by a 
unique number, page count, and various other specific markings. A chain 
of custody was maintained throughout the item's life. Additionally, 
periodic inventories were required to ensure that all documents or 
items were present or accounted for.
    In early 1991 DOE began modifying its requirements for classified 
matter accountability. This action was in response to a government-wide 
initiative that had as its foundation a 1990 National Security Council 
assessment intended to establish a single efficient national industrial 
security program that could be applied to both industry and government.
    Consequently, in February 1991 DOE modified its policy to eliminate 
the requirement to account for Secret level information that was 
categorized as National Security Information--that is, information that 
could impact national security but was not directly related to nuclear 
weapons design or nuclear material production.
    In May 1992, DOE again modified its requirements based on the 
provisions of Part 2001 of Title 32 of the Code of Federal Regulations, 
this time eliminating formal accountability requirements for Secret 
Restricted Data--that is, nuclear weapons-related information.
    In January 1998, under the authority of Executive Order 12958 of 
April 1995, DOE eliminated accountability requirements for all Top 
Secret information.
    With these modifications, current DOE policy only requires sites to 
individually account for certain types of documents, such as sensitive 
compartmented information, foreign government information, some 
sensitive (nuclear weapons) use control information, and some special 
access program information.
    These reductions of accountability requirements were part of a 
general trend toward reduction in security that occurred in the early 
to mid 1990s, partly as the result of the end of the cold war. During 
that period DOE initiatives were aimed at reducing security costs, 
declassifying information, and increasing ``openness'' at DOE sites to 
promote interactions with local communities and with industry. That 
general trend included DOE's encouragement for sites to reduce security 
costs through such actions as downsizing protective forces, downgrading 
clearances, and eliminating or consolidating security areas, all 
elements of the overall program for protecting classified information.
    In response to the 1999 allegations of espionage at Los Alamos, 
Secretary Richardson took some extensive and unprecedented actions. 
Security within DOE, and particularly at the three national weapons 
laboratories, received high-level management attention. Secretary 
Richardson directed the implementation of an extensive set of cyber 
security enhancements, strengthened DOE's security management 
organization through functional reorganization and addition of 
personnel and expertise, elevated the oversight function to a direct 
report to his office, implemented a polygraph program, and issued a 
zero tolerance policy for security violations. At the same time, the 
Headquarters Office of Defense Programs published a ``goal post'' 
document that established expectations for near-term improvements that 
would enable each site to achieve a satisfactory security program. 
Under these initiatives, DOE sites took aggressive action and 
strengthened their security programs and practices in several areas, 
including cyber security, control of foreign national visitors, and 
storage of classified weapons components. However, since these efforts 
were initiated within DOE, they did not address the government-wide 
policy deficiencies associated with the control of Secret and Top 
Secret classified information. Minimal security requirements that are 
subject to a wide range of interpretations for the purpose of 
implementation do not, as we have seen, enhance the security posture of 
our government.
Recommendations
    DOE is unique in that it possesses and is responsible for 
safeguarding certain types of information that no other agencies 
possess--specifically, information categorized as Restricted Data that 
deals with nuclear weapons design, manufacture, and testing, and 
includes information about disabling or enabling nuclear weapons. Such 
information merits a higher degree of protection than other types of 
classified information (categorized as National Security Information).
    Consequently, at the direction of Secretary Richardson, DOE is 
currently evaluating and/or implementing four Department-wide 
recommendations:

<bullet> First, re-institute requirements for a formal accountability 
        system for certain types of information (i.e., Top Secret and 
        Secret Weapons-Related Data).
<bullet> Second, establish a clear and comprehensive graded approach 
        for information protection and issue appropriate implementing 
        guidance. This approach should include practical guidelines for 
        determining relative importance of information; provide more 
        sensitive information greater protection, and apply recent 
        enhanced requirements for vaults to other storage containers.
<bullet> Third, clarify the need-to-know policy. In order to better 
        limit access to information, DOE needs to determine prudent 
        measures for identifying specific need-to-know for access to 
        information and establish expectations for partitioning 
        information stored in large repositories.
<bullet> Fourth, continue efforts to expand the human reliability 
        programs. DOE's human reliability program, which includes drug 
        testing and regular medical evaluations and ensuring that 
        personnel who handle nuclear weapons and special nuclear 
        material are reliable and fit for duty, should be expanded to 
        include personnel with access to the most sensitive nuclear 
        secrets.
    When the Secretary was informed in June 2000 of the security 
incident at Los Alamos involving missing classified hard drives, he 
demanded to get to the bottom of the situation and, once again, he took 
a number of aggressive steps to increase the control and protection of 
particularly sensitive weapons-related data. The Secretary directed 
immediate implementation of several recommendations. Other recommended 
changes, including the four I specifically mentioned, should be 
incorporated into DOE orders as soon as possible to ensure that they 
are institutionalized and become part of a permanent policy base.
    Additionally, he directed my office to make an immediate 
assessment, on an expedited basis, of the adequacy of security 
procedures and administrative controls for such information at Los 
Alamos, Lawrence Livermore, and Sandia National Laboratories. We 
completed reviews of Lawrence Livermore and Sandia, and we will conduct 
a similar review at Los Alamos after the FBI has completed its criminal 
investigation surrounding the classified hard drives.
    That concludes my comments. Thank you, Mr. Chairman.

    Mr. Upton. Thank you both.
    Mr. Wells, as I read your testimony back in Michigan, I 
came back last night after being back for the July 4 break, I 
was, I have to say, a little astounded at looking at the charts 
that you shared here and were part of your testimony, and I 
know that we are going to be asking Mr. Glauthier questions 
about some of this. But did you get any response back from DOE 
in terms of how they could change some of these requirements in 
the past years?
    I mean, I look at myself back home and actually I do a fair 
amount of the grocery shopping. There is one store there called 
Myers, and they now have checkout lines where there is no 
cashier. You verify it yourself. It is scanned yourself. They 
have an absolute record in terms of the inventory of the store, 
and for those that hadn't done it before, I think there is one 
person for every four or five lanes going out.
    When I look at no sign-out sheets, unique identification 
numbers requirement discontinued, I mean just a whole series of 
things, it is rather amazing when I see these changes that in 
my view have weakened our security, particularly with security 
lapses. I know a number of members went out to look at the 
labs. At least from my perspective, I was very impressed with 
the physical security, the swat teams that are out, ready to 
defend against the mission impossible days that we saw on TV a 
number of years ago. But it was the cyber security, the Wen Ho 
Lee case, other things, that trouble us the most. By 
discontinuing a number of things that were once in place, it 
seems that we have provided perhaps an open invitation to 
losing documents as we saw with the two hard drives.
    What is your comment with regard to that? What reaction do 
you have?
    Mr. Wells. Regarding my reaction, when the committee 
inquired about GAO coming forth in a week or 2 to testify on 
what they had found so far, my audit team presented the results 
that you see on that chart, I did not believe them. I was 
somewhat concerned that I wanted the audit team to go back and 
verify and double-check. I found, like yourself, that I was 
astounded.
    Given the problems that we are now seeing across the 
complex, it is unclear to us what objective was trying to be 
achieved when these requirements were reduced. We have not been 
able to document why some of these changes have occurred yet. 
Quite frankly, we asked for documentation for 1992, for 
instance, in the security Secret area, why all of those 
accountability-type requirements were dropped, and the 
Department supplied us with a single one-page memorandum that 
basically acknowledged that accountability requirements are 
being modified. Nowhere on this single sheet of paper is there 
any discussion of why these requirements were being dropped. So 
as of this moment, we still don't have a good handle on the why 
part.
    Mr. Upton. You know, one of the concerns that I saw with 
your testimony, and with particularly these two missing hard 
drives, I mean as we learned what was on those hard drives, I 
can't imagine a more important document that was missing. For 
the life of me, I don't understand why it was classified as 
Secret versus Top Secret. I will get to that a little bit 
later. And Top Secret obviously ought to have a higher 
classification in terms of its tracking and its whereabouts.
    Do you have any idea why the Top Secret control officer, 
which you mentioned in your testimony, was dropped?
    Mr. Wells. No, sir, I don't have a good answer for you yet.
    Mr. Upton. Mr. Podonsky, do you have a reaction to those 
first two questions, these charts and the Top Security control 
officer?
    Mr. Podonsky. Well, we can confirm that what the GAO is 
reporting is an accurate portrayal in terms of the 
requirements. But I think part of what we have found over the 
years, and we have a long history in 1991, 1992, 1993, 1994, 
regarding concerns about the policy, is that this was a clear 
national initiative back in 1990; and there is a long stream of 
documentation that outlines how this came about, starting with 
President Bush's request of the National Security Council to 
prepare a review of how to consolidate into a single security 
program an industrial requirement that the government could 
align itself to.
    It finally resulted in a National Industrial Security 
Program Manual that came out in 1995 that lays out this. Why 
the Department elected over the years to continue to change its 
requirements, that's not clear. I would have to yield to the 
policy arm of the Department.
    Mr. Upton. I know we are going to have a couple of rounds 
so I am going to try to stick to the 5 minutes.
    Mr. Stupak.
    Mr. Stupak. Thank you, Mr. Chairman.
    Mr. Wells, I am looking at page 3 of your testimony. You 
are talking about DOE's requirements over the past 12 years. It 
starts off, and in the first paragraph, middle of the 
paragraph, it reads, According to DOE classified matter 
protection and control officials, these changes were 
implemented to promote governmentwide uniformity among 
contractors and to account for technological changes such as 
computers, copiers, and faxes in the processing and storage of 
classified information. In our ongoing evaluation, we will be 
looking at how other agencies protect and control classified 
documents.''
    So these changes that have occurred over the last 12 years 
was to make everybody--contractors, the government, DOE, the 
labs--all get on the same page? Am I reading that right?
    Mr. Wells. That's correct. We are talking about CIA, 
Department of Defense.
    Mr. Stupak. National security?
    Mr. Wells. National security agencies.
    Mr. Stupak. So that started back in about 1988?
    Mr. Wells. It was begun then; yes, sir.
    Mr. Stupak. When you go to make everybody on the same page, 
isn't that when, really, breaches of security start to break 
down; or start to occur, I should say?
    Mr. Wells. Clearly, from what we understand, much of the 
discussion that occurred in terms of whether that would work or 
not was centered on unique requirements that may exist in 
individual agencies under different circumstances. There were 
many people that did not agree with that initiative for 
uniformity. That's what we understand.
    Mr. Stupak. Well, do you agree with this need for 
uniformity amongst contractors and government and private 
industry and DOE and NSA? Should they all be on the same page, 
or should there be different degrees of security as you move 
forward within government or within industry, depending on the 
weapon or the research you are doing?
    Mr. Wells. I agree that GAO as an audit team will go in and 
continue to look at the reasons why the requirements may or may 
not need to be different throughout the agencies, but clearly 
we shouldn't lose sight of the objective of all security 
protection is to prevent the loss and prevent the compromising 
of material. And what we are currently seeing, the existing 
uniformity of regulations are not achieving that objective. So 
we may have a situation where we need to look at some unique 
requirements, particularly as regards to our nuclear weapons.
    Mr. Stupak. Okay. But in answer to my question, do you 
agree that they all should be on the same page or should it be 
different?
    Mr. Wells. I am unable to agree or disagree until we have 
had a further chance to further investigate.
    Mr. Stupak. I thought GAO's job was to evaluate this 
situation and to give us some recommendation to give this 
committee and others, oversight, as to how we should approach 
these things?
    Mr. Wells. Absolutely. We have an ongoing audit and 
investigation. We have been in it about 3 weeks. That work is 
continuing and we hope to have that work finished for the full 
committee and this subcommittee shortly.
    Mr. Stupak. But over the last 3 weeks, obviously you have 
done more--other audits; because going back to 1976, I think 
Mr. Dingell started the first letters, and periodically every 2 
years he was on GAO to do an investigation, to do an audit 
because things weren't working right with the secrecy of our 
top secrets in this country.
    Mr. Wells. Clearly, GAO has a history of 20 years of 
oversight in classified security matters and each and every 
time we have gone in and looked, there have been problems. Each 
and every time we have heard corrective action being promised 
by the Department of Energy. When we have looked at some of 
these, we have found that the implementation has not been as 
successful and problems seem to be recurring.
    Mr. Stupak. When you would look at it and you would see 
problems recurring over the last 20 years, you would make your 
recommendations and go back and see it was never done?
    Mr. Wells. We have made 50 recommendations in the last 20 
years. I had my team count up the number of recommendations 
that have been reported.
    Mr. Stupak. You have had 50. How many of them were carried 
out?
    Mr. Fenzel. I can answer that. In almost all cases with our 
recommendation, what DOE does is agree with the 
recommendations, take corrective action; but then what happens 
is things start to change and the implementation of the 
recommendation falls through and the problem resurfaces.
    Case in point with the classified documents: We issued a 
report in 1991 that pointed out missing classified documents. 
At Lawrence Livermore over 10,000 documents were missing. At 
other facilities at DOE, hundreds of documents were missing. 
DOE agreed, said they had a problem with controlling classified 
documents and were going to institute tighter controls.
    A year after that is when they began reducing the 
requirements for Secret. So the history is they take corrective 
action, but then in the implementation that corrective action 
usually falls down in many cases.
    Mr. Stupak. So we hear your recommendations; we agree with 
those recommendations; we begin to implement it, but the wheels 
come off the cart halfway through?
    Mr. Fenzel. A year, 2 years down the road, a lot of 
security issues are cyclical in this fashion.
    Mr. Stupak. How long--if anyone knows, how long has the 
longest Secretary of Energy ever been in the position? It seems 
to be like a resolving door there with Secretaries of Energy.
    Mr. Fenzel. A lot of them. The tenure of the Secretary of 
Energy--we did some work on that about 2 years ago. I can't 
comment on the present Secretary's tenure, but on average it is 
usually less than 2 years.
    Mr. Stupak. Less than 2 years?
    Mr. Fenzel. Right.
    Mr. Stupak. So there really is no accountability or 
responsibility going on when we have a revolving door at the 
top, is there?
    Mr. Fenzel. I think that hinders any type of security.
    Mr. Stupak. Thanks.
    Mr. Upton. Mr. Burr.
    Mr. Burr. Mr. Fenzel, after doing your assessment for the 
GAO, can you sum up in a couple of sentences not what you 
found, but what you felt like after you finished?
    Mr. Fenzel. You mean this present assessment?
    Mr. Burr. Yes, sir.
    Mr. Fenzel. Our work is still ongoing. And I can verify 
that when our boss, Mr. Wells, did get these tables, he didn't 
believe us at first. So in a way, we had to convince him that 
this was the situation.
    As for my reaction, I was more concerned on the Top Secret 
situation and the decreases in requirements there.
    I would like to put a caveat on that. These are the minimum 
requirements of DOE. The laboratories can do a lot more, and I 
think what you will probably hear is that there are other 
things they are doing beyond the minimum controls.
    My problem is that these are the minimum controls and while 
there are more controls out there right now, they are not 
necessarily going to be followed 1 year from now, 2 years from 
now, 5 years from now, and that eventually if these minimum 
controls are kept in place, somebody, somewhere, is going to 
follow these minimum controls and that's----
    Mr. Burr. Let me read you something from Mr. Podonsky's 
review. It is found on page 17. It says--it is talking about 
various DOE elements and individuals that advocated 
reestablishment of formal accountability systems for Top Secret 
documents and Secret weapons data.
    Most noticeably, March 1999, the director of the three 
nuclear weapons laboratories sent a joint recommendation to the 
DOE Under Secretary and the DOE Director of the Office of 
Counterintelligence in which they advocated that DOE reinstate 
accountability for documents that contained Secret restricted 
data and Top Secret restricted data.
    Would it surprise you that the lab directors were on record 
in March 1999 saying we want to reinstitute this?
    Mr. Fenzel. Well, that doesn't surprise me.
    Mr. Burr. It doesn't surprise you, does it?
    Mr. Fenzel. No.
    Mr. Burr. Let me ask you, Mr. Podonsky--let me just read 
the conclusion of that paragraph:
    They indicated that without formal accountability, 
counterintelligence reviews are much more difficult because it 
is not feasible to determine specifically who had had access to 
certain design information. They also cite the Cox Commission 
report as a basis for reinstating formal accountability.
    I mean, is that an accurate depiction in your report of the 
lab directors and their requests?
    Mr. Podonsky. As far as we know, everything that we put in 
our report is valid.
    Mr. Burr. Is it not difficult to turn around and blame the 
lab managers if they have been out there formally requesting 
reinstituting some of the accountability methods? I am not 
saying that you are accusing them, but there certainly are 
some.
    Mr. Podonsky. Congressman Burr, as you have heard me state, 
we have been in this Department--I have been in the Department 
for 16 years, and we have been writing on a lot of these issues 
for as many years as I have been here. So clearly there is a 
frustration that there is a tendency in the Federal Government 
that there is always fingerpointing as to who is responsible. 
And clearly in our collective opinion, from an oversight, 
laboratories have the responsibility and so does DOE. There is 
a shared responsibility here. As our colleagues from GAO have 
pointed out, is the requirements don't say that you can't go 
above what those--what the standard is. You can raise the bar. 
In some cases the labs have done that.
    Mr. Burr. They in fact have, and I think you point out very 
clearly in your report, and let me just read on page 6: The 
current national requirements for controlling classified matter 
are not as stringent and clear as needed in light of DOE's 
particularly sensitive nuclear weapons-related information. 
Improvements in policy are needed to further enhance security 
at DOE sites.
    And then on page 10: In many cases in the past, independent 
oversight had determined that sites were complying with the 
established requirements but that the security interests were 
not provided sufficient protection because the applicable DOE 
policies are not sufficiently clear or comprehensive.
    I guess I would ask of you, given that they had exceeded 
where they thought they understood it in the other areas, how 
much of a problem was the fact that the guidelines were unclear 
or that improvements in the policy were needed?
    Mr. Podonsky. We believe that clearly there can be more 
granularity to the DOE requirements so people understand, 
without exception, what the requirements are meant to be. 
However, we also believe that there is--while you can have good 
policies, it is also the implementation of those policies. So 
there are two sides to this: How are the policies being 
implemented? And are the policies really clear?
    Mr. Burr. I am going to respect the chairman's time.
    Mr. Upton. You better.
    Mr. Burr. It is not too difficult to understand if a lab 
director says we didn't know something was our responsibility. 
There are some things that are unclear relative to the 
guidelines where one might understand how they came to that 
conclusion; is that accurate?
    Mr. Podonsky. I think in some areas you can say that, but 
mostly I would harken back to there needs to be a core value of 
security applied, just like safety. It is everybody's 
responsibility, and the fact that people have a clearance, they 
have accepted a certain responsibility, and that means 
accountability as well.
    Mr. Burr. I think the lab directors will agree with you, as 
would these members.
    I yield back, Mr. Chairman.
    Mr. Upton. Dr. Ganske.
    Mr. Ganske. I would like to go to this chart for a few 
minutes. Some things I think are self-explanatory. Frequency of 
inventories in 1988, every 6 months; in 1995, annually; and 
then 1998, requirement discontinued. Accountability record 
required in 1988 and 1995, and then discontinued.
    Unique identification number, I think probably everyone 
understands. What does the Top Secret control officer do or 
did?
    Mr. Wells. A Top Secret control officer was basically 
performing custodial duties and was ultimately charged with the 
responsibility for Top Secret documents. He was the accountable 
guy. He was the one that said, I know where this document is; I 
know where it is stored; I know who had it, and I know when it 
was put back. That was the basic thrust of that position 
responsibility.
    Mr. Ganske. And that----
    Mr. Wells. Top Secret.
    Mr. Ganske. [continuing] control officer was able to do 
that because he or she had end-of-the-day verification?
    Mr. Wells. He had a responsibility to certify at the end of 
each day.
    Mr. Ganske. Had an access record?
    Mr. Wells. Who was entitled to look at a document or check 
a document out.
    Mr. Ganske. And there were receipts for internal 
distribution?
    Mr. Wells. That's correct.
    Mr. Ganske. But those things were discontinued in 1998?
    Mr. Wells. 1992----
    Mr. Ganske. Some were discontinued in 1995?
    Mr. Wells. Yes, Top Secret, some in 1995.
    Mr. Ganske. And some in 1998?
    Mr. Wells. Yes, some in 1998.
    Mr. Ganske. Then we have here, approval for reproduction, 
copying documents, in 1988, required; 1995, required; in 1998, 
requirement discontinued.
    Mr. Wells. Discontinued, that's correct.
    Mr. Ganske. Where was this copy machine that the disk 
drives were found behind? Where was that located?
    Mr. Wells. We don't know that. We are basically waiting for 
the investigative team to get through. We understand it might--
well, do you know?
    Mr. Podonsky. No, we have not been into the area of X 
division since the investigation started.
    Mr. Ganske. Doesn't it strike you gentlemen as sort of 
unusual that we have a copy machine there, we don't have any 
method to determine who is checking out this stuff or copying 
it, taking copies wherever? Not very good security, is it?
    Mr. Wells. It does not appear to be. Even if you were an 
originator of the document, the intent was to ensure that your 
document--you became aware of how many of those documents were 
out there and who had them. Even that's been lost.
    Mr. Ganske. All right. Well, we had a bunch of changes here 
in 1995, and then in 1998. The Secretary of Energy back in 1995 
was Hazel O'Leary. Did she give--did she sign off on these 
changes? Do you know whether she did or did not?
    Mr. Wells. The 1995 date was to correspond with the 
revision of DOE's security manual. So whichever office 
secretary signed the security manual in 1995, which again was 
updated and there were additional changes in 1998, it was put 
out under a DOE cover and was signed by some top official in 
the Department of Energy. I don't have those documents with me.
    Mr. Ganske. So I mean, it could have been an Under 
Secretary?
    Mr. Wells. Yes, that's correct.
    Mr. Fenzel. It could have.
    Mr. Ganske. Should not something of this importance also be 
reviewed by the Secretary? Would any of you care to answer 
that?
    Mr. Podonsky. From my experience in the Department, up 
until this Secretary, and with the exception of Admiral Watkins 
in the 1990 period, we did not have a Secretary that really 
focused on security in the Department.
    Mr. Ganske. Okay. Well, 1998, I believe the Secretary was 
Mr. Pena. Is that correct?
    Mr. Wells. Yes.
    Mr. Ganske. Okay. So we had a whole bunch of requirements 
discontinued in 1998. Am I to assume that Mr. Pena did not sign 
off on these, or do you know?
    Mr. Podonsky. I don't know.
    Mr. Wells. I do not know.
    Mr. Ganske. Would it be your recommendation that when we 
are dealing with changes in security requirements that the 
Secretary take a personal interest and review these before this 
becomes Department policy?
    Mr. Wells. Absolutely. I think if anything, from a lessons 
learned standpoint of the many years we have looked at these 
problems, it continues to concern us--and I used the word 
``mindset'' that was mentioned earlier--about the lack of 
attention and perhaps lack of a priority that's been placed on 
some of these security matters.
    Mr. Ganske. One last question, Mr. Chairman.
    Now, you mentioned an Executive Order, I believe, in your 
testimony, that was for changes. When was that Executive Order 
issued? Was it 1995, 1998?
    Mr. Podonsky. There is an April 1995 Executive Order 
entitled Classified National Security Information, and that was 
April 17, 1995, that was issued.
    Mr. Ganske. Okay. Now that's signed by the President, 
right?
    Mr. Podonsky. Correct.
    Mr. Ganske. The President should receive, you know, a 
recommendation, I would think, from the Secretary of the 
Department of Energy before he would sign an Executive Order 
like this. Would that be your impression?
    Mr. Podonsky. I would imagine that would be the case.
    Mr. Ganske. Do we know whether that happened or not?
    Mr. Podonsky. We have not seen any paper trail to that 
effect.
    Mr. Ganske. Are you looking for that, for this committee to 
try to find out how to improve this situation in the future?
    Mr. Podonsky. We issued an interim report, as you probably 
are aware, and when we continue on with the Los Alamos piece we 
will complete the whole package and one of the things that we 
have is we are trying to put together the entire trail from 
1990, from the original President Bush direction on the 
National Security Council to present, as to how this whole 
thing evolved.
    Mr. Ganske. Is it your current recommendation that these 
discontinued requirements be reinstituted?
    Mr. Podonsky. That's our recommendation to the Secretary.
    Mr. Ganske. Has that--what has happened since your 
recommendation?
    Mr. Podonsky. The Secretary's response to our report was to 
immediately turn to the policy folks and tell them that they 
need to take a look at implementing this right away.
    Mr. Ganske. Just to take a look, not to do it?
    Mr. Podonsky. They need to take a look at what the 
implications are going to be, so consequently they are--and I 
think the second panel can probably testify to more current 
what they are doing with those recommendations.
    Mr. Ganske. Since we have lost the disk drives there has 
not been a reinstitution of these requirements to date?
    Mr. Podonsky. No, there was guidance put out and 
requirements put out by the Secretary on June 19 and further 
followed up by General Habiger on June 23. So they did start 
tightening up right now.
    Mr. Ganske. Thank you, Mr. Chairman.
    Mr. Upton. Mr. Bryant.
    Mr. Bryant. Thank you, Mr. Chairman. You may have already 
stated this but I would ask unanimous consent to put my 
statement in the record.
    Mr. Upton. It has been done.
    Mr. Bryant. Thank you.
    I thank the panel for being here and the second panel. I 
apologize for not being here on time and probably leaving early 
also because we do have conflicting committees, and we have to 
go back and forth between these.
    Mr. Podonsky, you may have--I know we have been talking 
about this already around this subject, but you note in your 
report the absence of specific requirements, the Department of 
Energy sites often decide to implement only the minimum 
requirements because of cost concerns. Can you elaborate on 
this point and indicate whether you are aware of instances in 
which DOE or the sites have refused to fund proposed control 
requirements beyond this minimum standard?
    Mr. Podonsky. I realize in our report we talk about minimum 
standards, and perhaps it is the complexity of the English 
language but what we have found is that the--while the 
standards that are out there are needing of clarity that if 
implemented properly we think that they are good standards, 
they need to be raised to be--account for what they call the 
graded approach so that different types of information can be 
afforded the protection commensurate with that sensitivity of 
the information that we are talking about.
    But we have seen over the years that if left to open 
interpretation of what the requirements are, then we are 
basically, as an agency, leaving potential vulnerabilities as 
to whether enough is enough or when you have too much security 
applied.
    So our recommendation to the Secretary and to General 
Habiger is that we recommend that they revisit and reinstitute 
an accountability system similar to what we had back in the 
early--the early 1990's and late 1980's. That's not to say that 
we don't want the Department to take into accountability the 
technology that can be used today, but clearly accountability 
of some of our most sensitive information needs to be 
reinstated.
    Mr. Bryant. I think I agree with you. I notice that you 
mentioned specifically problems with lack of specificity and 
clarity in DOE orders, and then combined with the system I 
would say minimum requirements and couple that with the cost 
reimbursement nature of DOE's contracts with labs, this all 
seems to work together in effect to create a race to the 
bottom, so to speak, on the security issues.
    Again, Mr. Podonsky, could you address this need-to-know 
issue and what more needs to be done by the Department of 
Energy and the labs in this area?
    Mr. Podonsky. Need to know is an old standing requirement 
of a lot of government agencies dealing with sensitive 
information, and our position with the Department is that the 
need to know needs to have some additional clarity to it for 
individuals that have the responsibility. Say for a program 
manager in a vault, if that custodian or program manager needs 
to be able to determine who has access to that vault, need to 
know needs to be established, but rather than just limit it to 
the individual accountability and saying, okay, you are the 
manager, you determine what need to know is, we think there 
needs to be a little higher degree of granularity as to what 
the Department expects.
    For example, and this is just an example, if somebody has 
daily access to information, they probably have a need to know, 
but if they only have occasional need for that information 
perhaps they don't have a regular need to know.
    So that needs to be discussed further with the policy group 
in the Department of Energy, but we feel that need to know over 
the past couple of years has been left to pretty much the 
interpretation of the individuals that are executing that. And 
while they have the ultimate responsibility to execute that, we 
also think there needs to be clear guidance from the 
Department.
    Mr. Bryant. Do you--and my last question to you, are you 
satisfied with the Department's response to your recent 
recommendations on tightening controls on classified matter?
    Mr. Podonsky. We believe that the initial steps that the 
Secretary and General Habiger are taking are, in fact, in the 
right direction and we are going to be closely monitoring that. 
We would like to see a continued evolution of that.
    Mr. Bryant. Thank you.
    Mr. Upton. Thank you.
    Mrs. Wilson, though not a member of the subcommittee but a 
member of the full committee, you have been allowed to 
participate in other subcommittee hearings, I need to ask 
unanimous consent. Do you desire that?
    Mrs. Wilson. Yes, Mr. Chairman.
    Mr. Upton. I would make a request, a unanimous consent 
request, that you may ask questions as part of this hearing 
today. Any objection?
    Mr. Stupak. No objection.
    Mr. Upton. Thank you. Mrs. Wilson, you are recognized for 5 
minutes.
    Mrs. Wilson. Thank you, Mr. Chairman.
    I am interested in this question of policy and compliance 
with policy, and I note from the records from up here that 
General Habiger testified last month before the House Armed 
Services Committee that the national labs were in full 
compliance with DOE security policies. I believe that was 
before the most recent incident at Los Alamos.
    And then we have a significant change in security policies 
on June 19. And subsequently some very specific changes to what 
the minimum requirements are on everything from data bases to 
vault security to whether things are classified properly and 
how to--how to encrypt data and so on and so forth.
    Mr. Podonsky, is it your view as well that Los Alamos and 
Sandia and Lawrence Livermore were in compliance with the 
security policies at the time General Habiger testified to 
that?
    Mr. Podonsky. As exemplified by our most recent review that 
the Secretary directed at Livermore and Sandia and Los Alamos, 
the answer is, yes, we found that they were in compliance with 
the DOE, what we call the minimum requirements that the DOE 
has. Los Alamos we still need to go back up to, but we haven't 
finished that because of the FBI investigation. However, before 
you came in I also made a statement that you can be in 
compliance but it is also more--equally as important is how 
those requirements are being implemented. It's the practice 
that's also important. We can tighten up all of these 
requirements, and I hope that we do. I believe we will. But 
that still doesn't take into accountability the individual 
error that either is deliberate or by sloppy practice.
    It is the human factor. These people that are cleared to 
have access to this information, have a need to work with 
information, and as long as they have that need to work with 
that information there is always going to be the reliance on 
the individual. That is something that you can never have an 
absolute.
    Your question is, are they in compliance? Yes, as far as we 
can tell, they are in compliance.
    Mrs. Wilson. But it was the Department of Energy's view 
that the standards needed revision following that incident. I 
guess what I am getting at is, they were in compliance with the 
standards before this happened. There has been a significant 
revision of standards by the Department of Energy after it 
happened. So really this is a question of what our security 
policy is in the Department of Energy, isn't it?
    Mr. Podonsky. And I would defer that to the second panel 
for General Habiger, but over the years, as I also made a 
statement earlier, we have been encouraging the Department to, 
instead of going down the path from 1990 to where we are today 
of decreasing requirements but go back to the path that 
Secretary Richardson and General Habiger are now taking the 
Department in increasing the requirements.
    Mrs. Wilson. Since when?
    Mr. Podonsky. Since 1991.
    Mrs. Wilson. But we have seen the decline through 1998. I 
mean, since when have you been encouraging things to go back in 
the other direction?
    Mr. Podonsky. We have correspondence to the policy group of 
this Department from 1991, 1992, 1993, 1994, and again up until 
this past year a lot of what we were reporting on was not 
necessarily heeded.
    Mrs. Wilson. In other words, you were ignored when you said 
we needed to have higher standards?
    Mr. Podonsky. I did not want to say that, but yes.
    Mrs. Wilson. Thank you, Mr. Chairman.
    Mr. Upton. Thank you. We will start a second round.
    Mr. Podonsky, I know that you have not been allowed to go 
back to Los Alamos while the FBI is conducting the 
investigation. Have you visited the other two labs?
    Mr. Podonsky. Yes, we have.
    Mr. Upton. What is your reaction as to trying to make sure 
that something like what happened at Los Alamos doesn't happen 
at one of the other two labs? Have they tightened up their 
security? Have they made some changes that would prevent 
something like the missing disks, the hard drives from 
happening again?
    Mr. Podonsky. Yes, sir. We believe that the other two 
laboratories that we reviewed in a very short period of time 
have tightened up their security, and we don't believe--
especially with the further initiative that the Secretary 
directed on June 1, we don't believe that that is likely to 
happen. But, again, nothing is an absolute.
    Mr. Upton. Now, one of the chart lines, and I touched on 
this a little bit earlier, the Top Secret control officer is 
not a requirement. Do any of the three labs actually have a Top 
Secret control officer?
    Mr. Podonsky. At Sandia they are controlling TS and they 
have been controlling TS, Top Secret, and to a lesser extent at 
Livermore. Whether or not they have a Top Secret control 
officer, I don't know. I would have to find out.
    Mr. Upton. Okay. I want to read just a couple of comments 
from the redacted version of the GAO report and get your--from 
the Podonsky report, and get the reaction by both of you.
    DOE policies make no real distinction between documents and 
electronic media with respect to storage and control. Most of 
the requirements in DOE orders were written before the advances 
in cyber technology and were primarily developed with paper 
documents in mind. There has been little revision of the orders 
or manual that reflect technology advances, and it goes on and 
says in some instances large vaults containing many types of 
information that had no additional partitioning such that 
anyone with access to the vault would have access to any of the 
information therein with no explicit provisions for need to 
know, and a couple of pages later it says although there are 
some differences the minimum protection requirements for Top 
Secret are not significantly more stringent than those for 
Secret or Confidential.
    Isn't that the bottom line problem that we had at Los 
Alamos? Mr. Podonsky?
    Mr. Podonsky. Yes, sir, it is.
    Mr. Upton. Do you believe that there--and Mr. Wells, do you 
have a comment in that regard, too?
    Mr. Wells. Clearly, you cannot think of fax machines, you 
cannot think of e-mails and then turn around and look at DOE's 
security manual, which clearly strikes you as being old 
fashioned and out of date.
    Mr. Upton. Have any of you seen any evidence that DOE's 
orders even acknowledge the dramatic changes that were under 
way with this information change in technology during that last 
number of years?
    Mr. Wells. No, we have not.
    Mr. Upton. Mr. Podonsky?
    Mr. Podonsky. We have seen anecdotal evidence that there 
are changes taken about as we inspect the cyber security.
    Mr. Upton. What did your teams observe with respect to how 
the other two labs were handling NEST material and other 
similar assets and what do you attribute those differences to?
    Mr. Podonsky. We did not go into great detail into the 
investigation into NEST because of the FBI desire to expand the 
scope of their investigation to include all NEST activities, 
but what we did look at, we did find that there was good 
procedures--that they were following the DOE procedures that 
were established.
    Mr. Upton. At some point--I mean, I don't know at what 
point the FBI will allow you back in, but are you planning to--
--
    Mr. Podonsky. Yes, sir, we are not only planning to go back 
to Los Alamos, we are also going to do a specific inspection of 
the entire NEST operation of all the locations that the DOE 
has.
    Mr. Upton. Do you expect that to happen in the next couple 
of weeks before the summer is out? What is your timetable?
    Mr. Podonsky. We expect to go back to Los Alamos at the 
time that we can go back in when the investigation is complete. 
In terms of the NEST inspection, we plan to do that before the 
fall.
    Mr. Upton. Had the hard drives been designated as Top 
Secret versus Secret, do you think they would have been 
missing?
    Mr. Podonsky. I don't have the information on what the 
particulars are in the investigation and whether they would 
have been missing or not.
    Mr. Upton. Mr. Wells?
    Mr. Wells. While I could not speculate, clearly looking at 
the two charts many of those document control requirements, 
whether it be Secret or Top Secret, are not a requirement. So 
one could speculate that they perhaps might still be missing.
    Mr. Upton. Thank you.
    Mr. Stupak.
    Mr. Stupak. Thank you, Mr. Chairman. When I asked questions 
earlier, we sort of established that these minimum controls 
were not only in DOE but NSA, CIA, private contractors, 
correct?
    Mr. Wells. We were told that the changes that were 
initiated in 1992, 1995 and 1998 were in response to trying to 
get uniformity across the government, yes.
    Mr. Stupak. Sure. So the breaches we have had here in 
security in Top Secret could have happened in any one of these 
agencies, departments, even from private government--I mean 
private contractors, correct?
    Mr. Wells. We understand that the chart was prepared for 
only looking at and assessing the DOE orders. We, the GAO audit 
team, had not looked at the other DOD-type orders or 
requirements to confirm that they are similar.
    Mr. Stupak. Okay.
    Mr. Podonsky, it could have happened somewhere else other 
than DOE?
    Mr. Podonsky. We believe that to be the case, irrespective 
of what the chart shows.
    Mr. Stupak. In fact, the Walker spy case did not involve 
DOE but that was one where they made copies of classified 
documents on copy machines and gave them away because we had 
these so-called minimum standards, correct?
    Mr. Podonsky. I believe that to be the case.
    Mr. Stupak. You are nodding your head yes, but you have to 
give something verbal so we can record it.
    Mr. Podonsky. Sure.
    Mr. Stupak. I know when I shake my head, it rattles once in 
awhile.
    Mr. Podonsky. Mine doesn't rattle, sir.
    Mr. Stupak. But the minimum controls, that would also apply 
to University of California and the labs, correct?
    Mr. Podonsky. Correct.
    Mr. Stupak. Even though the director of DOE may be--a 
Secretary may only be there less than 2 years, these contracts 
are 5 years so even if there is a change in Secretary, the 
contract still must be fulfilled by the labs to these minimum 
standards, correct?
    Mr. Podonsky. Correct.
    Mr. Stupak. Regardless of what the minimum controls are, I 
would hope that the labs don't feel that even though we have 
these minimum controls that does not give them a right to lose 
documents or to lose hard drives, things like that; correct?
    Mr. Podonsky. Correct.
    Mr. Stupak. And I would hope that if you are doing a 
contract, whether it is with the government or private 
industry, you would always try to perform to the maximum 
potential of a contract and not the minimum levels of a 
contract; correct?
    Mr. Podonsky. Correct.
    Mr. Stupak. All right. Mr. Podonsky, in your testimony you 
indicated that Secretary Richardson has put in four things, and 
I summarized them briefly as accountability, graded approach, 
need to know limited access and human liability. That is just 
when I was taking my notes there.
    You have indicated that the graded approach to protecting 
classified material should be implemented. Under this approach, 
some Top Secret documents would have more restrictions than 
others. In the next panel, Mr. Aftergood is probably going to 
testify about the higher fences initiative. Are you familiar 
with this, the higher fences initiative?
    Mr. Podonsky. I am vaguely familiar with the initiative.
    Mr. Stupak. Is this a similar concept to the graded 
approach?
    Mr. Podonsky. I believe it is.
    Mr. Stupak. Could you explain a little bit more clearly to 
me what you mean by this graded approach?
    Mr. Podonsky. The Department has in place and has had for 
some time now the concept of graded approach, which means that 
the sites have to protect documents according to the type of 
information that's there.
    So, in other words, not all secrets that we hold in this 
country should be afforded the same type of protection. So the 
graded approach is meant to allow folks--allow the people that 
have to be accountable for the maintaining of these sensitive 
or classified documents at a higher level.
    Mr. Stupak. So the graded approach is not just the site 
specific but also what happens internally within that site?
    Mr. Podonsky. Yes.
    Mr. Stupak. Okay. Thank you.
    Higher fences, if I remember correctly, was one of the 
recommendations of Secretary O'Leary's Interagency Fundamental 
Classification Review submitted in 1996. Since the Department 
of Defense shares much of this information, DOE has been 
negotiating, and I understand unsuccessfully, with the 
Department of Defense since 1997 over what should be included. 
But the whole effort appears to be dead at this point because 
DOD says it costs too much and has operational impact.
    Can DOE implement the graded approach when DOD refuses to 
have the same level of security for the same documents if we 
are talking about these minimum requirements and graded 
approach? Can you apply it?
    Mr. Podonsky. General Habiger would be more equipped to 
answer that but I will answer that from our perspective, and 
irrespective of what DOD is willing to do or not do, I think 
this agency should take the initiative and raise the bar on its 
own requirements.
    Mr. Stupak. Okay. Thank you, Mr. Chairman. I will yield 
back.
    Mr. Upton. Thank you.
    Mr. Burr.
    Mr. Burr. Thank you, Mr. Chairman. Mr. Chairman, I referred 
to a letter earlier from the lab directors to Secretary Moniz 
at the Department of Energy on 3-1-99. I would ask unanimous 
consent that that be entered into the record.
    Mr. Upton. Without objection.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T7110.001
    
    Mr. Burr. Mr. Podonsky, you referred earlier to the fact 
that Secretary Richardson had implemented a number of new 
security policies, some recent, some last year, when the first 
incident at Los Alamos took place. One of them was the 
polygraph. Has anybody been polygraphed?
    Mr. Podonsky. Yes, sir. I can tell you personally that 
almost my entire office has been polygraphed.
    Mr. Burr. Your office, the investigators have been 
polygraphed. From the standpoint of the original scope of who 
was to be polygraphed, individuals at the labs, has that taken 
place?
    Mr. Podonsky. I believe it has, and again I would defer to 
the second panel for the specific numbers.
    Mr. Burr. I will be sure to cover it with them.
    Let me go back to your report and again read from page 6. 
``Secretary Richardson has again taken prompt and aggressive 
action to address residual weaknesses that have become apparent 
in the course of security incidents. On June 19, 2000, the 
Secretary issued directions to enhance classified matter 
protection. For example, he specifically required nuclear 
weapons laboratories to immediately implement measures for 
better control entry and egress to vaults, including mandating 
that logs be kept.''
    I take it that was a directive from the Secretary that you 
are referring to?
    Mr. Podonsky. Yes, sir.
    Mr. Burr. Let me ask you, if the labs were responsible for 
security, why would it need a secretarial mandate or referral 
to address specifically those vaults?
    Mr. Podonsky. Well, because since there was no requirement 
prior to that.
    Mr. Burr. But there was a request prior to that, correct?
    Mr. Podonsky. I am not following the request.
    Mr. Burr. Did you find at any time that any of the labs had 
tried to upgrade the security to their vaults?
    Mr. Podonsky. There were anecdotal examples that the teams 
have found that they were upgrading at Sandia and to a lesser 
extent to Livermore.
    Mr. Burr. In one case, if I remember, at Sandia, it was met 
by the Albuquerque office with ``we won't pay for the upgrade 
in security.''
    Mr. Podonsky. I am not familiar with that.
    Mr. Burr. We will get into that later. Let me again go to 
your report on page 14. ``The recent independent oversight 
review concluded that the laboratories had addressed identified 
weaknesses,'' parenthesis, ``including long-standing weaknesses 
with classified parts, met DOE's expectations defined in the 
goals posted in the goal post memorandum and generally met 
current DOE requirements.''
    Now we are talking about moving the security totally 
outside of these contractors and possibly renegotiating a 
contract with contractors where security is done by a third 
party, I take for granted, is the initiative. Let me just ask 
you, honestly, will this work if that's all we do?
    Mr. Podonsky. I guess, Congressman, to get to the heart of 
the answer to your question, I would say that no matter what we 
put in place, in this Department or any other agency, it goes 
back down to whether people are going to be held accountable 
for violating practices, how those practices are put into 
place. If you go to a third level contractor, I can only give 
you a personal opinion, and my personal opinion is it is 
dependent on the management of that contract and how people are 
held accountable for that contract.
    We have seen a variety of examples of contracts in the 
Department. Some work better than others. A lot of it is driven 
by the individual at the top.
    Mr. Burr. Have you ever done an evaluation or study of the 
Albuquerque office as related to their involvement in the 
security at the two labs they are responsible for?
    Mr. Podonsky. Yes, sir, we have.
    Mr. Burr. And what was your finding, if you could just 
summarize that?
    Mr. Podonsky. Dependent on who the field office manager was 
at the time which is responsible for the Albuquerque operation, 
we found varying degrees of effectiveness from the Albuquerque 
office.
    Mr. Burr. Is it safe to say that Albuquerque was fully 
aware of the intricacies of the NEST program?
    Mr. Podonsky. I don't know.
    Mr. Burr. Would they have been fully aware of the security 
requirements that the labs instituted at the vaults?
    Mr. Podonsky. They should be, because they are required to 
do an annual survey of the lab.
    Mr. Burr. Is it safe to believe that Albuquerque DOE office 
knew that that particular vault had shared resources in it?
    Mr. Podonsky. I would assume that since the Albuquerque 
office, as I said, does the annual survey of its sites that 
they should have known what was contained in that vault.
    Mr. Burr. Have you ever found anything that would suggest 
that the Albuquerque office had concerns about the security 
procedures in place at Los Alamos, specifically that vault?
    Mr. Podonsky. Not specifically that vault.
    Mr. Burr. NEST program?
    Mr. Podonsky. I have not been made aware of that.
    Mr. Burr. Is it safe to assume that Albuquerque knew that 
at least in Los Alamos, and I believe true in all of the--in 
Sandia as well, and I am sure I will be corrected later, knew 
that no logs were required for access to those vaults?
    Mr. Podonsky. I think there seems to be--I think it is safe 
to assume that they knew that, but I also think that it is 
clear from our going through the requirements that it is not 
clear throughout the Department and the security community of 
the Department as to what all the requirements are, because a 
lot of the requirements have not been memorialized in policies. 
A lot of them go back to memorandum, and that's why one of the 
recommendations in our report was to also memorialize these 
requirements into DOE orders.
    Mr. Burr. If the chairman would allow me one last question, 
is it safe for this committee to assume that the security 
directives to these labs would be filtered from DOE 
headquarters to the DOE field office and then to the labs or is 
security a process that takes place only between headquarters 
and the labs themselves?
    Mr. Podonsky. It is supposed to work that they go--that it 
goes through the lines. So General--the policy arm under 
General Habiger would promulgate the policy and it would be 
implemented by the new NNSA, General Gordon, and he in turn 
would pass it down to the labs through the Albuquerque field 
office.
    Mr. Burr. I thank you for that. I yield back, Mr. Chairman.
    Mr. Upton. Ms. DeGette.
    Ms. DeGette. Thank you, Mr. Chairman. I apologize for my 
tardiness. I know Mr. Green and I at least, probably a few 
other members, are also downstairs at the YNY hearing. So thank 
you. And I hope I don't repeat anything, but thanks for having 
this hearing because I know a number of us at the last hearing 
thought it would be important to have this and I appreciate it. 
I think we should keep doing it until we hammer this thing out.
    Mr. Podonsky, my first question, I guess, is that I was 
reading Dr. Browne's testimony and he says that almost all of 
Secretary Richardson's directives have now been instituted. You 
have been at the labs quite often in the last year. How many of 
these changes have you seen that have actually been instituted?
    Mr. Podonsky. Most recently at Los Alamos we were not 
allowed to come--prior to your attendance, I talked about the 
fact that the FBI investigation was still ongoing.
    Ms. DeGette. Right.
    Mr. Podonsky. But for the most part what we have seen at 
Sandia and Livermore, in the last month, is that most all of 
the Secretary's initiatives have been, if not started, they are 
well underway.
    Ms. DeGette. Do you know when they were started?
    Mr. Podonsky. No. I would have to go point by point to see 
which ones, but while we were at the site and--both sites, 
Sandia and Livermore, last month, when the Secretary's memo 
came out they immediately started initiating corrective action.
    Ms. DeGette. So that was last month?
    Mr. Podonsky. June 19.
    Ms. DeGette. And what about before June 19, do you know how 
many had been instituted?
    Mr. Podonsky. Everything that we have seen, when the 
Secretary first created our office to go out last--starting 
last May, everything that we saw promulgated from headquarters 
was at some stage being implemented.
    Ms. DeGette. What about the integrated safeguards and 
security management system that's supposed to raise employees' 
security awareness levels? Have you looked at the 
implementation of that in any of the labs?
    Mr. Podonsky. We, before we were doing security, we looked 
at integrated safety--integrated safety management and the 
concept has resonated well enough throughout the Department 
that I know General Gordon and General Habiger have been 
talking about having the same concept of integrated security 
management.
    Ms. DeGette. Right.
    Mr. Podonsky. It is still in the conceptual form. There is 
a lot of acceptance to that, but it has not been implemented.
    Ms. DeGette. Do you know if there is a timeframe for 
implementation? Because I thought the standards had been agreed 
upon and that they were starting to implement it.
    Mr. Podonsky. I would have to defer to the second panel.
    Ms. DeGette. Okay. So you don't know?
    Mr. Podonsky. No.
    Ms. DeGette. The Rudman Report concludes that to have safe 
and successful security management systems mean that the 
security staff have a voice in every management decision and a 
voice equal to that of the program people. Is that model in the 
new management system that you know of?
    Mr. Podonsky. I am not aware of what it is comprised of.
    Ms. DeGette. So you don't even know anything about the 
system?
    Mr. Podonsky. Not in its present state.
    Ms. DeGette. Okay. Who would know about that?
    Mr. Podonsky. I think perhaps General Habiger or General 
Gioconda or perhaps even the lab directors might be able to 
address that.
    Ms. DeGette. Mr. Wells, do you know anything about this 
system?
    Mr. Wells. At the request of this committee, we have been 
on the job a couple of weeks and we bought our airline tickets 
and we are heading out.
    Ms. DeGette. So you haven't even----
    Mr. Wells. We will look at it.
    Ms. DeGette. All right. Okay.
    Now, Mr. Podonsky, back to you, over the years DOE has 
significantly relaxed its inventory controls over Secret and 
Top Secret documents in order to be consistent in the way that 
the Defense Department and other agencies handle this 
classified material.
    As I looked at your testimony before I came in today, this 
change did not originate in the DOE but at the National 
Security Council in 1990. Can you explain why there had to be 
one industrial security standard? Where did the push for that 
come from?
    Mr. Podonsky. All I can tell you from my reading of the 
documents and my staff's reading of the documents was that 
President Bush asked the National Security Council to prepare a 
comprehensive review to explore the development of a single 
industrial security program and determine whether there could 
be cost-benefits of aligning the private sector with the 
government. It was in an effort, as far as we could tell, for 
both the cost savings and also to bring--to bring into control 
whether or not we protected all secrets and to, what we talked 
about, have a graded approach where those more sensitive 
documents or information were protected at the same standard.
    Ms. DeGette. And I assume that some of that push or at 
least there was support from the industry, from the outside 
contractors who had to comply with various different standards; 
would that be accurate?
    Mr. Podonsky. I would conclude that that would be the case.
    Ms. DeGette. Do you think here today that industrial 
security is as tight as national security should be? Is there 
accountability, do you think, for the most secret documents?
    Mr. Podonsky. Not for--when you look at the Department of 
Energy, the Department of Energy is unique in the type of 
information it has. So while we believe that there can be a 
more even playing field for industrial security for some of our 
resources, the most sensitive documents that are contained, and 
information contained in the Department, need to have a much 
higher standard.
    Ms. DeGette. Now, what about documents that have been given 
up decades ago by the Defense Department? Where is the 
accountability for those? Do you know?
    Mr. Podonsky. I have no idea.
    Ms. DeGette. Now, last September you wrote a memo to 
General Habiger telling him that the biggest security threat 
was from the active insider.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T7110.002
    
    [GRAPHIC] [TIFF OMITTED] T7110.003
    
    Ms. DeGette. You said there were not adequate steps to deal 
with the active insider, and I know this is a concern that a 
lot of people on this panel and other places have. What steps 
did you have in mind?
    Mr. Podonsky. Well, as General Habiger actually has already 
begun to take this--you are talking about the human reliability 
program, and what I can say in open session here is that they 
have already taken steps to combine some programs to further 
enhance the reliance on the human reliability program.
    When you talk about threats in security, you talk about an 
external threat and you talk about an internal threat. An 
external threat is protected against various things such as 
barriers, a security force, fences, alarms, sensors. When you 
talk about internal, you talk about access controls, 
clearances. And as we have talked about before your arrival, 
one of the things that's vitally important to take into 
consideration is while there is never going to be an absolute 
there is going to be a reliance on the individual responsible 
for maintaining their security responsibilities.
    A lot of these people that we are talking about, where 
there are violations, are actually creators of the information 
that we are talking about. So there is intellectual property 
that one needs to take into consideration as well. Our 
comment----
    Ms. DeGette. Yes, but, you know, the guy who invented Coca-
Cola was subject to company security policies that he not 
reveal that formula even though he thought of it.
    Mr. Podonsky. And for the most part, I believe that--I 
don't have the statistics but I would believe you would find 
that for the most part the Department has been--has a pretty 
good track record in terms of the individuals, now that 
notwithstanding the aberrations that we have seen over the last 
14 months.
    Ms. DeGette. Yes, but just to finish up, the problem is 
when you had the aberrations over the last 14 months that can 
undermine our national security network.
    Mr. Podonsky. And that----
    Ms. DeGette. You have to set up a system, as you say, both 
external and internal, that's going to eliminate, as much as 
possible, chances for problems, because even one problem can be 
devastating.
    Mr. Podonsky. Correct, and that's why we wrote the letter 
to General Habiger to encourage them to take another look at 
their controls against the insider.
    Ms. DeGette. Thank you, Mr. Chairman.
    Mr. Upton. Dr. Ganske.
    Mr. Ganske. I have here Executive Order 12958, dated April 
17, 1995, signed by President Clinton. It deals with the 
classified national security information.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T7110.004
    
    [GRAPHIC] [TIFF OMITTED] T7110.005
    
    [GRAPHIC] [TIFF OMITTED] T7110.006
    
    [GRAPHIC] [TIFF OMITTED] T7110.007
    
    [GRAPHIC] [TIFF OMITTED] T7110.008
    
    [GRAPHIC] [TIFF OMITTED] T7110.009
    
    [GRAPHIC] [TIFF OMITTED] T7110.010
    
    [GRAPHIC] [TIFF OMITTED] T7110.011
    
    [GRAPHIC] [TIFF OMITTED] T7110.012
    
    [GRAPHIC] [TIFF OMITTED] T7110.013
    
    [GRAPHIC] [TIFF OMITTED] T7110.014
    
    [GRAPHIC] [TIFF OMITTED] T7110.015
    
    [GRAPHIC] [TIFF OMITTED] T7110.016
    
    [GRAPHIC] [TIFF OMITTED] T7110.017
    
    [GRAPHIC] [TIFF OMITTED] T7110.018
    
    [GRAPHIC] [TIFF OMITTED] T7110.019
    
    [GRAPHIC] [TIFF OMITTED] T7110.020
    
    [GRAPHIC] [TIFF OMITTED] T7110.021
    
    [GRAPHIC] [TIFF OMITTED] T7110.022
    
    [GRAPHIC] [TIFF OMITTED] T7110.023
    
    [GRAPHIC] [TIFF OMITTED] T7110.024
    
    [GRAPHIC] [TIFF OMITTED] T7110.025
    
    [GRAPHIC] [TIFF OMITTED] T7110.026
    
    [GRAPHIC] [TIFF OMITTED] T7110.027
    
    [GRAPHIC] [TIFF OMITTED] T7110.028
    
    [GRAPHIC] [TIFF OMITTED] T7110.029
    
    Mr. Ganske. Now on page 3, there is something that bothers 
me a little bit because it says, for classification under 
section 1.3, that if there is any significant doubt about the 
appropriate level of classification it shall be classified at 
the lower level.
    That bothers me a little bit. But as I have briefly perused 
this, you know, the closest I can come to the order for these 
changes that occurred with the requirements discontinued for 
various types of security arrangements, is on page 18, in which 
it says, each agency head shall establish and maintain a system 
of accounting for special access programs consistent with 
directives issued pursuant to this order.
    My question to you gentlemen is: No. 1, are you familiar 
with this Executive Order? And No. 2, am I missing something in 
this Executive Order?
    I do not see in this Executive Order specifics for 
discontinuance of, let's say, approval for reproduction. I 
don't see specifics for discontinuance of Top Secret control 
officers. This is a much more general document.
    Am I correct in reading this document?
    Mr. Podonsky. Yes, you are.
    Mr. Wells. Yes, you are.
    Mr. Fenzel. Yes.
    Mr. Ganske. Okay. Well, I am getting kind of frustrated 
because I am trying to figure out who is responsible for these 
changes. Now this is a generalized Executive Order, so these 
types of specifics aren't in this Executive Order. Who 
specifically directed that, for instance, the approval for 
reproduction of documents, which was required in 1995, would be 
discontinued? Can you gentlemen tell me that?
    Mr. Fenzel. My guess is DOE is responsible because in 1998 
there was a----
    Mr. Ganske. Well, who in DOE gave that order and where is 
the paper order for that?
    Mr. Fenzel. I don't know who signed. I don't know who 
signed. We can go back and look at the order, who actually 
signed it.
    Mr. Ganske. Would you please provide the committee with 
that information?
    Mr. Fenzel. We can provide that.
    [The following was received for the record:]

                         Signers of DOE Orders
DOE-5635.1A: Control of Classified Documents and Information, 2-12-88
Signer: Lawrence F. Davenport, Assistant Secretary, Management and 
        Administration
Action: Initiated 100 percent inventory. Accountability over secret and 
        top secret documents
Jan. 30, 1992, Memo: Change in Requirements for the Inventory of 
        Classified Matter
Signer: Edward J. McCallum, Director, Office of Safeguards and 
        Security, Office of Security Affairs
Action: Periodic inventories of classified matter below top secret will 
        no longer be required when matter is maintained within a DOE-
        approved limited or exclusion area.
May 15, 1992, Memo: Accountability Requirements for Secret Documents
Signer: George L. McFadden, Director Office of Security Affairs
Action: Secret matter is removed from accountability if it is confined 
        to a limited or exclusion area.
DOE 5635.1A Chg 1, Control of Classified Documents and Information, 6-
        14-93
Signer: Linda Sye, Acting Assistant Secretary for Human Resources and 
        Administration
Action: Defines accountable matter as top secret matter and secret that 
        is maintained outside of limited or exclusion areas.
DOE M 471.2-1A: Manual for Classified Matter Protection and Control, 1-
        9-98
Signer: Archer L. Durham, Assistant Secretary for Human Resources and 
        Administration
Action: Defines accountable matter as top secret or secret mater stored 
        outside of a limited area (or higher).

    Mr. Ganske. We need to find out who that individual is and 
we then need to ask that individual in a hearing who did he 
talk to about that.
    I want to find out similar information, who was the 
individual in the Department of Energy that, for instance, 
discontinued the requirement on copy and series designation? 
Who changed the requirement on the Top Secret control officer, 
because then we need to ask that individual who did he talk to? 
Did he talk to the Secretary of the Department of Energy about 
that? Did the Secretary of Energy at that time talk to the 
President about that?
    Look, I am getting tired of having these hearings and not 
finding out who is responsible for this.
    You can't blame it on this Executive Order except in the 
generalized sense that it loosened--it allowed a loosening of 
these, but this Executive Order, as I read it, doesn't deal 
with this type of specifics.
    So, gentlemen, I am asking you to provide to this 
committee, within the next week or 2, the information, the 
paperwork, from the Department of Energy on the specific memos 
that went out to these laboratories saying that these 
requirements which were in place in 1995 could be discontinued. 
Can you give our committee that kind of information?
    Mr. Wells. Yes, sir.
    Mr. Fenzel. We should be able to.
    Mr. Ganske. Is it there? Do you know if that information is 
available?
    Mr. Podonsky. I can't speak for GAO but, yes, we do believe 
that there is a paper trail and we are still--we are still 
gathering that now for the Secretary.
    Mr. Ganske. How long will it take you to provide this 
committee with that information?
    Mr. Podonsky. We can do it within the week.
    Mr. Ganske. I thank you very much and that's all the 
questions I have.
    Mr. Stupak. Could you provide us a copy of the Executive 
Order you are speaking of?
    Mr. Ganske. Sure.
    Mr. Stupak. Thanks.
    Mr. Ganske. Thanks.
    Mr. Upton. Mr. Bilbray.
    Mr. Bilbray. Thank you, Mr. Chairman.
    I guess my question will go to the Department of Energy, 
and I apologize if I seem to be approaching this from a 
simpleton approach. Right now we have an individual supervising 
a log system for access to the vault; is that what we have now?
    Mr. Podonsky. Yes.
    Mr. Bilbray. We reinstituted the log system?
    Mr. Podonsky. Yes, General Habiger did reinstitute that 
under the Secretary's direction.
    Mr. Bilbray. The log system is supervised by an individual 
who specifically checks identification and supervises the sign-
in and sign-out process?
    Mr. Podonsky. That's what we understand. We have not gone 
back out to inspect to make sure that that is how it is being 
implemented.
    Mr. Bilbray. How long ago did we implement this?
    Mr. Podonsky. June 23.
    Mr. Bilbray. So we assumed it has been but in the last 
couple of weeks you haven't--no one has checked to make sure it 
is operating the way it was directed?
    Mr. Podonsky. No. Our oversight folks have not done that. 
Perhaps the policy group in the next panel could tell you 
whether they have actually done that.
    Mr. Bilbray. Okay. Do we have any electronic inventory 
tracking system on these documents?
    Mr. Podonsky. I am not aware that that is the case right 
now.
    Mr. Bilbray. Okay. Do we have any video surveillance 
systems on these documents or on the environs for access and 
egress?
    Mr. Podonsky. At some locations we might. I don't know 
across the board.
    Mr. Bilbray. Okay. So it seems like right now we are sort 
of operating under a 1941 model of a piece of paper, people 
sign in by a security person and sign out; basically a system 
that would have been right at home to our fathers during World 
War II and our mothers during World War II?
    Mr. Podonsky. And again, Congressman, there may be other 
pieces that are currently in place but the currency of my 
teams, we came back off the road on June 23.
    Mr. Bilbray. Okay. This change in the 1995--or the changes 
we have seen over the last few years, why were these changes 
made?
    Mr. Podonsky. I don't have a good answer for you because we 
asked the same questions.
    Mr. Bilbray. I will tell you something. What I am concerned 
about is that we can change systems, we can go through 
procedures. What I am really worried about is the institutional 
mindset of why were these changes made and who made them? What 
were they thinking? Is this an attitude that now that the so-
called cold war is over that now don't worry about it? Was it 
sloppiness or was there a real intention on the fact that this 
is no longer--national security or national secrets are no 
longer a high priority?
    I think the biggest question is not the institutional--I 
mean, not the structural system but the institutional mindset. 
Like I said before, I am really worried that this is being 
perceived as being a huge responsibility.
    Mr. Wells, are we going to be looking at developing an 
internal system within our own government structure? Are we 
going to be looking at bringing the private sector into some 
called-for proposals to see how we can upgrade this and make it 
a system that's more compatible with this millennium rather 
than 1941?
    Mr. Wells. Cyber technology is here today. We need to catch 
up quick in terms of what the requirements are.
    Mr. Bilbray. You know, I mean I know right now from maybe 
because San Diego is a high tech center that--I mean I have got 
companies that use a strip about the size of a hair on every 
one of their documents and anywhere that document moves 
anywhere in the building they know exactly when and where it 
was there. I am just wondering how are we going to gain access 
to what the private sector has been using for over a decade and 
use it for our most precious secrets? Is there any vehicle 
being considered to be able to go out and draw on these 
resources and have them participate in the development of the 
new upgraded security mode?
    Mr. Wells. Certainly I don't have an answer for you today 
but we will certainly pose that question to our audit teams and 
try to find out if there is something out there that would be 
applicable to be used under these circumstances.
    [The following was received for the record:]

    We are exploring that question as part of our ongoing work.

    Mr. Bilbray. I just hope those of us in government take 
advantage of this knowledge. And the way to do it is not to go 
out for bid, don't say what you want and how much it is going 
to cost but go out for proposals and say bring us the best 
packages you guys can develop so that you see exactly what's 
out there. I think the call for proposal is the only 
responsible way to go, but this is one member's opinion.
    Thank you very much, Mr. Chairman, and I yield back.
    Mr. Upton. Mr. Cox.
    Mr. Cox. Thank you, Mr. Chairman. I thank our panel for 
being with us.
    Two weeks ago, Congress received a report of the Redmond 
panel. Paul Redmond, of course, is well-known to you. He is one 
of America's leading counterintelligence experts and was the 
head of counterintelligence at the Central Intelligence Agency 
until recently.
    Have you all read this Redmond Report, the unclassified or 
the classified version?
    Mr. Podonsky. No, I have not.
    Mr. Wells. No, I have not.
    Mr. Fenzel. No, I have not.
    Mr. Cox. I would like to ask you some questions about it 
and so I will share it with you as part of the question so you 
at least have the relevant portion to which to respond.
    Mr. Stupak. Mr. Cox, I am sorry to interrupt, but do you 
plan on putting that in the record then so we all have it?
    Mr. Cox. Yes, we ought to add it to the record of this 
committee. It has already been put on the Union Calendar and 
introduced in the Committee of the Whole House.
    Mr. Stupak. Okay. None of us have it here.
    Mr. Cox. In fact, this is the House print of it. It is a 
House document and that is, of course, only the unclassified 
version of the report. It is dated as entered into the record 
of the House June 21, 2000. But if the chairman agrees----
    Mr. Upton. Without objection it will be made a part of the 
record here.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T7110.030
    
    [GRAPHIC] [TIFF OMITTED] T7110.031
    
    [GRAPHIC] [TIFF OMITTED] T7110.032
    
    [GRAPHIC] [TIFF OMITTED] T7110.033
    
    [GRAPHIC] [TIFF OMITTED] T7110.034
    
    [GRAPHIC] [TIFF OMITTED] T7110.035
    
    [GRAPHIC] [TIFF OMITTED] T7110.036
    
    [GRAPHIC] [TIFF OMITTED] T7110.037
    
    [GRAPHIC] [TIFF OMITTED] T7110.038
    
    [GRAPHIC] [TIFF OMITTED] T7110.039
    
    [GRAPHIC] [TIFF OMITTED] T7110.040
    
    [GRAPHIC] [TIFF OMITTED] T7110.041
    
    [GRAPHIC] [TIFF OMITTED] T7110.042
    
    [GRAPHIC] [TIFF OMITTED] T7110.043
    
    [GRAPHIC] [TIFF OMITTED] T7110.044
    
    [GRAPHIC] [TIFF OMITTED] T7110.045
    
    [GRAPHIC] [TIFF OMITTED] T7110.046
    
    [GRAPHIC] [TIFF OMITTED] T7110.047
    
    Mr. Cox. It will also be included in the record of this 
committee, as well it should be because it is precisely the 
same topic and a great deal of work went into the preparation 
of this report.
    The Redmond Report finds two areas of greatest shortcoming. 
The first is gaining employee acceptance of the polygraph 
program and the second is counterintelligence awareness 
training. With respect to the polygraph program, this is as of 
2 weeks ago, the report states, the Department of Energy has 
failed to gain even a modicum of acceptance of the polygraph 
program in the laboratories.
    With respect to counterintelligence, it states, the 
Department of Energy's efforts to improve CI awareness training 
have failed dismally.
    Mr. Podonsky, do you share that evaluation?
    Mr. Podonsky. I have no information to conclude that that 
is accurate. The information that I have is that there has been 
polygraphs being administered at the national labs, as well as 
other organizations such as my own and General Habiger's. But 
whether or not the counterintelligence program is effective or 
being accepted or whether the polygraphs are being accepted, I 
have no information.
    Mr. Cox. The reason that the Redmond Report is concerned 
with the lack of acceptance of polygraphs at the laboratories 
is the lack of implementation. Can you tell us how many people 
at Los Alamos, how many people at Livermore, how many people at 
Sandia, have been polygraphed?
    Mr. Podonsky. I can only ask you to defer that question to 
the second panel.
    Mr. Cox. Do you have a rough idea?
    Mr. Podonsky. Just ballpark numbers which I wouldn't want 
to quote because they are fourth party.
    Mr. Cox. Well, the answer is not very many and we can go 
into that with the next panel, but this program of polygraphing 
sensitive employees in the most sensitive nuclear weapons 
security positions is incipient. It is barely beginning and 
there has been a great deal of temporizing and, according to 
the Redmond Report, worse than that in putting the program into 
place.
    Let me share with you more of what he has to say and what 
the panel has to say. First, the panel notes that Congress has 
mandated these polygraphs and also the President of the United 
States in President Decision Directive 61, which was issued in 
February 1998. So even a few months before the Congress created 
the Select Committee that issued its report on 
counterintelligence and security at the national weapons 
laboratories, the President of the United States had issued a 
direct order to the Secretary of Energy to implement 
polygraphing at the national laboratories.
    That polygraphing, until very recently, had not even 
commenced and now it has barely commenced.
    The Redmond Report further states with respect to this that 
Department of Energy headquarters personnel have made little 
effort to consider the views of senior laboratory managers and 
have not involved them in the planning process for determining 
who will be polygraphed. I can say that the chairman of this 
subcommittee, Mr. Burr and myself found this also to be true on 
our field visits to the labs as members of this subcommittee.
    The Department of Energy headquarters' efforts to meet with 
the laboratory employees to explain the polygraph program have 
been ineffective, if not counterproductive. To make matters 
even worse, DOE headquarters, by vacillating and changing the 
policy over time, appeared inconsistent, and I am sure where 
the opposite is essential, to instill confidence in the program 
parameters and professionalism. And the authors of this report 
saw the same thing that the subcommittee members did when they 
went to visits the labs. The scientists are wearing buttons 
that say ``Just say no to polygraphs.'' Now these, of course, 
are employees of the University of California, contractors to 
the Department of Energy, in cleared positions.
    Why is it that there is a direct order from the President 
of the United States that this program go forward, a direct 
legislative mandate from Congress and we can have a report in 
June of 2000 that tells us that the Department of Energy not 
only isn't doing it properly but is getting in the way?
    Mr. Podonsky. Congressman, I am not about to sit here and 
give you answers to information I know nothing about. I would 
only, again, defer to those who have been involved, Ed Kern and 
General Habiger.
    Mr. Cox. Mr. Wells, do you care to comment?
    Mr. Wells. Mr. Cox, to my knowledge we don't have any 
ongoing work involving that issue.
    Mr. Cox. Do you, Mr. Podonsky, think that polygraphing is 
an important part of security at the labs, and 
counterintelligence?
    Mr. Podonsky. I can only give you my personal opinion in 
doing oversight in this Department for quite some time and I 
think if polygraphs are administered in a reasonable fashion, 
that it can be--it can be employed to be useful. That's a 
personal opinion.
    Mr. Cox. Okay. Are you aware that at the labs, one of the 
complaints of the scientists was that President Clinton had 
issued an Executive Order that had exempted from polygraphs 
political appointees and Schedule C appointees?
    Mr. Podonsky. I wasn't aware of that, no, sir.
    Mr. Cox. The, I think, diplomatic statement in the Redmond 
panel about the ineffective, if not counterproductive, efforts 
of DOE headquarters in meeting with the scientists refers to 
the sensitivity sessions that have been held about polygraphs 
that have really made the problems worse in full public view.
    I will say, if the chairman will permit, that when we have 
scientists at the labs responsible for very sensitive military 
secrets and we entrust them with this responsibility we also 
have to entrust them with enough information so that they can 
understand why they are being asked to change their behavior. 
And there is more information being shared in court these days 
with Federal judges than is being shared with our scientists. 
We have got to, as this report states, deal much more 
effectively with that problem. And the rest of these things 
that we are talking about here today, it seems to me, are 
symptomatic virtually so of this underlying problem.
    The counterintelligence issues, I don't know whether my 
time has expired and I can come back to this.
    Mr. Upton. Your time has expired some time ago, but you can 
get more. I will allow you to have another round.
    Mr. Cox. I think we ought to do that because the 
counterintelligence issue, which the Redmond panel raises, is 
equally important.
    I thank the chairman.
    Mr. Upton. And I might ask if we could retrieve temporarily 
your copy of the Redmond Report so we can make copies for the 
minority as well.
    Mr. Cox. Sure.
    Mr. Upton. Temporarily. We will get the copies back to you. 
Thank you.
    Mrs. Wilson.
    Mrs. Wilson. Thank you, Mr. Chairman.
    Mr. Podonsky, I may be asking a question that Mr. Burr may 
have covered before I came, but I would like to hear your 
answer to it. In your report, you refer to a request--which I 
believe is on page 19 of your redacted report--that early last 
year the weapons labs proposed to Under Secretary Moniz, that 
tighter controls be reinstituted for certain sensitive matter, 
including things like hard drives.
    Do you know what happened to that recommendation?
    Mr. Podonsky. At the time of our special review out at 
Sandia, the staff at Sandia provided that fax to us. That was 
the first time that we had seen it, and specifically we don't 
know what happened after that was sent to Washington.
    Mrs. Wilson. You say at the time of your review at Sandia. 
Which review would that be?
    Mr. Podonsky. Over Father's Day, the June 19 timeframe.
    Mrs. Wilson. So that was after the problem at Los Alamos?
    Mr. Podonsky. Yes, ma'am.
    Mrs. Wilson. So you had no knowledge of a recommendation to 
tighten security procedures before that?
    Mr. Podonsky. We had no knowledge of this memorandum or fax 
from the laboratory directors.
    Mrs. Wilson. Would it be unusual for you to be excluded 
from the staffing of that kind of recommendation?
    Mr. Podonsky. No, not unusual at all.
    Mrs. Wilson. Who in the Department of Energy would be 
involved in the staffing of that kind of recommendation? I am 
assuming that, you know, you can't expect the deputy to be 
seeing everything. What organization would that normally be 
routed to?
    Mr. Podonsky. That would be routed to the line 
responsibility, so that would be perhaps General Gioconda's 
organization, as well as the policy group for security, which 
would be under General Habiger.
    Mrs. Wilson. Are you familiar with a program called ISecM 
that was instituted last year with respect to cyber security?
    Mr. Podonsky. My cyber security people are very familiar 
with that.
    Mrs. Wilson. As I understand it, it was a response to the 
Wen Ho Lee incident, to try to deal with the insider security 
problem. Do you know what the cost estimate was to implement 
ISecM?
    Mr. Podonsky. No, ma'am, I do not.
    Mrs. Wilson. Who in the Department of Energy would have 
that information?
    Mr. Podonsky. If I'm not mistaken, that originated out of 
the defense organization program so perhaps General Gioconda 
might have that information.
    Mrs. Wilson. Thank you, Mr. Chairman. I yield my time.
    Mr. Upton. Thank you. For those members wishing another 
round of questions, I am going to pass and yield to Mr. Burr.
    Do you have additional questions?
    Mr. Burr. I do. I thank the chairman.
    Let me follow up with where Ms. Wilson was. If I understood 
you correctly, you have the responsibilities for independent 
oversight?
    Mr. Podonsky. Yes, sir.
    Mr. Burr. You said that it is not unusual for you to be 
excluded from requests about security upgrades from the 
laboratories?
    Mr. Podonsky. That's correct. And--I am sorry.
    Mr. Burr. No, I am somewhat baffled by that as to how you 
could be excluded from the--given that you are responsible to 
do evaluations. I mean, we have had you do numerous ones, or 
DOE certainly has--that a document like that and a request from 
the directors of these labs might not have been supplied for 
you, as you evaluated what the current and--for your own 
recommendations, what they felt. That's accurate?
    Mr. Podonsky. That is accurate. I really--we don't find 
that terribly unusual from the standpoint of we do not manage 
any of the sites. We do not have responsibility that the line 
has, so I would not expect that we would be exposed to a lot of 
decisions that are made in the security arena that involve 
either policy, upgrades----
    Mr. Burr. But it is clearly helpful to committees like this 
that are trying to look at the process that your report 
include, this is a deficiency; the directors of these labs have 
made a recommendation. I can't imagine that the Department of 
Energy would let you go through a review process and not make 
available anything that they felt was pertinent, or anything 
that was pertinent; but it is not unusual?
    Mr. Podonsky. No, and I would agree with your--with your 
statement that if--we should be exposed to a lot of the 
background of how decisions arise, but as those decisions are 
underway I don't find that to be unusual.
    Mr. Burr. Let me read some of Mr. Browne's testimony 
because we won't have an opportunity to have you back up, and 
just get some comments on it.
    ``There are a number of special programs at Los Alamos in 
which line managers have little or no access to ensure that 
laboratory safety and security rules are met.''
    ``Prior to this incident, it was not clear to our line 
management and security people whether or not they had the 
necessary authority to accept responsibility for the detailed 
security procedures of these programs.''
    They are referring to SAP and--nonSAP and nonSCI programs.
    Is that inconsistent or consistent with your findings?
    Mr. Podonsky. From our past inspections, that is not 
consistent. We have found that the folks that in last year's 
inspection that we interviewed and looked at their programs, 
that they seemed to understand what their responsibilities 
were.
    Mr. Burr. He goes on as it relates to the NEST program: 
``The NEST program has been operated as a closely held need-to-
know program but not a formal special access program. Los 
Alamos has made a good faith effort to participate in this 
program, as we understood the guidance of the program sponsors 
in DOE. Oversight of NEST by our security division was limited. 
Not all aspects of the NEST security plan were reviewed and 
approved by laboratory managers for compliance with DOE rules 
or for best security practices. Even if NEST was treated as 
closely held need-to-know programs, it was subject to DOE 
policy for handling SRD and that policy was in place at the 
laboratory.''
    Can you comment on that statement by Mr. Browne?
    Mr. Podonsky. We believe that security at a site is the 
responsibility of the site and it is a shared responsibility 
with the DOE headquarters and the line organization. 
Specifically on NEST, we do know, as I mentioned, that we are 
going to do an inspection of all the NEST activities. We have 
not inspected the entire NEST activities since 1992, but 
looking at NEST as a program, we do know that there has been--
prior to this past year and a half, there has been some 
confusion as to where the responsibilities and accountability 
for NEST lie.
    Mr. Burr. Clarified in a memo several weeks ago by one of 
the Under Secretaries to the labs; am I correct?
    Mr. Podonsky. Yes, sir.
    Mr. Burr. So clearly everybody knew there was a lack of 
understanding, or there wouldn't have been a need for a memo; 
safe to say?
    Mr. Podonsky. Yes.
    Mr. Burr. Since this was a DOD project, was DOD involved in 
the security requirements for the NEST program?
    Mr. Podonsky. I am not conversant on that. I would defer 
that to General Boomer--or I would say General McBroom.
    Mr. Burr. Let me just say, Mr. Chairman, that it is my 
understanding from staff that the committee did make an 
invitation of DOD to participate in this hearing. They did not 
accept our invitation. I am sorry that they didn't because I 
would hope that anybody who had relevant information would be 
willing to come in.
    One last question, if I could, from the standpoint of the 
individual in charge of independent oversight and the extensive 
work that you have done in the labs, do you have any 
recommendations to this subcommittee and to the three directors 
of those labs that are in our audience and here testifying 
after you, about the dual use of vaults in the future and if 
you have any specific comments about the dual use of the vault 
that NEST equipment kits were kept in?
    Mr. Podonsky. I would say that, Congressman, we addressed 
that with our recommendations for a closer look at the need-to-
know policy, but for a general statement I would say, as--I 
would like to iterate the point I said earlier, is that the 
fingerpointing needs to cease between the lab and the 
Department, as well as the legislative arm and the executive 
branch, and we need to get on with fixing our national security 
interests.
    Mr. Burr. I agree with you totally. I hope I am--I hope I 
understand correctly what took place in that vault facility. I 
think even a layman would agree that if you have got two 
separate projects in there, and you have got individuals who 
are approved for one and not approved for the other and vice 
versa, all with the ability to go in alone, that you have got a 
potential breach. It doesn't mean that one will happen, but you 
have got the opportunity for a breach of that information to 
happen.
    As a security expert, would you agree with that?
    Mr. Podonsky. Yes, sir.
    Mr. Burr. So it is probably a policy that we ought to look 
at very seriously in the future about the dual use of a secure 
facility?
    Mr. Podonsky. Yes, sir.
    Mr. Burr. Okay. I thank all of our witnesses, and I yield 
back.
    Mr. Upton. Thank you. Mr. Cox.
    Mr. Cox. Thank you. Before I leave the subject of 
polygraphs, I note that in the Interim Report to the Secretary 
of Energy on the Control of Classified Weapons Data at the 
National Weapons Laboratories--which I believe, Mr. Podonsky, 
you have provided?
    Mr. Podonsky. Yes, sir.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T7110.048
    
    [GRAPHIC] [TIFF OMITTED] T7110.049
    
    [GRAPHIC] [TIFF OMITTED] T7110.050
    
    [GRAPHIC] [TIFF OMITTED] T7110.051
    
    [GRAPHIC] [TIFF OMITTED] T7110.052
    
    [GRAPHIC] [TIFF OMITTED] T7110.053
    
    [GRAPHIC] [TIFF OMITTED] T7110.054
    
    [GRAPHIC] [TIFF OMITTED] T7110.055
    
    [GRAPHIC] [TIFF OMITTED] T7110.056
    
    [GRAPHIC] [TIFF OMITTED] T7110.057
    
    [GRAPHIC] [TIFF OMITTED] T7110.058
    
    [GRAPHIC] [TIFF OMITTED] T7110.059
    
    [GRAPHIC] [TIFF OMITTED] T7110.060
    
    [GRAPHIC] [TIFF OMITTED] T7110.061
    
    [GRAPHIC] [TIFF OMITTED] T7110.062
    
    [GRAPHIC] [TIFF OMITTED] T7110.063
    
    [GRAPHIC] [TIFF OMITTED] T7110.064
    
    [GRAPHIC] [TIFF OMITTED] T7110.065
    
    [GRAPHIC] [TIFF OMITTED] T7110.066
    
    [GRAPHIC] [TIFF OMITTED] T7110.067
    
    [GRAPHIC] [TIFF OMITTED] T7110.068
    
    [GRAPHIC] [TIFF OMITTED] T7110.069
    
    [GRAPHIC] [TIFF OMITTED] T7110.070
    
    [GRAPHIC] [TIFF OMITTED] T7110.071
    
    [GRAPHIC] [TIFF OMITTED] T7110.072
    
    [GRAPHIC] [TIFF OMITTED] T7110.073
    
    [GRAPHIC] [TIFF OMITTED] T7110.074
    
    [GRAPHIC] [TIFF OMITTED] T7110.075
    
    [GRAPHIC] [TIFF OMITTED] T7110.076
    
    [GRAPHIC] [TIFF OMITTED] T7110.077
    
    [GRAPHIC] [TIFF OMITTED] T7110.078
    
    [GRAPHIC] [TIFF OMITTED] T7110.079
    
    [GRAPHIC] [TIFF OMITTED] T7110.080
    
    [GRAPHIC] [TIFF OMITTED] T7110.081
    
    [GRAPHIC] [TIFF OMITTED] T7110.082
    
    [GRAPHIC] [TIFF OMITTED] T7110.083
    
    [GRAPHIC] [TIFF OMITTED] T7110.084
    
    [GRAPHIC] [TIFF OMITTED] T7110.085
    
    [GRAPHIC] [TIFF OMITTED] T7110.086
    
    [GRAPHIC] [TIFF OMITTED] T7110.087
    
    [GRAPHIC] [TIFF OMITTED] T7110.088
    
    Mr. Cox. You have recommended that the human reliability 
program should be reevaluated to make sure that it is providing 
assurance of an individual's trustworthiness, and you 
specifically mentioned polygraphs for that purpose.
    I take it it is your view that polygraphs are an integral 
part of the security function that you are trying independently 
to evaluate?
    Mr. Podonsky. As I answered in the last round of questions, 
yes, sir, we do believe that if it is applied in a reasonable 
way, that it can, in fact, be a way to enhance security.
    Mr. Cox. Are you troubled by the fact that it has taken so 
many years to get started?
    Mr. Podonsky. There are many things in the Department that 
trouble me, but this one in particular we haven't really 
focused on.
    Mr. Cox. I wonder whether I ought to address my questions 
next about changing the results of security surveys to GAO or 
to you, Mr. Podonsky?
    Mr. Podonsky. I am not familiar with how much GAO is 
cognizant of the survey program.
    Mr. Cox. Well, the Inspector General's report, of course, 
dated May 30, 2000, tells us that Department of Energy 
management changed ratings for the 1998 and 1999 surveys at Los 
Alamos without providing a documented rationale for the 
changes; that they did not fully address concerns about a 
compromise of force-on-force exercise; that they destroyed work 
papers contrary to policy. And I wonder, Mr. Wells, whether you 
have any thoughts on that?
    Mr. Wells. Whether it be the survey program, whether it be 
reducing the minimum requirements that we have testified here 
today about, given the problems that seem to surface weekly or 
monthly regarding security lapses, one just clearly comes to 
the conclusion it is unclear what objective they are trying to 
achieve when they put forth reductions in surveys and 
reductions in oversight and reductions in accountability 
controls.
    Mr. Cox. Now this same Department of Energy office in 
Albuquerque comes in for criticism in the Redmond Report for 
its frustration of counterintelligence programs. Specifically, 
I am reading now from the Redmond Report: ``The Department of 
Energy Operational Field offices at Albuquerque and Oakland 
continue to refuse to share relevant information from employee 
personnel files under their control with the Department of 
Energy counterintelligence or the lab counterintelligence 
components. The team,'' that is, the Redmond team, ``learned 
that Department of Energy counterintelligence is not even 
informed by these three offices''--by DOE offices with the 
records, with the files--``when an employee loses his or her 
security clearance.'' So counterintelligence can't even find 
out, because DOE husbands the information and refuses to share 
it with counterintelligence when an employee loses a security 
clearance for cause.
    Mr. Podonsky, what can we do about this?
    Mr. Podonsky. Well, the first thing I would suggest is that 
I would--I would want to know whether Ed Curran, the director 
of the Counterintelligence Office, is familiar with this and if 
he was, then I would expect Ed Curran and his oversight program 
of counterintelligence to remedy this in consultation with the 
rest of the Department that has responsibility over those 
areas.
    Mr. Cox. Are you comfortable with the compartmentalization 
of CI from security?
    Mr. Podonsky. This is an initiative that the Secretary 
created, and the answer is so far we have been working very 
closely with Ed Curran's organization, counterintelligence, as 
well as with General Habiger's security organization. So the 
answer is we have no reason not to be comfortable with it.
    Mr. Cox. Do you know what the views of lab management are? 
We will have a chance to ask them directly in the next panel, 
but do you know what the lab's view is on this?
    Mr. Podonsky. Other than not necessarily liking Podonsky's 
oversight organization, no, sir, I don't know what their views 
are.
    Mr. Cox. I ask the question because, for example, with 
respect to human reliability, it is awfully difficult to 
separate out the expertise that is required for CI from the 
expertise that's required for security.
    Let me read just another passage from this report, the 
Redmond Report: ``It has been the sad experience in many 
espionage cases that only after the spy is uncovered does it 
become clear that a plethora of counterintelligence indicators 
concerning various facets of the individual's life, 
performance, and behavior have been known in different places 
by different individuals but never effectively collated or 
holistically evaluated. The Department of Energy must ensure 
that the CI officers at the laboratories are part of a formal 
system set up locally to ensure that all relevant CI and 
security data information is collected, assembled, and analyzed 
by means that are not solely dependent on personal 
relationships''--and on and on.
    It is often difficult, it would seem to me, to arbitrarily 
characterize a bit of information as security information but 
not CI, or as counterintelligence information but not security. 
If you have an unreliable person in the building, that's a 
security issue; it is also a CI issue, isn't it?
    Mr. Podonsky. Yes, sir, and I think that you will find that 
both the Office of Security Operations and the 
Counterintelligence work hand in glove, as we also try to 
ascertain how they are proceeding in some of their operations.
    In years gone by, Congressman, the counterintelligence, the 
intelligence and the security organizations were all contained 
in the Defense Programs Office and they worked the same way. 
The difference now is that they all have separate direct 
reports to the Secretary. So that we have Secretarial attention 
on these matters.
    Mr. Cox. I would conclude by observing that Congress 
created the NNSA, the National Nuclear Security Administration, 
with a view to centralizing authority over all of these 
concerns, so there would be a single chain of command, a single 
line of direction. And we first faced the two-hatting exercise 
where the Secretary of Energy and the White House decided that 
they were going to frustrate the intent of Congress and not let 
the NNSA do its job. We also had a long political delay in 
getting it started, and only when there was this latest public 
embarrassment with the hard drives could we even confirm 
General Gordon as the first Administrator. So now, a year after 
passing the legislation, we have it in place but we have all of 
these efforts to keep power, bureaucratic power and turf in DOE 
and not let NNSA be the independent agency that it must be to 
do its job.
    I hope that with the experience under our belt, with all of 
the months and years that are being consumed with people saying 
that they are doing their jobs but not actually accomplishing 
it, we can finally see the value of doing this properly, having 
the NNSA and General Gordon be in charge.
    There is one other aspect of the Redmond Report that I 
think deserves mentioning, and it is the disconnection that 
this report finds between DOE's glowing reports on its own 
accomplishments of the initiatives that it has put in place and 
so on and what actually has been done. What this report says is 
that whenever an initiative is started or if an order is 
promulgated, then DOE takes credit for doing it; whereas most 
of this is unfinished business.
    It is a useful remark for the report, and I just wonder 
whether, Mr. Wells or Mr. Fenzel, you have any comment on that 
point?
    Mr. Wells. We would agree--and I think we used almost those 
exact same words earlier in response to a question--that our 20 
years' and 50 recommendations' worth of effort in oversight 
clearly pointed out that they are quick to take action for 
corrective action, but the implementation isn't necessarily 
always completed nor is success fully achieved, and the next 
thing we know the problem recurs.
    Mr. Cox. Well, Mr. Chairman, I thank you for your 
indulgence. Mr. Podonsky, I thank you for your efforts in this 
area; Mr. Wells and Mr. Fenzel as well. It is vitally important 
that we not make this a fingerpointing exercise and that we get 
on with it, but there are big changes that have to be made if 
we are going to get on with it.
    While no one means to be critical or fingerpoint, if you 
have months and months and years and years of inactivity or 
inadequate response to these challenges, then call it what you 
will, somebody has to raise hell about it.
    Mr. Upton. Thank you. I think that that leads us to the 
conclusion of Panel I.
    Thank you very much for being with us this morning. You are 
now formally excused. Thank you. Thank you for your time and 
your reports.
    We will now go to Panel II, that includes the Honorable T. 
J. Glauthier, Deputy Secretary from the Department of Energy; 
who is accompanied by General Eugene Habiger, the Director of 
the Office of Security and Emergency Operations; General John 
McBroom, Director of the Office of Emergency Operations, and 
also accompanied by General Tom Gioconda, Deputy Administrator 
for Defense Programs at the National Nuclear Security 
Administration; also Dr. Paul Robinson, President and 
Laboratory Director of Sandia; Dr. John Browne, Director of Los 
Alamos; and Dr. Bruce Tarter, Director of Lawrence Livermore 
National Lab; as well as Mr. Steven Aftergood, Senior Research 
Analyst from the Federation of American Scientists.
    It will just take a moment to get the names placed 
correctly.
    As you all know, we have a longstanding tradition of taking 
testimony under oath. Do any of you gentlemen have objection to 
that? If not, you are also, under committee rules, allowed to 
be represented by counsel. Any objection to that? Do any of you 
desire counsel?
    [Witnesses sworn.]
    Mr. Upton. Thank you very much. You are now under oath, and 
we will start with Mr. Glauthier.

      TESTIMONY OF HON. T.J. GLAUTHIER, DEPUTY SECRETARY; 
ACCOMPANIED BY: GENERAL EUGENE E. HABIGER, DIRECTOR, OFFICE OF 
   SECURITY AND EMERGENCY OPERATIONS; GENERAL JOHN McBROOM, 
DIRECTOR, OFFICE OF EMERGENCY OPERATIONS; AND BRIGADIER GENERAL 
TOM GIOCONDA, ACTING DEPUTY ADMINISTRATOR FOR DEFENSE PROGRAMS, 
NATIONAL NUCLEAR SECURITY ADMINISTRATION, DEPARTMENT OF ENERGY; 
 C. PAUL ROBINSON, PRESIDENT AND LABORATORIES DIRECTOR, SANDIA 
  NATIONAL LABORATORIES; JOHN C. BROWNE, DIRECTOR, LOS ALAMOS 
   NATIONAL LABORATORY; C. BRUCE TARTER, DIRECTOR, LAWRENCE 
  LIVERMORE NATIONAL LABORATORY; AND STEVEN AFTERGOOD, SENIOR 
      RESEARCH ANALYST, FEDERATION OF AMERICAN SCIENTISTS

    Mr. Glauthier. Thank you, Mr. Chairman. Thank you for this 
opportunity to appear today to provide an update on the 
security situation at the Department of Energy's weapons 
laboratories.
    I will be brief. My overall testimony has been submitted in 
writing. I would like to reiterate Secretary Richardson's 
statement in reference to the missing Los Alamos hard drives. 
That is, that the Energy Department security procedures were 
not followed, and since coming to the Department the Secretary 
has emphasized security issues. We are outraged at what has 
taken place in this particular incident.
    Now, as much as can be discussed, I would like to give a 
brief update on the current FBI criminal investigation. A grand 
jury has been convened to examine issues related to the case. 
It has been determined by the FBI that these are the authentic 
disk drives. Based upon the investigation by the FBI, there is 
no evidence of espionage. It can be assured that personnel will 
be held accountable and disciplinary action will result from 
this incident, but the Department will not take action until 
all the facts are established.
    During the last 2 years that Bill Richardson has been 
Secretary, security has been a top priority and the security--
and the Secretary has gone to extreme lengths to improve the 
agency security and counterintelligence profile. Through his 
leadership, we have implemented over 50 major security and 
counterintelligence initiatives.
    For example, the Secretary has established the Office of 
Independent Oversight which is headed by Mr. Podonsky that you 
just heard from, and he is reporting directly to the Secretary. 
The purpose of that office is to focus on implementation and to 
give an independent oversight on the practices that are 
actually being carried out at our various sites.
    A lot has been made in the last 2 hours about changes that 
have occurred in the practices at the facilities. I am sure we 
will talk more about that. I would comment that the changes 
that were made over the last decade were changes to introduce 
more flexibility into the individual practices, the actions 
that are taken. There was no change in that timeframe on the 
responsibility for protecting secure information, and I think 
that is important to recognize that all the individuals at our 
facilities, all the contractors, all the Federal employees, 
maintained the same responsibility for protecting secure 
information throughout this whole timeframe.
    And the over 120,000 Federal and contractor employees of 
the Department of Energy have an outstanding record. 
Unfortunately, it only takes a few individuals to cause a 
serious problem which is, of course, what we have seen.
    We have implemented additional security procedures in light 
of the recent incident at Los Alamos, and I would like to just 
mention a couple of those; things that in some cases changed 
the kinds of items you were talking about on the earlier chart, 
and in other cases are new and additional actions, such as 
encrypting selected classified electronic media, enhancing 
verification procedures, including log-in and log-out 
requirements for vault and vault-type room access; staffing all 
open vaults and vault-type rooms; increasing security measures 
for certain classified encyclopedic data bases; conducting 
immediate inventory of all Nuclear Emergency Search Team, or 
NEST, data; and placing serial numbers and identification codes 
on sensitive materials.
    Additionally, as you probably noticed, the Secretary has 
informed the University of California that its contract for 
managing the Department's national weapons laboratories must be 
restructured in order to bring in a separate organization to be 
responsible for security procedures and some other facility 
operations.
    Under Secretary John Gordon will oversee the negotiations 
and work with the university to identify new mechanisms and 
procedures to address the serious security shortcomings. It is 
expected that he will have his recommendations to the Secretary 
by September 5.
    The last action that I want to highlight is the assignment 
that former Senator Howard Baker and former Congressman Lee 
Hamilton have accepted. Jointly they will conduct a thorough 
investigation and assessment into the circumstances surrounding 
the incident at Los Alamos. Their expected assessment, separate 
from the FBI investigation, will provide recommendations for 
necessary corrective actions.
    In summary, the Department of Energy has a significant 
responsibility for the American people regarding our overall 
nuclear security. We are responsible for sustaining America's 
nuclear deterrent, the cornerstone of our national defense, and 
for securing nuclear weapons materials and know-how at home and 
abroad. We must ensure our security measures are stringent, but 
also that they do not stifle the science that allows us to have 
that deterrent and that underpins our national security decades 
into the future.
    I know I can speak for my colleagues at the labs and 
throughout the Department in reiterating our commitment to 
carrying out this mission in a safe, secure and sensitive 
manner.
    I think General Habiger would like to make a couple of 
comments, and then Dr. Browne, the director of Los Alamos, in 
particular wants to comment on these.
    [The prepared statement of Hon. T.J. Glauthier follows:]
 Prepared Statement of Hon. T.J. Glauthier, Deputy Secretary of Energy
    Thank you for this opportunity to appear before you today to 
provide an update on security at the Department of Energy's weapon 
laboratories.
    To begin, at the end of June the Secretary Bill Richardson informed 
the University of California (UC) that its contract for managing the 
department's national weapons laboratories must be restructured in 
order to make much-needed improvements to security and other facility 
operations. We have begun negotiations with the University to bring 
into their operations specific security and management expertise to 
implement these improvements.
    Although the Secretary recognizes UC's unparalleled scientific 
reputation and its contribution to the scientific vitality of the 
laboratories, he is sharply critical of their failure to bring the same 
degree of expertise to the management of security and facility 
operations.
    Secretary Richardson has asked Under Secretary John Gordon to 
oversee this and to work with the University to identify new mechanisms 
and procedures to address the serious security shortcomings of the 
University of California at the weapons laboratories. It is expected 
that General Gordon will make his recommendations to the Secretary by 
September 5.
                            situation update
    I would like to reiterate Secretary Richardson's statement in 
reference to the missing Los Alamos hard-drives, that the Energy 
Department security procedures were not followed. Since coming to the 
Department, the Secretary has emphasized security issues. We are 
outraged at what has taken place. There are no excuses.
    Now, as much as can be discussed, I would like to give a brief 
update on the current FBI criminal investigation. A grand jury has been 
convened to examine issues related to the case.
    The FBI is still looking at the two hard drives found on June 16 at 
the Los Alamos National Lab. The Secretary has been speaking with FBI 
Director Louis Freeh throughout the investigation.
    It has been determined by the FBI that these are the authentic disk 
drives. Based upon the investigation by the FBI, there is no evidence 
of espionage.
    The Bureau continues to treat the area where the hard drives were 
found as a crime scene. Over the last several weeks, the FBI and Energy 
Department investigation has focused on a handful of X-Division 
employees, who have offered conflicting statements to investigators.
    I can also tell you that, according to its latest findings, the 
FBI's working theory puts the loss of the drives at the tail end of 
March of this year. This time-line would be further refined as the 
investigation continues. This information helps clarify some details 
surrounding this case.
    Prior to this incident, the Secretary's directive required the 
Department to be notified of any such problem within eight hours of 
their discovery. That is his policy. Instead, the University of 
California neglected to inform the Department until three weeks after 
the initial discovery.
    As you know, the Department immediately brought in the FBI, 
informed the President, advised others in the Administration with a 
need to know, and shared what we knew with the relevant Congressional 
committees.
    It can be assured that personnel will be held accountable and 
disciplinary action will result from this incident. But the Department 
will not take action until all the facts are established.
                        latest security actions
    During the last two years, security has been a top priority, and 
the Secretary has gone to extreme lengths to improve this agency's 
security and counterintelligence profile. Through his leadership we 
have implemented more than 21 major security initiatives and have 
completed 36 recommendations in the Counterintelligence Implementation 
Plan.
    However, when the recent breach came to our attention, we 
immediately implemented an elevated slate of security procedures to be 
followed in our sensitive divisions. I reviewed a number of enhanced 
security protection measures directed by General Eugene Habiger, 
Director of Security and Emergency Operations, and who is with me. 
These new steps will effect immediately. They include:

<bullet> Encrypting selected classified electronic media;
<bullet> Enhancing verification procedures for vault and vault-type 
        room access;
<bullet> Manning all open vaults and vault-type rooms;
<bullet> Evaluating existing vault and vault-type room procedures;
<bullet> Increasing security measures for certain classified 
        encyclopedic databases; and,
<bullet> Conducting an immediate inventory of all Nuclear Emergency 
        Search Team (NEST) and Accident Response Group (ARG) assets.
    These steps are in addition to measures the lab has put in place:

<bullet> Placing serial numbers/identification on sensitive materials;
<bullet> Changing combinations to vaults; and
<bullet> Reviewing vault access policy, including a vault ``stand-
        down'' to ensure procedures are followed.

                                  NEST
    Next I would like to give a description of the Department's Nuclear 
Emergency Search Team, familiarly known as NEST, and the policies and 
procedures in which it operates.
    NEST is one of seven major Department of Energy Emergency Response 
assets tasked with responding to nuclear incidents or accidents. NEST 
members are dedicated volunteers who, when called, form a highly 
skilled force specially trained to deal with all types of nuclear and 
radiological emergencies.
    The concept of the response teams and how the program runs on a 
daily basis may provide some valuable insight. Ordinarily, the 
Department has no standing teams formed. The all-volunteer personnel 
who would comprise these teams are working their normal jobs within the 
lab/site structure. An example of this concept would be a volunteer 
fire department in which a member's full time occupation is working in 
the local school system. That person only becomes a responder when the 
siren goes off; up until then he or she is a school teacher.
    Similarly at the Department, when an event such as a training 
exercise, or an actual emergency occurs, the Secretary, through the 
Director of Security and Emergency Operations ``stands-up'' a response 
team. Until that time, most personnel are working full time on the 
laboratories' scientific and technical missions.
    Once a team is formed, the operational responsibility shifts from 
the laboratory to the Department's headquarters chain of command. The 
administrative responsibility continues with the laboratories. For 
example, the Director of Emergency Management cannot fire or suspend a 
University of California team member, however, the ultimate 
administrative responsibility continues with the laboratory's director.
    Training deployments or real world events, such as the World Trade 
Organization meeting in Seattle,Washington or the 50th NATO Summit in 
Washington, DC, present unique and difficult challenges in moving and 
securing the classified equipment on the road. Sometimes the teams work 
in US cities and other times they find themselves in overseas 
locations.

                             RECENT REPORTS
    Now I would like to take this opportunity to address recent reports 
criticizing the Department's security.
    We have recently reviewed the Inspector General's report entitled 
``Inspection of Allegations Relating to the Albuquerque Operations 
Office Security Survey Process and the Security Operations' Self-
Assessments at Los Alamos National Laboratory.'' We are concerned about 
these results, particularly with respect to the reported changes to the 
1998 and 1999 surveys without providing a documented rationale for the 
changes. We note however, that making such ratings decisions always 
involves a degree of objective judgment.
    However, we are more concerned with the reported destruction of 
work papers regarding the survey ratings at the Albuquerque Operations 
Office, and reports that thirty percent of the laboratory security 
staff felt pressured to ``mitigate'' security self-assessments and 
other related allegations. We are reviewing the report carefully and 
are not ruling out changes to existing procedures regarding our 
security surveys and self-assessments. We also are reviewing the role 
and actions of the personnel involved in these particular surveys and 
assessments, and stand ready to hold personnel fully accountable for 
any improper actions taken, if our review indicates that to be the 
case.
    I will now discuss the responsibilities of the Department's 
Counterintelligence (CI) Program inspections. This program was directed 
by Presidential Decision Directive No. 61, which directed the 
establishment of a CI Program at Energy, and the inspections of the CI 
Programs in the laboratories, sites and operations offices. These 
inspections assess program performance in seven topical areas, which 
include subjects such as investigations, training, analysis and 
management. The inspections also evaluate the degree to which the 
programs are in compliance with the measures identified by the CI 
Implementation Plan.
    The CI Programs of the three national laboratories were inspected 
in August, September and October of 1999. As the Committee knows, the 
CI Program at Lawrence Livermore received a satisfactory rating. The CI 
Programs at Los Alamos and Sandia, however, received a marginal and an 
unsatisfactory rating, respectively. Many of the problems stemmed from 
the newness of these CI Programs and the personnel involved. Shortfalls 
identified by the inspections were responded to in corrective action 
plans developed by the programs; progress on the corrective actions was 
tracked by Office of Counterintelligence management.
    The Office of Counterintelligence reinspected the Los Alamos and 
Sandia CI Programs in April of this year. These special inspections 
focused on the problem areas that were identified during the initial 
Inspections. In both cases, the inspections found that the corrective 
actions had been completed and both programs received satisfactory 
ratings. The Lawrence Livermore CI Program will be reinspected in 
September.
    Next, I would like to make a few comments on the recently 
publicized General Accounting Office (GAO) report on the Department's 
foreign travelers. The Department agrees with the GAO that travelers to 
nonsensitive countries may also encounter incidents similar to those 
experienced by sensitive country travelers and that any Department 
employee traveling overseas could be an intelligence target. It is true 
that the initial focus of the CI Program has been on Departmental 
employees working in classified programs who have sensitive country 
contact. However, our CI Program does not focus only on those employees 
and programs. The Department's Counterintelligence Program collects 
information of any kind or any location that may show a foreign 
intelligence presence. Moreover, all employees and contractors are 
required to receive an annual CI awareness briefing that instructs on 
the methods and capabilities of foreign intelligence services. During 
these briefings, employees are instructed to inform their CI officers 
of anything they observe that may be an indicator of intelligence 
activity.
    In short, our relatively new CI Program, which truly only got 
underway after Secretary Richardson arrived to the Department in late 
1998, leaves the Department far better prepared to protect its 
personnel and programs overseas than ever before. Our defensive CI 
Program now can be said to be one of the best in government, and it 
will continue to improve. The fact that the report cites a number of 
overseas incidents is not an indicator of CI Program deficiencies; 
rather, the existence of these incident reports demonstrates that 
Energy's CI Program is getting the information it needs to build a good 
defense to these ongoing hostile intelligence activities. Moreover, as 
a result of the incident reporting the CI Program is getting, we 
believe we are steadily improving our ability to get the message to our 
employees on how they can protect themselves during overseas travel.

                             LARGER PICTURE

    The Department of Energy has a greater charge from the American 
people. Our overall nuclear security. It is a task far more complex 
than can be described by me or debated to a satisfying conclusion here 
today.
    We are responsible for:

<bullet> Sustaining America's nuclear deterrent--the cornerstone of our 
        national defense; and
<bullet> Securing nuclear weapons materials and know-how--at home and 
        abroad.
    The Department has taken its security responsibility very 
seriously. The challenges of the Department of Energy have crossed 
decades and administrations.
    Ultimately, security will always also be an individual 
responsibility, and must rely on the dedication, loyalty, and 
patriotism of our weapons scientists. And these people must be 
accountable like anybody else. Individuals are, indeed, fallible, and 
no amount of policy--no amount of legislation--will protect us from 
irresponsibility and human failings.
    We must remember that a successful security policy is one that 
results in the detection of security violations. The worst security 
violations are the ones that go undetected. We will continue to keep 
you and other key Congressional committees informed of further 
developments immediately as they become available.
    Thank you for this opportunity to appear before you today to 
provide an update on security at the Department of Energy's weapon 
laboratories.

    Mr. Upton. General Habiger.
    Mr. Habiger. Mr. Chairman, thank you. I just want to 
clarify three things. First, I am a little disappointed at our 
colleagues from the General Accounting Office in terms of the 
chart that they put up there, in terms of what you saw was 
characterized as Department of Energy. What you saw in that 
chart is across the government in every respect. That's point 
No. 1.
    Point No. 2, and I think it is equally important, is if 
you--if he had included time lines, you would have clearly seen 
that we didn't get credit for dragging our feet like we 
normally do. We lagged the rest of government for some very, 
very good reasons.
    Point No. 3, sir, Ms. DeGette raised the point about human 
reliability program and a letter from Podonsky to Habiger.
    Mr. Chairman, I asked for Glenn's input because I had only 
been in the job 6 weeks and I saw we had two human reliability 
programs at the Department of Energy. It didn't make sense; two 
different rice bowls. It has taken awhile, but we are in the 
final stages of putting out a strengthened single human 
reliability program.
    But to characterize questions to Glenn as to whether or not 
I accepted his inputs, I am the one that asked for those 
inputs. Thank you, sir.
    Mr. Upton. Thank you.
    Dr. Robinson.

                  TESTIMONY OF C. PAUL ROBINSON

    Mr. Robinson. Thank you very much, Mr. Chairman. It is a 
pleasure to again be with you. I did prepare a formal written 
statement for the record, and with your permission----
    Mr. Upton. All the statements will be made a part of the 
record.
    Mr. Robinson. Good. I will summarize and move to your 
questions.
    Several of you, in fact, visited our laboratories to sample 
the security environment. You saw for yourselves the physical 
security measures, the personnel security measures both to 
enter or egress from one of our facilities. We discussed the 
challenges which cyber security is placing before us and some 
of the measures we are taking to counter that threat.
    Most of you know the unique missions of Sandia National 
Laboratories: U.S. nuclear weapons, related areas of nuclear 
intelligence and nonproliferation. You may not be aware of our 
mission responsibilities in security research and development, 
both for nuclear weapons storage and transport, and computer 
security technologies. We carry these functions out for not 
only the Department of Energy but for other high-security 
agencies as well.
    Because of these core responsibilities, we believe we 
should and can be held to a higher standard for security, and I 
believe the record will show that we are meeting that higher 
standard.
    Now, this is certainly not an area to ever be boastful. 
Security is something that does require eternal vigilance. I 
will try to explain, and I think I try to discuss in my 
testimony, the complexity that accompanies security. Most 
importantly, at its heart, security requires the care and 
devoted effort of the people who perform the classified work. 
There is always the danger of a mental lapse, a mental lapse 
which could cause great harm.
    Besides trying to design in approaches of defense and depth 
into all of our security practices and procedures, which could 
allow for that inevitable human error that will occur, we must 
also involve our people, those who carry out the classified 
work in the design of the best practices. I believe their 
understanding, their faithfulness, their care in fulfilling 
these duties as holders of our important secrets is an 
essential part of the formula for success.
    In my testimony, I would like--I do describe security 
management at Sandia; our unique role within emergency response 
functions, our controls to protect classified material, both 
documents and electronic media. We have made more stringent 
controls on vaults and vault-like rooms.
    Finally, in that wonderful clarity that's hindsight, I do 
discuss some of the weaknesses, both in document accountability 
and in classification, or rather declassification. I think 
these are areas where we can all agree we need to make 
improvements.
    Let me close with the statement that I said in my formal 
text. I have been in classified work, associated with nuclear 
weapons, for just over 32 years. I can validate Secretary 
Richardson's remark several weeks ago that indeed he has done 
more to focus on and improve security than any prior Secretary. 
Doubtless, that is true, but I believe we are all culpable. 
Indeed, across the government, standards were lowered after the 
end of the cold war, in classification and accountability for 
classified documents and levels of background investigation to 
obtain clearance to work at our laboratories.
    Also, we have been facing in more recent years a growing 
threat of cyber security which is real and it is challenging.
    What is the road back? I think we need to use the 
opportunity you have provided us in the creation of the NNSA to 
streamline responsibilities and accountabilities, to clear out 
the bureaucracy that often confuses this line and paralyzes 
actions by both Department Secretaries as well as laboratory 
directors. I want to assure you, we did not lose our concern 
for security. We are a unique enterprise, conducted on behalf 
of the Nation. We can and we will strengthen the protections to 
once again win your respect to manage nuclear weapon affairs 
with confidence. Thank you very much.
    [The prepared statement of C. Paul Robinson follows:]
   Prepared Statement of C. Paul Robinson, Director, Sandia National 
                              Laboratories

                              INTRODUCTION
    Mr. Chairman and distinguished members of the committee, thank you 
for the opportunity to testify today. I am Paul Robinson, director of 
Sandia National Laboratories. Sandia National Laboratories is managed 
and operated for the U.S. Department of Energy by Sandia Corporation, a 
subsidiary of the Lockheed Martin Corporation.
    Sandia National Laboratories is a multiprogram laboratory of the 
National Nuclear Security Administration (NNSA). We share 
responsibility for the design and stewardship of nuclear weapons with 
Los Alamos and Lawrence Livermore National Laboratories. Sandia's job 
is the design, development, and certification of nearly all of the non-
nuclear subsystems of nuclear weapons. Our responsibilities include 
arming, fuzing, and firing systems; safety, security, and use-control 
systems; engineering support for production and dismantlement of 
nuclear weapons; and surveillance and support of weapons in stockpile. 
We perform substantial work in programs closely related to nuclear 
weapons, such as nuclear intelligence, nonproliferation, and treaty 
verification technologies. As a multiprogram national laboratory, 
Sandia also performs research and development for DOE's energy offices, 
as well as work for other agencies when our unique capabilities can 
make significant contributions.

                        SECURITY AND BUREAUCRACY
    I appreciate your invitation to make a statement today addressing 
the topic, ``Weaknesses in Classified Information Security Controls at 
DOE's Nuclear Weapon Laboratories.'' Secretary Richardson said in 
testimony before the Senate Armed Services Committee on June 21 that he 
has done more to improve security during his two years in office than 
had been accomplished in the previous twenty years by his predecessors. 
I have been active in the DOE/AEC community for all my career, and I 
can vouch for his claim. Yet, for all the well-motivated actions and 
strong leadership that has been so evident, I cannot say that our 
important restricted data and national security information are more 
secure than ever before. My hesitancy derives from a surfeit of 
complications that surround security.
    The Secretary and the laboratory directors share the same desire 
for effective security performance; we are not at odds. But I believe 
we are both stymied by the bureaucratic sclerosis of the agency. From 
below, the laboratories are frustrated with a maze of conflicting rules 
and directives from various offices of the Department, together with 
team after team of inspectors that descend upon us. From above, the 
Secretary has resorted to managing the security problems by issuing 
directives from his own office, rather than relying on the agency's 
internal mechanisms to generate and implement reforms. This game of 
catch-up between the top of the agency and those who must implement the 
directives, with far too little communication on the chances for 
success or the unforeseen consequences of new policies, has been a 
problem in almost all areas of support for DOE missions--in 
environment, safety, and health issues, in business practices, and in 
security.
    The President's Foreign Intelligence Advisory Board (PFIAB) 
appreciated the magnitude of this problem. Their report, ``Science at 
Its Best; Security at Its Worst,'' issued last year, referred to DOE as 
a ``big, byzantine, and bewildering bureaucracy.'' In regard to 
security performance, the PFIAB found that ``multiple chains of command 
and standards of performance negated accountability, resulting in 
pervasive inefficiency, confusion, and mistrust'' (page I). It 
concluded that ``real and lasting security and counterintelligence 
reform at the weapons labs is simply unworkable within DOE's current 
structure and culture'' (page 46). The PFIAB's recommendations, of 
course, were the impetus for the legislation creating the semi-
autonomous National Nuclear Security Administration within the 
Department of Energy.
    It is my belief that the circumstances in DOE are not the fault of 
any individuals, certainly not the people who are in charge or occupy 
key positions in the Department of Energy today. As the President's 
Foreign Intelligence Advisory Board found, the single most identifiable 
factor that led to the current state of affairs was the relentless 
growth of bureaucracy. My definition of bureaucracy is when well-
meaning, capable people find it difficult to accomplish their mission 
responsibilities because of multiple lines of authority and 
bureaucratic hurdles that must be overcome.
    I believe the National Nuclear Security Administration is our last 
best hope for fixing our security problems in a systematic way. By 
``fixing'' I mean creating a security culture across the complex 
(federal workers and contractors) that achieves teamwork and mutual 
commitment to the goals of security. As things stand now, there is 
little sense of collaborative work toward a shared goal in security. 
Security in DOE is a ``house divided''--those who make the rules, and 
those who must follow them. There is little discussion with the field 
by those who write guidance and policy. The people who really know the 
technologies that can be helpful have little input. It is, as has been 
said before, a ``dysfunctional'' relationship.
    The new administrator of the NNSA, General John A. Gordon, has 
quite a challenge before him. But as qualified and as competent as he 
is, he will not succeed unless he has full authority and free rein to 
redesign the structure of the nuclear complex from the ground up. I 
know that the laboratory directors and the federal managers of the NNSA 
will fully support him in this undertaking.

                 SANDIA HAS A POSITIVE SECURITY CULTURE
    An erroneous perception has arisen that the laboratories have a 
culture of indifference or even contempt for security. I can tell you 
that this perception is grossly inaccurate for Sandia National 
Laboratories, and I believe it is inaccurate for the other NNSA 
laboratories as well. Certainly we have had challenges and problems in 
various aspects of security performance, but I take issue with the 
belief that we have an ingrained or widespread ``attitude problem'' 
toward security at Sandia.
    Sandia's laboratory culture was shaped by its industrial heritage, 
which began in 1949 under the management of AT&T Bell Laboratories and 
continued after 1993 with Lockheed Martin Corporation. Our industrial 
roots gave us a strong cultural commitment to security. Industrial 
laboratories are very conscious of the need to keep proprietary 
information secure. As I enumerated in previous testimony to this 
committee, Sandia has a long history of originating and implementing 
innovations that have improved security without direction from DOE (see 
Questions for the Record for my testimony to this subcommittee on 
October 26, 1999). And we also have a history--as I will illustrate 
later in my statement--of challenging policy changes mandated from 
above that would weaken our protections and controls on classified 
materials.
    In June 1999, the Secretary of Energy called for a stand-down of 
operations at the Defense Programs laboratories to conduct an intensive 
two-day session of security training. Contrary to reports that 
laboratory staff were resistant to this training, our staff 
participated with great interest and with a positive attitude. We had 
93 percent staff participation during the stand-down, and we achieved 
the full 100 percent shortly thereafter. (The seven percent difference 
consisted of people on previously scheduled vacations or essential 
business travel, illness absences, and critical job functions such as 
security and medical staffing.) The thoughtful dialog and suggestions 
offered by employees during the security sessions clearly demonstrated 
a laboratory culture of positive concern and advocacy for effective 
security.
    I was not at all surprised that the inspectors from the DOE Office 
of Independent Oversight and Performance Assurance remarked on the 
positive and cooperative attitude among Sandia managers with whom they 
worked during the 1999 inspection of Sandia National Laboratories. I 
frequently get similar comments from other audit and inspection teams. 
Sandia has a culture of respect for security, and people notice it. At 
the close-out meeting of the most recent visit of the DOE Oversight and 
Performance Assurance Team in June, it was encouraging to receive 
informal verbal feedback from the inspectors to the effect that Sandia 
is currently meeting all requirements and is above and beyond minimal 
requirements in many areas. The team commented that they found it 
refreshing to see a sense of ownership for security at the manager 
level. They also remarked that Sandia's custodians of classified matter 
are well-versed in their responsibilities; they know what to do and are 
doing it well.

                     SECURITY MANAGEMENT AT SANDIA
    Sandia has implemented an Integrated Safeguards and Security 
Management System (ISSMS) for all its security responsibilities. As the 
name implies, the goal of Integrated Safeguards and Security Management 
is to incorporate responsibility for security into the daily work of 
every employee. We can't just bring in security experts and give them 
the job of inspecting-out the defects; every single person bears 
responsibility to build-in and maintain sound security measures. This 
is a necessary attribute of a stable security culture.
    ISSMS establishes clear and unambiguous lines of authority and 
responsibility for ensuring that secure operations are established and 
maintained at all organizational levels. Authority and responsibility 
for security at Sandia National Laboratories begins with me and flows 
via my deputy laboratory director to the line vice presidents that 
report to her. Sandia's Chief Security Officer coordinates the enabling 
resources that support the line executives in their security 
responsibilities. ISSMS ensures that personnel possess the training, 
knowledge, and abilities necessary to discharge their security 
responsibilities. It also provides a way to allocate resources 
efficiently to address security and operational needs.
    Our ISSMS methodology stresses the need to identify applicable 
security standards and requirements before work is performed. 
Administrative and engineering controls to prevent and mitigate 
security risks are tailored to the work being performed and are 
designed into work processes. While we make use of a ``fresh-set-of-
eyes'' in examining security practices and draw on the knowledge and 
experience of security professionals, we gain the involvement and 
creativity of those actually carrying out the work in developing 
security procedures that make sense in the workplace.

 SANDIA'S PARTICIPATION WITH THE NNSA'S NUCLEAR EMERGENCY SEARCH TEAM 
                                 (NEST)
    The National Nuclear Security Administration plays a vitally 
important support role in combating acts of nuclear terrorism through 
its Nuclear Emergency Search Team (NEST). NEST provides the FBI with 
technical assistance in response to terrorist use or threat of use of a 
nuclear or radiological device in the United States. NEST also supports 
the State Department in a similar role overseas. Another team, the 
Accident Response Group (ARG), has the different mission of providing 
technical support in response to accidents involving U.S. nuclear 
weapons while they are either in the custody of DOE or the military 
services.
    The highly selective force that makes up the cadre of deployment 
personnel for NEST and ARG are mostly from the nuclear weapons 
laboratories. To be on the NEST team, an individual must be approved by 
both line and program management, have certain essential technical 
skills, pass a physical examination, and take additional training. My 
experience is that NEST members are conscientious and dedicated 
individuals with a high sense of duty. NEST personnel volunteer for a 
mission which, if not successful, could have severe consequences for 
the nation and be fatal for the team.
    Sandia National Laboratories contributes a number of team members 
to the NEST. Sandia does not possess any NEST computer media similar to 
that reported as missing by the Los Alamos group. Sandia's role in NEST 
is different from that of Los Alamos and Lawrence Livermore, focusing 
largely on the non-nuclear electronic subsystems of warheads and bombs 
as well as methods for calculating the consequences of dispersal events 
and methods for containment.
    Sandia does maintain some classified computer media and lap-tops 
under the ARG program. This information is significantly different from 
the NEST media at Los Alamos. This classified material has all been 
accounted for. Furthermore, within the last three weeks, we instituted 
stricter controls for these items, including a two-person rule and 
formal sign-in/sign-out procedures.

               CLASSIFIED MATERIAL PROTECTION AND CONTROL
    Sandia employees and contractors who handle classified matter are 
required to protect and control classified material from unauthorized, 
casual, and deliberate access. This requirement is one of the first 
things a new-hire is briefed on when he or she joins Sandia National 
Laboratories, and we continue to educate our personnel on the 
procedures that implement this policy throughout their careers through 
annual refresher training courses.
    The core principles that we teach our employees regarding access to 
classified material are contained in Sandia's Safeguards and Security 
Guide, which is readily available as a reference on our internal 
network. Access to classified matter requires a job-related need-to-
know, as determined by an individual's manager, as well as a proper 
security clearance.
    As you know, Secretary Richardson distributed a memorandum on June 
19, 2000, directing the implementation of certain enhanced protection 
measures at the NNSA laboratories. I welcome the emphasis on 
accountability that the memorandum so clearly communicates. Sandia took 
immediate steps to implement or commence work on the enhancement 
measures that are the responsibility of the laboratories, and we will 
cooperate with the NNSA offices responsible for implementing other 
measures in their purview.

Controls for Vault Access
    Sandia has explicit rules governing the storage of classified 
matter. Briefly, classified material must be stored in vaults or vault-
type rooms (or in a military-style igloo similar to a vault-type room), 
or in key- or combination-lock containers approved by the General 
Services Administration and located in a locked and alarmed building. 
Sandia National Laboratories manages 166 vaults or vault-type rooms 
that store classified matter (documents or material)--114 at our New 
Mexico location and 52 at our California site.
    In compliance with Secretary Richardson's memorandum of June 19, 
2000 (received late on June 20), Sandia modified operating procedures 
for all vault access on June 21. We modified our log sheets to record 
the entrance and exit of all personnel. We also required that access/
egress points for vaults be under continuous, positive control by 
personnel authorized for access to that specific vault. Or, for vault-
type rooms (large vaults in which a number of people work) we required 
that the vault be occupied and that access by authorized personnel be 
controlled by an electronic system. In the absence of these controls, 
the vault must be in a locked and alarmed state.

Controls over Electronic Media
    On June 15, 2000, Sandia's chief information officer initiated a 
lab-wide survey of removable classified electronic storage media. The 
objective of this survey was to determine that removable media are 
accounted for (to the extent possible in the absence of formal document 
accountability) and are properly stored. The survey found that all 
holdings were accounted for, except for two relatively minor issues 
which were immediately communicated to DOE via the Department's 
incident reporting system. The first issue involved a set of 
unclassified commercial software program disks that were treated as 
classified. The inquiry is still active, but has concluded that those 
disks contained no classified information. The other issue (reported on 
June 30) involves a single 3\1/2\ inch, 1.44-megabyte diskette that has 
not yet been located. An inquiry is currently underway in accordance 
with DOE procedures.
    Significant overall improvements in the cyber-security of the 
nuclear weapons complex have been accomplished at substantial cost in 
1999 and 2000. However, many potential vulnerabilities continue to 
present formidable challenges to computer security. There are no easy 
solutions. Although encrypted removable media or media-less computing 
may have their places in a defensive system (and I believe they do), 
there are many ways for a sophisticated adversary to extract 
information in today's modern electronic environment. Removable media, 
email, hot mail, ftp file transfer, http file transfer, port-enabled 
file transfers, laptops, modems, network sniffers, video-monitor-to-VCR 
converters, faxes, mail, copiers, two-way pagers, telephones, cell-
phones, and computer trash are all potentially exploitable. Cyber-
security is certainly the most formidable security challenge facing DOE 
and the federal government as a whole.
    Because of the magnitude of the cyber-security challenge, a systems 
approach across the entire NNSA complex is required. I am very pleased 
that emergency supplemental funding for cyber-security upgrades has 
been approved by Congress as part of the FY2001 Military Construction 
Appropriations Bill. The funding is badly needed to combat cyber 
threats and vulnerabilities in a coordinated fashion throughout the 
nuclear weapons complex.

           WEAKNESSES IN THE DOCUMENT ACCOUNTABILITY PROGRAM
    Prior to 1991, DOE practiced full document accountability for all 
Secret data under its control. Document accountability was a formal 
system for inventorying and recording access to classified documents 
over the lifetime of the document, from creation to destruction. The 
system was analogous to--although much more rigorous than--the common 
library check-out system that was aptly cited by a member of this 
committee.
    In February 1991, DOE modified its accountability rules to drop the 
requirement for formal document accountability over Secret National 
Security Information and ``non-weapon Secret Restricted Data.'' 
(Restricted Data is a category of protected information created by the 
Atomic Energy Act that includes ``data concerning the manufacture or 
utilization of atomic weapons, the production of fissionable material, 
or the use of fissionable material in the production of power.'')
    In May 1992, DOE extended its Modified Accountability Program to 
include weapon-related Secret Restricted Data. DOE notified the 
laboratories that accountability requirements were being modified for 
all categories of Secret data for organizations that had met certain 
requirements, including having completed a 100 percent inventory and 
reconciliation of controlled documents in accordance with DOE Order 
5635.1A.
    The Modified Accountability Program was instituted by DOE to 
accommodate the National Industrial Security Program, which was 
intended to standardize security requirements among all federal 
agencies. It should be noted that prior to the Modified Accountability 
Program, DOE protected Secret Restricted Data with the same level of 
protection employed by the Department of Defense for Top Secret.
    The modified accountability program eliminated the requirements for 
unique document numbers and maintenance of accountability records for 
documents, inventories, destruction certificates, written 
authorizations to reproduce, and some internal receipting. Other 
security procedures not explicitly changed by the modified 
accountability program were unaffected.
    Unfortunately, with the change in accountability, DOE lost the 
ability to track who was accessing which secret documents, a feature 
that had been a useful tool for counterintelligence analysis. While 
this change clearly saved money and made sense in the broader context 
of consistency across all federal agencies, it reduced our ability to 
quickly detect the absence of a document, and it eliminated our 
capability to formally monitor the access to secret classified matter. 
This statement applies to documents and information in printed form as 
well as to electronic media.
    The laboratory directors were never comfortable with the change to 
Modified Document Accountability. At Sandia, we originally told DOE 
that we intended not to implement the Modified Accountability Program. 
In response, DOE told us that costs for full accountability would no 
longer be reimbursable under the operating contract. Sandia complied 
with DOE's requirement, but we left open local options for higher 
levels of accountability.
    In January 1998, DOE moved to eliminate full document 
accountability for Top Secret Restricted Data as well (and for other 
categories of Top Secret information). As part of this change, DOE 
eliminated the ``Top Secret Control Officer'' positions at the 
laboratories. I am proud to say that staff at Sandia had better sense 
and continued to protect Top Secret data with full document 
accountability--a decision that I have fully endorsed.
    Sandia National Laboratories has consistently maintained full 
accountability for all Top Secret data under its control. And in fact, 
we have also maintained document accountability over selected sets of 
Secret data that we felt merited ongoing accountability. These examples 
demonstrate the culture of respect for security that exists at our 
laboratory. Rather than resisting efforts to improve security (as has 
been charged by some critics of the laboratories), the record shows 
that we are more likely to resist efforts to weaken it.
    On March 1, 1999--following a conference call of the three nuclear 
weapon laboratory directors with Under Secretary Ernest Moniz on the 
topic of Secret and Top Secret accountability--I faxed a request on 
behalf of the directors to the Under Secretary in which we recommended 
that the former controls over document accountability be reinstated as 
quickly as possible. We requested that the Under Secretary and the 
Department's counterintelligence official evaluate the feasibility of 
promptly reinstating full document accountability. This request was 
submitted to the Department's security bureaucracy, and to our 
knowledge it has never emerged.
    I have twice brought the modified accountability problem to the 
attention of Congress in testimony: in my statement to the Senate 
Committee on Energy and Natural Resources on May 5, 1999, and to this 
very subcommittee on October 26, 1999.
    In my judgment, we can no longer afford to wait for official 
reinstatement of the full document accountability policy. The security 
and counterintelligence benefits afforded by formal accountability 
decisively outweigh the costs. Moreover, formal document accountability 
will help protect conscientious employees from the indignity of 
criminal suspicion similar to what some employees had to endure in the 
recent Los Alamos incident. Therefore, I have decided that Sandia 
National Laboratories will re-implement formal document accountability 
for Secret Restricted Data under its control at the earliest feasible 
date. I have directed Sandia's Chief Security Officer to develop an 
implementation plan for this change.

                WEAKNESSES IN THE CLASSIFICATION PROGRAM
    In parallel with the changes in document accountability introduced 
by the Department of Energy in the middle 1990s, changes were also made 
to DOE's classification program that, in my view, introduced systemic 
weaknesses.
    A Fundamental Classification Policy Review was recommended by a 
Classification Policy Study in July 1992. Based on that recommendation, 
Secretary Hazel O'Leary committed DOE to review all classification 
policies and related technical guidance, and then to revise 
classification guidance to reflect changes in policy. DOE's Fundamental 
Classification Policy Review was initiated in March 1995, and was a 
major component of Secretary O'Leary's Openness Initiative.
    In April 1995, the President issued Executive Order 12958, 
``Classified National Security Information.'' This directive modified 
some of the existing rules concerning classification, but it introduced 
significant new provisions requiring agencies to perform large-scale 
reviews of material for potential declassification. However, the order 
explicitly exempted Restricted Data (RD), which is governed by the 
classification provisions of the Atomic Energy Act.
    Even though Executive Order 12958 excluded Atomic Energy Act 
Restricted Data, the directive dramatically influenced DOE's thinking 
toward classification and declassification of RD during its Fundamental 
Classification Policy Review. The review concluded in July 1996 with 
recommendations for regulatory changes that substantially applied the 
provisions of Executive Order 12958 to Atomic Energy Act Restricted 
Data. The new regulations (10CFR1045) required large-scale periodic and 
systematic reviews of RD documents for declassification ``based on the 
degree of public and researcher interest and likelihood of 
declassification upon review.''
    The declassification regulations, while well-intentioned, required 
a level of effort by the Department that it was not equipped to handle. 
As a result, the primary emphasis and deployment of manpower in the 
classification organization at DOE changed from effective 
administration of classification responsibilities to effective 
management of the declassification efforts. The organization even 
changed its name from ``Office of Classification'' to ``Office of 
Declassification.''
    It should be noted that some federal agencies used the process of 
``bulk declassification'' as a mechanism to meet the requirements of 
Executive Order 12958. This practice often resulted in inappropriate 
information being released into the public domain without document-by-
document review. The negative impact of these actions is still being 
felt today throughout the federal government.
    It has become evident in the last few years that DOE's 
classification program is in crisis. As a profession, the 
classification field has become needlessly complex and arcane. The 
federal government's classification rules evolved over several decades 
and from different agencies, and they are rife with inconsistencies and 
legalistic complexities. The system is poorly indexed and coordinated. 
DOE classification officers rely on a body of some eight hundred 
sources of classification guidance for DOE source material alone; and 
they must be familiar with hundreds of other sources that govern the 
classification of National Security Information from other agencies. 
Classification professionals in the DOE community--and they are all 
technical-degreed personnel--often must use their subjective good 
judgment to resolve conflicting or unclear guidance.
    To their credit, the DOE Office of Declassification embarked on a 
``Guidance Flattening Initiative'' two years ago which should go a long 
way toward simplifying classification guidance and reducing conflicts. 
It would also be helpful if the classification community could define 
subsets of need-to-know categories to help us in administering the 
need-to-know principle. However, the classification community in DOE is 
disproportionately assigned to the management of the declassification 
effort, with a need to devote more effort to the efficient and 
effective management of the classification program.

               IMPACT OF SECURITY ON THE WORK ENVIRONMENT
    As a laboratory director, I am responsible for maintaining in top 
condition the infrastructure and human talent of one of the nation's 
foremost laboratories supporting vitally important national security 
objectives. I am worried about our pool of human talent to carry out 
this mission. Clearly, the NNSA laboratories need to continue their 
focus on enhancing security. But if security enhancements are 
implemented in a way that creates an atmosphere of mistrust, or 
generates unnecessary procedural burdens, or is perceived to be 
discriminatory against some groups, or dictates prescriptions that 
technical people have no input to, then the talent pool at the 
laboratories will begin to suffer.
    Even without the security issues that the laboratories face today, 
we would still be having a tough time attracting and retaining talent 
in an economy that offers very attractive opportunities to technical 
graduates. Frankly, we are beginning to have a serious 
multidisciplinary staff retention issue. Poorly thought-out security 
and human reliability programs will only make that situation worse.
    Rather, the NNSA must strive to create conditions that make 
security a natural way of doing one's job. We need user-friendly work 
environments that incorporate robust security features in a way that 
achieves maximum protection for secrets with minimal obstruction of 
productive activity. I am certain that the best solutions will be 
system solutions that begin by focusing on specific work activities and 
move outward from there to establish rules--as opposed to those that 
begin with rules, directives, and policies that originate at a great 
distance from the workplace. Robust and lasting security can only be 
achieved through the cooperative efforts of the laboratories, their M&O 
contractors, and NNSA management, with the firm but supportive 
oversight of Congress.

    Mr. Upton. Thank you very much. The second bells are just 
about ready to ring, so we are now going to adjourn until 1 
o'clock, and we will start with Dr. Browne when we come back. 
Thank you.
    [Brief recess.]
    Mr. Upton. Thank you, everyone, for being prompt and coming 
back.
    Dr. Robinson, thank you for your testimony.
    Dr. Browne, welcome.

                   STATEMENT OF JOHN C. BROWNE

    Mr. Browne. Mr. Chairman, members of the committee, thank 
you. It has been 6 weeks since I first found out about these 
missing hard drives. That was on June 1 of this year, and my 
anger and frustration has increased over these 6 weeks because 
we have not been able to understand how this incident occurred 
or, in fact, what led to even the missing hard drives being 
found on June 16. Their finding really gives me no comfort, and 
we certainly did not celebrate. We were pleased that we had 
control back of the hard drives, but we were not pleased 
because we did not understand the circumstances.
    I would like to clear up something for the record. It has 
been stated that the University of California did not notify 
the Department of Energy for over 3 weeks. It is true that some 
employees at the laboratories kept that information from my 
management team. But when we found out, we immediately and 
promptly notified the Department of Energy. As a matter of fact 
it was less than 2 hours between the time I was informed and 
the formal notification of the Department of Energy.
    I would like to start out by saying that there are no 
excuses that I can give you for this hard drive incident, and I 
certainly did not want to come here and point fingers between 
myself and the Department of Energy. When we look at this, 
there may be some contributing factors. Again, none of them 
really are excuses, but they are contributing factors. One is, 
I do think that we have to look at the adequacy of both DOE 
laboratory procedures and practices, both to prevent and detect 
this type of incident. I think we have to determine whether our 
human reliability programs are adequate. And did we have the 
appropriate oversight of a closely held need-to-know program 
like NEST, and fundamentally, did we have the right formality 
of operations in the NEST program.
    Let me say that I am accountable for the actions at Los 
Alamos National Laboratory, and I take those responsibilities 
very seriously. We have taken significant corrective actions 
since the finding of the hard drives being missing, and I will 
take disciplinary action once the FBI case has been concluded, 
I have been precluded from further internal investigations by 
the FBI.
    I believe we must return Secret RD and Top Secret to 
accountability and tracking. There is a cost and a time factor 
involved. I think we should review our human reliability 
programs to make sure we have the right people and we have the 
right program in place.
    Science is essential to do our mission. We will fail 
without science. But it is not sufficient. If we have 
indifference or carelessness on the part of any of our people, 
regardless of their scientific or technical accomplishments, we 
cannot allow that to occur and to affect national security.
    I think the challenge facing General Gordon and the NNSA is 
to reinforce the security culture while maintaining science at 
its best. And I think he should be given the opportunity to do 
that, and we certainly will support him in that. Let me make 
just a few points. We have discussed a lot this morning, the 
1990 period of security deemphasis. I will not go into any more 
of that. I think it has been covered pretty clearly.
    I would like to point out that before this committee last 
year, I think all three laboratories testified to the point 
that we felt L Clearances and the use of L Clearance as a 
default clearance was a mistake and that we would prefer to 
have Q Clearances at our site. And I think we still feel the 
same way.
    Also the color of badges. We brought that up saying that we 
thought a single-colored badge really hurt our ability to 
maintain security environment at our laboratory. The Department 
has returned to a colored-badge system that we think is very 
effective now.
    When I became director about 2\1/2\ years ago, I started a 
lot of security enhancements. I have increased the budget that 
we spend on security by 50 percent in the last 3 years. We have 
made improvements in cyber security, counterintelligence, and 
since the hard drives incident, we have been logging people in 
and out of vaults since about June 12. We now have our computer 
media, the high-density type of media, whether they are hard 
drives or Zip drives or any of that type, we have 66,000 of 
those bar-coded, and they are able to be tracked.
    We are waiting for guidance from the Department of Energy 
on how best to put in place a tracking system that is 
consistent across the entire Department of Energy so that we do 
not have incompatibilities between various sites.
    Let me mention something that Mr. Podonsky brought up this 
morning, which I think is a very important issue about the role 
of UC in the laboratory and the Department of Energy. I know my 
time is up, but if it is okay, I would like to make this point. 
It is a shared and joint upon responsibility.
    There is no doubt that the University of California signed 
a contract with the Department of Energy, which assigns 
responsibility for security to the university, and that as an 
officer of the university, they delegate that responsibility to 
me as laboratory director.
    And I accept that responsibility. The Department shares, I 
believe, in our accomplishment of that, because they do set 
rules. They do evaluate our performance, and they also provide 
the resources. And I think it is important for the committee to 
realize that there are no separate resources provided for 
security. The security dollars come out of the programs 
directly. Which means there always has to be a prioritization 
between safety, security, programmatic. And it is a balancing 
act that both the labs and the DOE have to maintain.
    With that, I will stop and be happy to answer any questions 
that you might have. The last statement I guess I would like to 
conclude with is I would hope this committee does not judge all 
8,000 Los Alamos employees by the acts of a few individuals. 
Our people are really dedicated to national security. I would 
like to tell you today that they are hurt and angry. They feel 
let down by their other employees. People are really angry. I 
get lots of e-mail from laboratory employees who have been 
pretty outspoken about this latest incident in the wake of the 
one a year ago. I believe that science and security can 
coexist. I think it is critical to our Nation's defense, and I 
believe that we need to move on from this incident; learn from 
it, but not throw out the good things that we have and are 
doing for our country. Thank you.
    [The prepared statement of John C. Browne follows:]
  Prepared Statement of John C. Browne, Director, Los Alamos National 
                               Laboratory

                              INTRODUCTION
    Mr. Chairman and members, thank you for the opportunity to discuss 
the security environment within which the Laboratory operated when the 
recent serious security incident occurred. When I first heard about 
this incident my reaction was probably the same as yours--how could 
this happen at Los Alamos after all the events of last year? I am angry 
and frustrated. The fact that the hard drives with classified 
information were found on June 16 by one of our people does not 
diminish accountability or responsibility to address the root causes.
    We made many significant improvements to security in the last year, 
with a strong emphasis on cyber security. We enhanced our security 
awareness training for our employees and subcontractors. Nevertheless, 
this incident still occurred at our Laboratory, leaving us to ask what 
more needs to be done.
    Although there are no excuses for this incident, there may be some 
contributing factors. The issues I have identified so far involve the 
adequacy of required DOE and Laboratory security procedures, human 
reliability in following procedures, and the oversight and acceptance 
of responsibility for security in special programs.
Key Messages
    I have these key messages to emphasize today:

<bullet> We are accountable. Corrective actions have been taken; more 
        are underway; disciplinary actions will be taken, subject to 
        the immediate requirements of the ongoing criminal 
        investigation.
<bullet> There is a need to return to more formal accountability for 
        handling of Secret Restricted Data materials. Increased 
        accountability will enhance the sense of personal 
        responsibility, and reduce the opportunity for and consequences 
        from human error.
<bullet> Human reliability programs need to be evaluated to ensure that 
        people with access to the most sensitive information are 
        included and that the program is effective.
<bullet> Outstanding science is essential to achieve our mission--we 
        will fail without it--but it is not sufficient. Indifference or 
        carelessness toward security, regardless of an individual's or 
        an organization's accomplishments, will not be allowed to 
        compromise our nation's interests. The National Nuclear 
        Security Administration has a major challenge to reinforce the 
        security culture while retaining science at its best in the 
        National Laboratories, and they should be given the opportunity 
        to do so.
                          SCIENCE AND SECURITY
    Criticism of the National Laboratories recently has taken the form 
that security is in direct conflict with an elite scientific culture 
because security emphasizes keeping information from people while 
science flourishes in an open environment.
    I reject the notion that science and security are incompatible. The 
tension that exists between the characteristics of security and science 
has been and can continue to be managed effectively. The most sensitive 
information in our custody--information about the design and operation 
of our country's nuclear arsenal--has been developed by the very 
scientists who are responsible for assuring that it is securely 
managed. More than any others, these scientists understand the 
information entrusted to them and appreciate the risks involved should 
it end up in the wrong hands. They have devoted their careers to public 
service in the national interest. They have demonstrated since the 
early days of the nuclear weapons program their ability to accomplish 
outstanding science and to simultaneously satisfy the requirements of 
effective security.
    For over 50 years, our nation has been well served by the 
relationship between the University of California and the Department of 
Energy and its predecessor agencies. It is one of the longest lasting 
and most productive partnerships between a state entity and the federal 
government in our history. The University has provided an outstanding 
workforce to help the government solve some of its most challenging 
national defense problems. The challenge today and in the coming decade 
to ensure the safety and reliability of the US nuclear deterrent 
without nuclear testing is as great as any faced in our history. The 
University's role is as important now as ever.
    Security management is a responsibility assigned to the Laboratory 
by the DOE through the management and oversight contract with the 
University of California. I would like to emphasize that as Laboratory 
Director, I am an officer of the University of California. In that role 
I represent the University and carry out the responsibilities assigned 
to it. I take that responsibility very seriously. The DOE sets the 
security rules within which we work. DOE evaluates our security 
performance through a series of programmatic and independent audits. 
DOE provides the financial resources to implement the security systems 
that are required. If resources do not match requirements, DOE sets the 
priorities. The University's obligations in all aspects of contract 
performance were made more explicit in the performance-based contract 
starting in October of 1993. This arrangement, which became a federal 
norm in that time frame, was to have clearly defined the contractor's 
accountability by establishing quantitative performance goals. However, 
in the last implementation of this process to the security function, 
the previously agreed-to criteria were dropped and our performance was 
judged solely by the outcome of the final 1999 DOE ``go green'' audit. 
This left our evaluation dependent on the auditors' criteria rather 
than a set of pre-established performance standards and metrics 
covering the major areas of security.
    The University has greatly enhanced its ability to provide 
oversight by adding a dedicated laboratory management office in 1993 
that provides an interface with the DOE on contractual issues. The UC 
Board of Regents has had a standing Laboratory Oversight Committee that 
regularly interacts with the Laboratory directors. The University of 
California President also has a Committee on the National Laboratories 
that is composed of individuals who previously served in senior 
positions in industry, government and academia. Recently the University 
of California Office of the President (UCOP) appointed a security 
advisory panel chaired by Adm. Tom Brooks and hired a former military 
security officer as UC security director for contractor oversight on 
these matters. The UCOP and Admiral Brooks have assembled an 
outstanding panel of security experts that has begun to evaluate 
security practices across a broad spectrum at the two UC weapons labs. 
This panel has not been in existence long enough to have an impact on 
our security performance. Committees and offices by themselves do not 
ensure security, but they do demonstrate the University's commitment to 
improvements in this area.
    The Department of Energy announced on June 30 that it will begin 
working with the University of California to explore ways in which 
security expertise can be brought into the UC and the Laboratory to 
achieve improvements in security. UC and the Lab welcome the study and 
will fully cooperate with the Department. Although the UC contract 
might be restructured to provide external security expertise, the day-
to-day responsibility for handling classified information will still 
rest on the shoulders of the scientists and engineers at the 
Laboratory. There are important lessons from our recent improvements in 
safety. Safety and security are line responsibilities. Additional 
expertise from outside can be very helpful, but it must reinforce line 
responsibility. This is where the day-to-day work occurs.

                   SECURITY DE-EMPHASIS FROM 1990-98
    To understand the current situation in security it helps to review 
the changes that have occurred in the nuclear weapons program over the 
last 10-12 years.
    After the end of the Cold War, the budgets for the nuclear weapons 
laboratories dropped rapidly. There was considerable pressure from the 
DOE and the Congress to reduce overhead costs, and this included 
security. Security funding dropped to a new low, especially for 
physical security.
    Policies changed as well as funding. Individual accountability for 
classified documents was done away with as a cost saving measure across 
the government. Secret Restricted Data document accountability was 
dropped as federal policy in 1992 and by 1993 after some debate Los 
Alamos ended this practice. In 1997, Top Secret Restricted Data 
document accountability was dropped as a federal requirement by DOE and 
other agencies. For Top Secret material and Sigma 14 and 15 weapons 
data we have continued to require more accountability and control than 
has been required by DOE.
    There were other changes as well. Significant amounts of 
information were declassified. The name of the DOE Office of 
Classification was changed to the Office of Declassification. A policy 
of openness was promoted that aimed to make more information available 
to the public, especially information related to the safety and 
environmental impacts of nuclear activities.
    A significant change of practices was instituted in the 1994-95 
time frame when we were instructed to reduce the number of Q-cleared 
personnel (Top Secret) by downgrading many of our employees' clearances 
to L (Secret). The result was many more people with lower level 
clearance in our secure work areas. Not long after that, distinctive 
colors for Q-cleared versus L-cleared badges were dropped, which made 
the identification of the security access of individuals much more 
difficult. While none of the above changes can be shown to have a 
direct bearing on the hard-drive incident, they were part of the 
atmosphere that was created after the end of the cold war.
    A few years after these budget reductions and policy changes 
occurred, we began having difficulty earning satisfactory ratings in 
security reviews and audits by the DOE. In addition, information 
technology was expanding at an incredible rate. Reinvestment in 
security began to occur, but too slowly to address the new environment.
    I faced this condition when I became Director of Los Alamos in 
November of 1997. I began to increase our overhead funding of security 
to make the changes mentioned elsewhere in this testimony. We have made 
significant progress. We still have further progress that needs to be 
made, and we are dedicated to doing that.

                    SECURITY ENHANCEMENTS SINCE 1998
    In early 1998, I provided greater emphasis on security and 
environment, safety, and health by creating a Deputy Laboratory 
Director position that would concentrate on operations, including 
security and safety. Previously, a single deputy director had oversight 
of all operational, business, and outreach functions. In April 1998 I 
formed a separate Security Division, reporting to my operations deputy, 
with a former Air Force security officer specializing in nuclear 
security at the head. Consequently, a greatly improved Site Safeguards 
and Security Plan was developed and approved by DOE--our first since 
1994. In a similar manner, I created a new Counter-Intelligence office, 
headed by a former FBI CI expert and reporting to the operations deputy 
but with full access to me.
    In response to last year's criticism of cyber security at the 
defense national laboratories (Los Alamos, Livermore, and Sandia), 
these laboratories and DOE developed a Tri-Lab Information Security 
Plan in April 1999. The Laboratory is implementing this plan, and to 
ensure continued coordination of these improvement efforts, I formed a 
senior Information Security (INFOSEC) Policy Board, headed by my 
principal deputy. In addition, a formal technical program was created 
to lead our technical efforts to identify and develop solutions to 
present and projected computer security challenges. This program 
interacts directly with the INFOSEC Policy Board to ensure tight 
communications regarding Laboratory objectives, priorities, and 
oversight. The Security and Safeguards (S) Division is represented on 
the INFOSEC Policy Board to ensure compliance with the security 
regulations and guidance issued by DOE Safeguards and Security 
organizations.
    Cyber security upgrades in the past year include

<bullet> Strict site and cyber access for foreign nationals.
<bullet> Network separation with firewalls between Laboratory 
        unclassified administrative computing and public information 
        computers--an additional layering beyond complete isolation of 
        the classified computing network completed six years ago.
<bullet> Eliminated except in very special cases authorized use of any 
        computer for both classified and unclassified computing (dual-
        use computers eliminated).
Actions After The Hard-Drive Incident
    As soon as the hard-drive incident was reported to me on June 1, I 
initiated all actions that were required, prudent to limit further 
damage, or appropriate to facilitate further inquiry. Those actions 
include temporarily eliminating SRD access for members of the NEST team 
who had unescorted access to the vault in question until we had a 
better understanding of the FBI investigation.
    Some of the actions taken in June have become continuing policy, 
such as:

<bullet> Logging of all vault entries and exits, with positive 
        identification.
<bullet> Reduced access lists for vaults and Limited Access Control 
        Areas (LACAs).
<bullet> Placed barcodes on all portable high-density computer storage 
        media with Secret Restricted Data (SRD: secret nuclear weapons 
        data) to facilitate inventory.
<bullet> Initiated a review of all nuclear weapons programs to ensure 
        that they have security plans consistent with DOE and 
        Laboratory policy.
    These activities addressed immediate concerns, but we recognize 
that more may be required. We are working with the DOE to identify and 
implement additional measures that address root causes.
    Last year I established a Lab-wide goal of ``Zero Safeguards and 
Security Violations.'' Upgrades in personnel practices to ensure 
suitability of staff for critical national security jobs includes 
intensified security awareness training, enforced by automatic 
rejection of personnel at entry badge readers if their training is 
overdue, and implementation of the DOE's counterintelligence polygraph 
program.
    To reinforce the message of low tolerance for serious violations, 
strong sanctions are being taken by line managers for serious or 
deliberate security infractions. Since I have become Director, I have 
found it necessary to terminate 3 employees and suspend 4 others for 
serious security infractions and violations. For lesser infractions, 
sanctions such as salary reductions and reassignment to less 
responsible jobs have been applied. I have also empowered my managers 
to pull the Laboratory badges of non-UC subcontractor workers in their 
organizations who had the privilege of site access but failed to follow 
our procedures. This action also has been taken a number of times 
recently for visitors who did not comply with security procedures. 
After the investigations are complete in the hard-drive incident, 
appropriate personnel actions will be taken. It is not fair to our 
thousands of conscientious employees to tolerate the deliberate, 
careless or indifferent acts of a few individuals.
Oversight
    The quality of the Laboratory's security program is monitored 
through regular self-assessments and DOE evaluations. UC had also added 
detailed oversight through its new security office and panel that 
reports to the UC President's Council.
    In the last few years we have made substantial investments to 
provide a stronger security environment. The improved status of our 
whole security posture was validated by the DOE's Office of Independent 
Oversight and Performance Assurance (OIOPA) at the end of 1999 with a 
rating of ``Satisfactory,'' the highest of their three rating levels, 
following a year of preliminary visits and final audits. The GAO 
followup report, ``Improvements Needed in DOE's Safeguards and Security 
Oversight'' (February 2000) primarily addressed needed integration of 
oversight findings and followup records in DOE's methods. In this 
regard, the GAO report also calls out as a noteworthy practice that Los 
Alamos maintains its own database with ``virtually every known security 
problem at the laboratory'' as a method to track findings and 
corrective actions--although improvements were recommended in root 
cause and risk/benefit analyses.
    The DOE Inspector General investigated security inspection ratings 
at Los Alamos for 1998 and 1999 and in May wrote the Summary Report on 
Inspection of Allegations Relating to the Albuquerque Operations Office 
Security Survey Process and the Security Operations' Self Assessment at 
Los Alamos National Laboratory. Most of the report is related to DOE 
ALO. I will not comment on those findings.
    The portion of the IG report dealing with LANL self-assessments in 
1998 and 1999 alleges that a) all self-assessments were not completed 
by LANL as required; and b) ratings on some self-assessments were 
manipulated by LANL management to make the Lab look better than the 
facts would have indicated.
    Self-assessments are a valuable internal tool to senior management 
because they allow us to determine where we need improvements. The DOE 
OIOPA audit reviewed our self-assessment function after the IG visit to 
LANL and found that the LANL self-assessment program was operating and 
communicating the results to management effectively. Manipulating self-
assessments as alleged would be counterproductive to our goals of 
having an effective security. Self assessment findings have no direct 
impact on DOE's annual evaluation of our security performance.
    If the DOE IG will share more information on those allegations with 
me, I will investigate further. It is correct that we did not complete 
as many self-assessments as we had planned. We went beyond the DOE 
requirement for self-assessments and set a ``stretch goal'' that we 
missed. However, I would like to point out the Laboratory's security 
program was reviewed 16 times in 1999 alone. The DOE-IG report is the 
only audit for which we objected to the findings, and our objections 
were only because the findings could not be validated.
Current Regulatory System
    The regulatory system for security, like safety, is complex and 
multilayered. At the top level public laws provide general principles 
and objectives. Next, the DOE has established a layer of rules in the 
Code of Federal Regulations and then has a layer of requirements in 
their Orders system. The Orders system has many thousands of pages of 
orders, manuals, and guides that are under constant revision. 
Requirements can be modified in real time by DOE direction.
    One of the contract roles for the University of California is to 
help, with the DOE and the Labs, review regulations as they are 
developed and to maintain a list of applicable requirements.

           INTEGRATED SAFEGUARDS & SECURITY MANAGEMENT (ISSM)
    To deal with this complex environment we are taking the same 
approach to security that we took with safety. It is called Integrated 
Safeguards and Security Management (ISSM) and uses a simple five-step 
approach that every employee can understand. We are writing plain 
language ``Laboratory Implementation Requirements'' (LIRs) that capture 
all the government requirements in a form that allows the employees to 
understand what they must do in a given circumstance. Many requirements 
are common sense and we must continue to work toward a simple system 
that is easily understood but is difficult to circumvent.
    Ultimately, security depends on individual performance. This is not 
unlike the individual's responsibility for safety. With the general 
security objectives in mind, the logic of the rules can be followed. 
Following the rules offers the worker protection when some failure 
occurs. More importantly, we have found that formality of operations 
encourages work habits that prevent failures.
    To reinforce these expectations, I have directed all employees to 
participate in mandatory security awareness training, and review their 
security responsibilities with their next level of supervision.
    We have the experience from implementing Integrated Safety 
Management (ISM) over the last three years that self-reporting is an 
important tool for performance improvement. Self-reporting is defeated 
in a climate of fear. We must maintain the support of the employees for 
self-reporting while carrying out our responsibilities for management 
oversight of the lab.
    Over the last five years, we have averaged around 40 security 
``occurrences'' per year. Most of these were self-reported and were 
administrative security infractions that had no or minimal impact on 
loss of control of information. Those that were serious were dealt with 
swiftly. It is important that we retain honest internal reporting and 
self-evaluation, if we are to improve our performance in security. I 
would be suspicious if only a few security occurrences or safety 
incidents were reported in an organization of 8,000 employees. Our goal 
of zero security violations can only be met by honest reporting and by 
addressing root causes.

               CLASSIFIED MATERIAL PROTECTION AND CONTROL
    Security implementation includes providing secure work and storage 
places for classified material, controlling the movement of that 
material, and qualifying personnel to ensure trustworthiness, and 
regular training.
Physical Security
    The Laboratory has several layers of physical security, providing 
graded protection and defense in depth around classified materials. The 
outermost layer is the Laboratory site boundary, which encompasses DOE 
property. Inside this boundary, all persons are subject to DOE rules 
including following guard force directions. Vehicles and personal 
belongings are subject to search. A professional protective force with 
approximately 400 armed guards enforces these rules and site security.
    The next layer is the security fence. Unescorted access to the 
Administration Building security area (which incorporates X-Division's 
principal work space) is through portals using a Q- or L-cleared 
(secret--national security information [NSI]) badge plus identification 
either by a guard from the badge photo or by means of the badge plus a 
hand-geometry biometric reader. About 8000 people have badge access to 
the Administration Building. Other Q-cleared buildings have similar 
measures.
    X-Division's principal workspace is located within a Limited Access 
Control Area (LACA) inside the Administration Building. The LACA is an 
additional layer of security that we use to identify and authorize a 
group of people doing related work inside a more general security area. 
Unescorted LACA access, through another badge reader, was allowed to 
about 1300 Q-cleared people who required emergency access or who 
routinely work in or with X-Division, usually involving Secret 
Restricted Data--secret nuclear weapons data. (Once inside the LACA, 
personal recognition provides a strong deterrent to unauthorized 
access.) The access list for the LACA badge readers has been pruned to 
600 people.
    Another higher-level security environment can be provided by a 
Sensitive Compartmented Information Facility (SCIF). These areas can be 
multi-office work areas, like a LACA, but with more extensive access 
control features specified in federal standards. SCIFs are normally 
used for intelligence work or for Special Access Programs (SAPs).
    The next layer of physical security in classified workspaces is 
provided by personal control or secure storage of the classified 
materials. When not in the possession of an authorized user, classified 
material must be in approved storage. Approved non-work-hours storage 
can be a safe in an office, a vault, or a vault-type room meeting 
standards specific to each kind of system, its security environment, 
and the classification level of the material inside. The DOE standards 
cover the storage device location, construction, and door locks. For a 
vault, a GSA-approved standard lock and intrusion detection alarms are 
required.
    Los Alamos vaults have always been equipped with GSA approved locks 
and intrusion alarms that meet DOE standards. Until June, workday 
practices for control of classified material were met by various means 
allowed by the DOE requirements. For some vaults, including the vault 
in question, a number of Q-cleared persons were authorized for 
unescorted access. No entry logging process was required by DOE or the 
Laboratory or routinely in place when the vault was attended.
    After the hard-drive incident, we immediately instituted a vault 
access-logging requirement that subsequently became DOE policy per 
Secretary Richardson's June 19 memo. We are now meeting that 
requirement for all of our 96 vaults on site.
    Since 1994, we have had 19 DOE inspections that covered vault 
operations. These resulted in two findings. One finding is closed and 
the other, involving a technical issue regarding alarm testing, has a 
corrective action plan. Neither of these two findings addressed the 
issues surrounding this incident.
    DOE is planning to review vault operations across the complex and 
establish upgraded standards on a very fast track. We have already 
reviewed the security practices at all 96 vaults at LANL. We welcome 
the DOE review.

Information Security
    Information security is provided by physical security as described 
above and by controlling the movement of the information. The rules for 
controlling computer media have evolved to be somewhat different than 
for hard copy on durable media such as paper and film because the 
expansion of digital storage capacity challenges the traditional 
concept of ``document.'' Some hard drives in personal computers can 
hold more than the equivalent of a million pages of text. The increase 
in the amount of material that can be compromised and the speed with 
which it can be transmitted as digital capabilities increase is a 
government-wide problem that must be broadly addressed. Many of our 
cyber security improvements of the past year were aimed at this problem 
and we continue to deploy technology to address what may be the most 
volatile security issue we face.
    In 1992 when SRD accountability changes occurred, DOE was not 
prepared to give guidance for the secure handling of computer based 
information. The technology was changing so rapidly it was difficult 
for anyone to keep up. The computer technology moved faster than 
security technology or policy. We needed clearer overall guidance in 
order to follow priorities on expenditures. This all occurred in an 
environment when great pressure was being applied to reduce overhead 
accounts. In such an environment, it was essential that we follow DOE 
policy and expenditure guidance.
    As said earlier, government-wide policy from 1992 ended the 
requirement to maintain an auditable inventory of Secret Restricted 
Data material. This is often referred to as the ``end of 
accountability,'' but of course, everyone is still responsible for the 
classified documents in one's possession. The Laboratory follows DOE 
policy for accountability of SRD material.
    Positive inventory control for all of the approximately 6 million 
classified items now in the Laboratory's possession raises the issue of 
cost vs. benefit that caused the downgrading of requirements eight 
years ago. We estimate that the effort to reinstate an inventory 
listing of all SRD items would be at least $60M. Maintenance of the 
accountability system plus periodic inventories would cost on the order 
of $25M per year.
    An inventory system can help reinforce careful work habits as well 
as providing more positive document control. The cost and difficulties 
could be reduced by a graded implementation. For example, the first 
focus could be on inventorying portable high-density digital storage 
devices. We have now completed that task. Sigma categories can be used 
to prioritize items for inventory. Security and subject matter experts 
should be involved in detailing standards. It would be costly and 
ineffective for the Laboratory to attempt to create its own inventory 
system without DOE guidance. Any system must be DOE-wide to be 
effective. The magnitude of such an effort will raise issues of costs 
and benefits. DOE will need to establish priorities for resources.
    Prior to this incident there was no government requirement to 
protect a compendium of secret information beyond the requirement that 
applies to the highest level of classification of any item in the 
compendium. This is regardless of the volume of information.
    Immediately following the hard-drive incident, I directed that 
portable high-density digital storage devices with SRD must be put 
under inventory control. For this purpose, bar-coding on some 65,000 
such devices is essentially complete. As announced in June, the DOE 
will institutionalize the inventory control requirement for selected 
compendia of secret information on high-density media. We strongly 
endorse the development of such a plan.
    There is no formal DOE or Laboratory requirement associated with 
transfer of SRD ownership within a Q-cleared security area. In 
particular, the previous owner is not required to retain a record of 
change of ownership, so in a sense, everybody owns it--and therefore 
nobody does. The opportunity to lose track of ownership is high in 
multi-user vaults if there is no formal accountability. This may have 
been a contributing factor in the hard-drive incident. Prior to the 
1992 changes, the originator of a document had to record any copies 
made, number the copies, and the tracking system retained a record of 
all copies and their owners. We recommend re-establishment of rules for 
tracking SRD (and higher) document ownership.
    Transport of SRD outside of a security area requires physical 
security measures, but without inventory controls, there is no unique 
identifier to track removal, transport, and arrival of the item. 
Document accountability is important when documents are transferred 
between owners and transported outside of the security perimeter. 
Tracking document transfers and movements would be enabled by and 
should be part of a revitalized accountability system.
    With modern technology, there is an opportunity to develop 
centralized electronic repositories with a high degree of security, 
tracking, and access control. This would, however, create a security 
vulnerability by concentrating information. Security measures would 
have to be very high for such a system, but may be the best approach 
for a cost-effective document control system.
    The digital age has created new problems for information security 
and may also provide means to help that should be further considered. 
Encryption of classified information could be an important augmentation 
to other security measures. Secretary Richardson directed that 
encryption be utilized in protection of large quantities of SRD. A 
limited set of software encryption tools are available now, but are 
likely to improve rapidly in coming years. We plan to utilize these 
developments in concert with DOE.

Personnel
    In my opening comments I identified human reliability as one of my 
core concerns. This concern is widespread in security management. A 
recent DoD study <SUP>1</SUP> ``Insider Threat Mitigation'' identified 
maliciousness, disdain for security procedures, carelessness, and 
ignorance as four kinds of insider behavior that can generate security 
incidents. Our system attempts to minimize these behaviors by thorough 
selection, training, mentoring, and re-evaluation of personnel, but 
needs to be strengthened.
---------------------------------------------------------------------------
    \1\ DoD Insider Threat Mitigation: Final Report of the Insider 
Threat Integrated Process Team, available by subscription from http://
www.insidedefense.com/
---------------------------------------------------------------------------
    Access to various levels and kinds of classified material can be 
authorized to persons with corresponding clearance levels and need-to-
know. Clearances are provided through the federal departments for their 
own personnel and contractors. Although periodic reinvestigations check 
external risk factors such as indebtedness for cleared personnel, it 
may be necessary to strengthen personnel requalification through a 
better human reliability program.
    The 1995 DOE policy to make L (Secret) the default clearance level 
instead of Q (Top Secret) introduces many less-scrutinized people 
within our security perimeter. We recommend that only Q-cleared 
personnel have routine access within our security areas. This would 
require a much higher quota of new Q clearances.
    Personnel develop sound security work habits through initial 
training, work experience in a supportive environment, and refresher 
training. This is the normal process at my Laboratory. I know these 
people and I know their work style. It is not an atmosphere of 
widespread disdain for security.
    However, to ensure that current requirements are clearly 
understood, we conduct required periodic security retraining and hold 
occasional special events for security awareness. The basic retraining 
program has a number of elements and is largely computer-based on the 
Lab's internal web, to ensure currency and standardization. The 
retraining system is highly automated, including reminders emailed to 
the individuals and their administrative offices, and automatic 
rejection of personnel at security area badge readers if their training 
has lapsed.
    We have conducted a number of special events for security awareness 
that consist of presentations by respected security experts and use of 
professionally-prepared training materials. This follows a pattern 
developed by Integrated Safety Management that has been well-accepted 
by the workforce. We had very good employee feedback from these 
sessions. I have directed that security awareness training be conducted 
this summer for all employees. This will be an occasion for 
presentation of the Integrated Safeguards and Security Management 
System to the whole workforce. Additional security training will be 
focused on areas of need; for example, last week we conducted a 
security immersion day for NEST.
    I am particularly concerned about the apparent human failure 
involved in this incident. Losing or misplacing secret information is a 
serious matter but does not necessarily expose the individuals involved 
to severe disciplinary action if promptly reported. The rules are 
intended to accommodate a certain level of inadvertent security 
infractions through self-reporting. Through prompt reporting it can 
sometimes be established that the material was never left unprotected, 
and if not, then its movement can reconstructed and perhaps the 
material can be found. With prompt action the consequent damage to 
national security can be more effectively determined and limited. We 
will have to ensure that our security awareness training strongly re-
emphasizes the reporting requirement to our employees.
    DOE has several special personnel programs, such as the Personnel 
Security Assurance Program (PSAP) and the Performance Assurance Program 
(PAP), to assure fitness for particular duties. For example, personnel 
handling nuclear weapons are evaluated for psychological stability and 
drug abuse. It is important that an expanded human reliability program 
be wisely employed to help us determine if we have risks with people in 
our most sensitive programs. The DoD report cited above reaches a 
similar conclusion.

Access to Programs
    There are rules specifying access privileges to information in 
various categories according to the clearances held by a person. Beyond 
a Q-clearance, which enables access with need-to-know (NTK) to SRD and 
Top Secret material, there are Special Access Programs (SAPs) and 
Sensitive Compartmented Information (SCI) access.
    SCI information is often intelligence-related and 
compartmentalization helps protect sources and methods as well as 
highly sensitive information. Access to a SAP or SCI program can be 
granted only by a designated government program manager. Los Alamos 
works in many SAPs and SCI programs with the DOE and other federal 
sponsors. A DOE rulebook dictates the formal steps required for in 
these relationships to ensure that roles and responsibilities are 
documented.
    There are a number of special programs (non-SAP, non-SCI) at Los 
Alamos into which line managers have had little or no access to ensure 
that Laboratory safety and security rules are met. Prior to this 
incident it was not clear to our line management and security people 
whether or not they had the necessary authority to accept 
responsibility for the detailed security procedures of these programs. 
By their very nature, sponsors try to limit the number of people who 
have access to such programs. It is important that the line management 
maintain oversight of the security and safety of all such activities 
with assistance from security experts.

                             NEST SECURITY
    The NEST program has been operated as a closely held need-to-know 
program but not a formal Special Access Program. Los Alamos has made a 
good faith effort to participate in this program as we understood the 
guidance of the program sponsors in DOE. Oversight of NEST by our 
Security Division was limited. Not all aspects of the NEST security 
plan were reviewed and approved by laboratory managers for compliance 
with DOE rules or for best security practices. Even if NEST was treated 
as a closely held need-to-know program, it was subject to DOE policy 
for handling SRD, and that policy was in place at the Laboratory. We 
have been asked by the FBI not to interview the current Los Alamos NEST 
team, so we cannot report on any security audits that the team may have 
conducted. I also do not have the results of any security audits of 
NEST that DOE may have conducted. However, our preliminary review of 
NEST operations prior to the FBI being engaged indicates to us that the 
program operated using normal SRD security measures, although 
additional factors may be uncovered by the present FBI or future 
investigations and could cause us to modify this judgment.
    The vault where the X Division NEST toolkit was stored was subject 
to normal inspections by our Security Division. Since there was no 
accountable matter in the vault, inspections were related to physical 
security and spot-checks on document markings. Adequate equipment, 
procedures, training, and personnel qualifications were in place to 
enable secure handling of NEST items.
    Execution of security oversight is less clear. Our discussions with 
DOE have revealed that some personnel at DOE did not have the same 
understanding as LANL personnel of how NEST program security was to be 
administered. Elimination of such misunderstanding is a mutual 
responsibility of the DOE and the Laboratory.
    We believed in good faith that this program was indeed considered 
special in a very real sense, i.e., a ``close-hold'' program. There was 
a list of the people allowed access to the information. Deployment 
details were very closely held. We are addressing this issue with DOE 
and are working together to eliminate the ambiguity that we have 
discovered. In fact, the Deputy NNSA Administrator for Defense Programs 
sent me a letter on June 16 clarifying that we are responsible for the 
security of all programs unless directed to the contrary.
    There are a number of other closely held need-to-know programs that 
have some of the characteristics of the NEST program. On the basis of 
the NNSA letter we are undertaking a comprehensive review of their 
security. I believe that NEST and other closely-held need-to-know 
programs should have a level of formality that includes, at a minimum, 
a security plan reviewed and approved by DOE and laboratory management 
delineating roles and responsibilities for security for all 
participants, strict accountability and tracking control for all SRD ( 
and higher) information and equipment, regular security/counter-
intelligence training and certification, and regular audits.
    Such measures would not necessarily have prevented the hard-drive 
incident , but would have made it easier to detect someone violating 
security.

                      SUMMARY OF CURRENT ACTIVITY
    It is critically important for national security that our recent 
security incident be analyzed, the lessons learned, and corrective 
actions taken. At the local level, many changes already have been 
implemented and many are planned or under consideration. At the 
national level, actions are underway that provide an enhanced focus on 
security, especially for computer media. I will summarize 
recommendations and actions underway.
    First, the National Nuclear Security Administration will provide a 
new setting for our nuclear weapons programs, including a strong focus 
on security management. It is important that the NNSA and its new 
leader, Gen. John Gordon, be given the opportunity to create a new 
management team and processes that will ensure we accomplish our 
mission with effective security for these times.
    I am also very pleased that the Administration has created the 
Hamilton-Baker panel to review the hard-drive incident. I believe that 
these two distinguished public servants will provide a thorough and 
thoughtful analysis and recommendations.
    We are implementing upgrades to current security practices to 
address some of the underlying factors that may have contributed to the 
recent security incident. I have explained most of these in context 
above. In summary:

<bullet> Upgraded access control measures now in place include positive 
        identification and logging of persons for vault entries by the 
        vault custodian during work hours and through the central alarm 
        system manned 24 hours per day by our guard force. In addition, 
        if a vault custodian leaves his/her station, the vault must now 
        be locked and alarmed. Entry to Limited Access Control Areas is 
        also under review to improve controls.
<bullet> We are implementing inventory control of portable high-density 
        data storage devices with Secret Restricted Data. Device bar-
        coding for this purpose is nearly complete. Development of 
        requirements are underway with the DOE for reinstating 
        inventory control of SRD information.
<bullet> We are also considering how to reduce the volume of secret 
        information held in distributed storage, to facilitate 
        inventory control, yet not lose the valuable information from 
        the past.
<bullet> Encryption will be evaluated and incorporated as DOE guidance 
        is received. This will preserve the secrecy of information 
        regardless of control of the physical media.
<bullet> In our security awareness training, we will emphasize the 
        importance of continuing self-reporting. We must ensure that 
        our security practices do not discourage this.
<bullet> We are considering how to provide a graded approach to 
        personnel evaluations according to their access to the most 
        sensitive information. It may be necessary to include PSAP-like 
        features in evaluating fitness for duty for some positions.

                           CONCLUDING REMARKS
    If we made all these significant improvements in security over the 
past year, why didn't it prevent the latest security incident? It 
appears that there are a number of contributing factors, none of which 
can be or should be used as an excuse.
    Policies, procedures, and security systems are all necessary to 
make it difficult for someone to compromise our nation's secrets, but 
also to make it easier to detect someone who tries to do so. Such 
measures will not be able to wholly prevent inadvertent or intentional 
human error.
    There are additional improvements we can make. We will follow DOE 
guidance when it is received. To initiate further changes without that 
guidance usually leads to backing up and starting over, which wastes 
scarce resources.
    We have worked very hard and invested many resources in physical 
and cyber protection, but nonetheless we have suffered severely 
damaging incidents.
    Many people have stated that security, due to its inherent desire 
to keep information closed, is totally incompatible with science, whose 
fundamental premise is openness. There is no doubt that there is a 
tension between these two objectives--but it has been managed at Los 
Alamos and elsewhere for many years. It requires great diligence and 
continual improvements to deal with changing situations. It must be 
managed because science is too important to the future of our nation's 
security. Science creates the ideas that strengthen our national 
defense. Science created the information on the hard drives. We look 
forward to the leadership of the NNSA to help us strengthen our 
security environment while preserving science at its best.
    Although we incorporated all existing DOE policies in our 
requirements and had highly qualified workers involved, it appears a 
failure to execute required duties occurred, possibly from deliberate 
human action or omission of action. Security is not just the rules and 
the systems. We must engage the hearts and minds of the people. I 
reject the conclusion that this latest incident is typical of our 
workforce. Our people are dedicated to national security. Many have 
spent a large fraction of their lives contributing to our most 
important national problems. At the same time, we must insist that 
arrogance, carelessness and indifference to security not be an excuse 
for inadequate protection of our nation's secrets, regardless of the 
scientific accomplishments of the individual or the organization.
    Our goal is zero security violations. We are accountable and 
committed to make the needed changes to improve our security. We can 
have science at its best and security at its best. Our nation needs 
both and should demand no less.

    Mr. Upton. Thank you.
    Dr. Tarter.

                  STATEMENT OF C. BRUCE TARTER

    Mr. Tarter. I will try to be very brief also. Let me first 
reinforce and reaffirm what I think Dr. Browne has just said, 
that security, and I think it also restates something I think 
Mr. Podonsky said several times this morning, both in its 
testimony and in answer to questions. Security on our site is 
our site's responsibility, and responding to basically the set 
of Department of Energy requirements. It is not some third 
party. It is not somebody else. It is mine as the leader of the 
site. It is the responsibility of the employees on the site. 
And that is ours to do in response to DOE requirements. And I 
think you pointed out occasionally that comes into some degree 
of conflict of knowing exactly how to implement those, but that 
is the way the system works. There aren't magical silver 
bullets in the sky that you invoke to make it happen. We have 
to do it onsite in response to the DOE regulations and what 
will now become the NNSA part of those regulations.
    I think, as I said to the committee last year, we have, I 
think, done well in many aspects of security. I think there are 
two that I think are still very much works in progress. And I 
think the committee has covered one this morning very, very 
thoroughly, but let me mention the two I think--one that has 
come out of the hearing and one which several committee members 
have alluded to. And as I was listening to all the testimony 
this morning, I was struck again and again about details of 
vault access, details of document control. A whole variety of 
different things. And you do not want to go back to one thing. 
But whatever the set of events that created the set of actions 
taken in the early 1990's, which basically took accountability 
of documents out--off the table, I think almost everything else 
in dealing with the inside treatment of information has flowed 
from that. And in agreement, I think with Dr. Robinson and Dr. 
Browne, and I believe the Department, I think we do need to 
return to a system of full accountability for the documents 
inside the system.
    It is not as simple as just saying it. It is a major task. 
The interface with other agencies is complex. Contrary to some 
testimony, the Department of Defense does not have as close a 
security system in those documents as we had before the 1990's 
period. But I think we need to do that.
    The second thing--and I think Congressman Cox has made this 
point on a number of occasions, I think when you visited this 
you saw this, too--that technology has outstripped, in many 
cases, what I would call your intuition, and our intuition, 
about how to treat--how to protect great masses of concentrated 
information of high value. And I think that is something which 
is still a work in progress. I think all of us appreciate the 
supplemental money which has been, I think, added to help us 
this year now to work on that problem. But this is not a simple 
problem, because taking all of the documents we have, we can 
still put them in very small concentrations, and I think we 
need a different way of treating that information.
    Let me close by simply stating that I think there are two 
other comments. I think as with the other laboratories, in 
spite of the change in document control, we continue to treat 
Top Secret information differently. We have had that under 
almost a complete control, and I am confident that that 
information has been handled well over this period of time.
    Second, one of the first things that I did after I was 
informed of the Los Alamos incident was go through our NEST 
procedures. I would be happy to do that for the committee, but 
we found everything was where it was supposed to be. And I went 
through our procedures, and I believe they were quite adequate. 
But I would agree that I believe there should be a formality of 
operations complex-wide because as I learned, most of our 
particular NEST regulations were ones that were done by our own 
site. I think they were good ones, but I think it should be 
done uniformly across this system. Thank you very much.
    [The prepared statement of C. Bruce Tarter follows:]

  Prepared Statement of C. Bruce Tarter, Director, Lawrence Livermore 
             National Laboratory, University of California

                            OPENING REMARKS
    Mr. Chairman and members of the Committee, I am the Director of the 
Lawrence Livermore National Laboratory (LLNL). Our Laboratory was 
founded in 1952 as a nuclear weapons laboratory, and national security 
continues to be our central mission.
    The specific events that prompted these hearings are most 
regrettable. However, I welcome the opportunity to report to you the 
progress we are making to increase security at our Laboratory. My 
statements before this Committee during the past year provide a record 
of the many specific actions we have taken in this area. And, in 
January 2000, our Laboratory was visited by three members of the 
Subcommittee--Chairman Upton, Vice Chairman Burr, and Representative 
Cox--to see our security measures first hand and to discuss issues with 
senior managers as well as working nuclear weapons specialists in their 
workplace. We were very grateful for that opportunity. These prior 
interactions and my testimony today focus on three points:

<bullet> Progress. In December 1999, Livermore's security programs 
        received an overall Satisfactory (Green) rating from DOE's 
        Office of Independent Oversight and Performance Assurance. 
        Since the Los Alamos incident, we have been expeditiously 
        implementing enhanced protection measures--those directed by 
        DOE Secretary Richardson and those taken on our own initiative.
<bullet> Commitment. Our national security mission and safeguards and 
        security are inextricably linked, and we take both obligations 
        very seriously. I am ultimately accountable for the 
        Laboratory's performance and have made very clear to all 
        employees, who have been specially trained in security 
        measures, their individual and collective responsibilities.
<bullet> Challenges. An extensive security and counterintelligence 
        infrastructure is in place. However, we continually have to 
        adjust to new security threats and challenges, and those 
        arising from rapid changes in information technologies warrant 
        particular attention and investment.
            improvements to increase confidence in security
    A Satisfactory (Green) Security Performance Rating. Throughout 
1999, we worked expeditiously to address all issues that arose in self-
evaluations or resulted from the May 1999 inspection by the DOE Office 
of Independent Oversight and Performance Assurance. In particular, we 
took steps this past year to upgrade each leg of our security triad--
physical security, cyber security, and personnel security (including 
counterintelligence). Actions included steps to improve:

<bullet> The protection of Special Nuclear Materials (SNM), by 
        executing an action plan to analyze, document, performance 
        test, and enhance the Laboratory's comprehensive protection 
        strategy. We also made numerous physical and procedural 
        upgrades and increased the size of our Special Response Team.
<bullet> Procedures for Materials Control and Accountability, by 
        demonstrating the ability to consistently meet SNM measurement 
        and inventory requirements and resolve inventory differences in 
        a timely manner.
<bullet> The physical security and protection of classified matter, by 
        addressing performance issues in several of our vault-type 
        rooms (VTR), upgrading classified parts storage areas, 
        replacing non-GSA-approved repositories, and installing 
        additional barriers to segregate L-cleared employees from Q-
        clearance-only areas.
<bullet> Cyber security, by implementing scheduled steps in a Nine 
        Point Action Plan to better protect both unclassified and 
        classified computer systems. For example, the installation of a 
        firewall between the open and restricted portions of the 
        unclassified network has increased protection against outsider 
        threats. For the classified system, which is not connected to 
        the outside world except through NSA-approved encryption, steps 
        were taken to protect against ``insider'' threats: ensured 
        physical incompatibility of removable media between classified 
        and unclassified systems, logged access to centralized weapons 
        data bases, rigorous new procedures for the transfer of 
        unclassified data from classified computers, and additional 
        internal firewalls to enforce stringent need-to-know 
        separations.
<bullet> Counterintelligence, by adding staff to a Counterintelligence 
        Program at Livermore that was established in 1986 and has been 
        well integrated into the U.S. counterintelligence community for 
        many years. Polygraph testing of identified classes of 
        employees has also begun and we are committed to completing the 
        necessary testing.
<bullet> Employee security awareness and training, through a 
        comprehensive security awareness program that exceeds DOE 
        mandatory requirements. In addition, all Laboratory staff 
        participated in two two-day stand-downs of activity in 1999 for 
        intensive training and to review their individual and 
        collective responsibilities.
    As an outgrowth of these efforts, we received an overall 
Satisfactory (Green) rating from the Office of Independent Oversight 
and Performance Assurance in their Follow-up Inspection in December 
1999. We continue to make upgrades to strengthen all aspects of 
security, address identified issues--such as those that arose because 
of the Los Alamos incident--and deal with any perceived weaknesses.
    LLNL Actions Following the Los Alamos Incident. Lawrence Livermore 
personnel also support emergency response activities such as the 
Nuclear Emergency Search Team (NEST). In conjunction with this 
responsibility, the Laboratory has classified hard drives and computers 
that are taken to the field to complete assignments as requested by 
DOE. Livermore officials were made aware of the security incident at 
Los Alamos as soon as their top management was informed. We conducted 
our own, parallel review at Livermore to assure that our emergency-
response assets had not been compromised. All NEST data stored at the 
Laboratory was and is accounted for.
    Beyond NEST, the incident raised broader issues about access to 
vaults and portable, highly-concentrated collections of sensitive data 
at Livermore. A working group was immediately chartered to review the 
Laboratory's classified data holdings, identify the locations of 
especially sensitive and portable collections of high concentrations of 
data, and recommend appropriate procedures to provide additional 
protection. This review has been completed and found that we were 
compliant with DOE requirements. Nonetheless, enhanced chain-of-custody 
controls and access procedures have been implemented at the identified 
locations.
    Access control to vaults and vault-type rooms (VTR) at the 
Laboratory is managed in accordance with current DOE requirements. An 
access control list is maintained for each, and an area custodian uses 
the list to determine who may enter without an escort. We are upgrading 
our vault-access verification procedures in accordance with the 
Enhanced Protection Measures directed by DOE Secretary Richardson on 19 
June 2000. In addition, the Laboratory has instituted a working group 
to address the effectiveness of our vault and VTR operations and 
management. They are in the process of identifying additional 
protection measures beyond those required by DOE that can further 
enhance security.
    A Review of Classified Matter Protection and Control Procedures. 
Following the Los Alamos incident, the DOE Office of Independent 
Oversight and Performance Assurance conducted a review of the 
effectiveness of Classified Matter Protection and Control (CMPC) 
procedures at the Laboratory. The review focused on the protection of 
the most sensitive classified assets--weapons design information and 
use control information--within the Defense and Nuclear Technologies 
Directorate and Top Secret information. Key aspects of protection, 
including information generation, storage, marking, destruction, and 
control of access, were examined. Particular attention was devoted to 
the role of Laboratory management in ensuring that DOE policies related 
to control of classified matter are established and implemented.
    The review was conducted from June 19 through June 21, 2000, and 
the results--as summarized in the draft report--were satisfactory. 
Particular mention is made of strong management attention to issues, 
including a proactive approach to emerging needs to enhance protection, 
attention to training programs, inclusion of security considerations in 
personnel performance evaluations, and pursuit of an enhanced security 
self-assessment program.

                AN INSTITUTIONAL COMMITMENT TO SECURITY
    Security and Science. Security and science are both central to 
Livermore's purpose and its operations. They are tightly coupled in our 
programmatic activities, and we are deeply committed to both. Through 
the Stockpile Stewardship Program, we further national security by 
applying advances in science and technology to maintain the nation's 
nuclear stockpile in the absence of nuclear testing. With less than 2% 
of the world's research and development being conducted at DOE national 
laboratories, many of the scientific advances that we adapt and apply 
to national security problems are made elsewhere. Hence, we interact 
with the broad science and technology community to be cognizant of 
major advances and to acquire needed special expertise. We also engage 
foreign nationals as part of our national security mission through 
participation in international efforts to prevent the spread of nuclear 
weapons, materials, and know-how.
    Accomplishing our mission depends critically on these external 
interactions, and we must manage them in a way that protects sensitive 
information. It is a challenge, but not the ``clash of cultures'' that 
is so often portrayed. Since the Laboratory's founding, both security 
and science have been central to our ``culture.'' The staff at 
Livermore take great pride in their scientific and technical 
accomplishments. They are also attracted to the Laboratory and are 
motivated by the opportunity to serve the nation. Few groups of people 
in the world are more painfully aware than Livermore employees what the 
loss of nuclear weapons secrets means to the security of the nation. 
Few groups are more concerned about the impact of the diffusion of 
information on proliferation. Few have been more at the forefront of 
initiatives to limit the spread of weapons of mass destruction and to 
develop capabilities to prepare the nation to deal with the threat of 
their use.
    Security is not just our business, it is part of the way we 
operate, but so are outside technical interactions. Security and 
science are not incompatible objectives, but they require threat 
awareness, proper training, and vigilance.
    Security Awareness and Training. As I have said, I am ultimately 
accountable for the Laboratory's security performance, and our success 
depends on the vigilance of everyone--from senior managers to 
individual employees. Increased vigilance is evidenced by a three-fold 
reduction in the number of security infractions that have occurred over 
the past year. All Livermore workers are aware of the ``zero 
tolerance'' policy for security violations that place nuclear secrets 
at risk. They rely on a comprehensive Safeguards and Security Awareness 
Program at the Laboratory to understand their responsibilities, proper 
procedures, and best practices. In addition to a series of DOE 
mandatory briefings--many of which are annual requirements--the 
Laboratory offers nearly a dozen additional programs, some of which 
train people for specialized security responsibilities. Each year, all 
employees are required to complete security refresher training, and 
those that do not or fail the follow-on test have their clearance 
suspended or lose it.
    As an example of training, regardless of previous assignment, 
employees joining the Defense and Nuclear Technologies Directorate are 
required to be thoroughly instructed as to their responsibility for 
protecting classified matter as well as specific procedures used within 
the program to generate, use, store, transmit, and destroy classified 
material. Significant additional training is required for classified-
document administrative specialists and custodians.
    Laboratory-Wide Implementation of Security into Day-to-Day 
Activities. Our institutional commitment to security is reflected in 
the way that we centralize authority for key functions while 
distributing responsibilities for execution. For example, we 
established in 1991 a Classified Document Project Office (CDPO) to 
provide Laboratory-wide programmatic direction and oversight of 
classified document protection and control. Interfacing with all levels 
of Laboratory management, the CDPO ensures development of protection 
and control procedures, develops and implements training activities, 
performs self-assessments, and manages the Livermore Administrative 
Document System (LADS). LADS is a centralized computer system that 
provides modified accountability (tracking access to material rather 
than specific pieces of paper) for all classified documents at the 
Laboratory except those that are in Special Access Programs or are in 
Sensitive Compartmented Information Facilities, which have additional 
restrictive controls.
    In the area of cyber security, the Laboratory has a Chief 
Information Officer (CIO). The CIO leads a Laboratory-wide Computer 
Security Council that reviews the Computer Security Program and 
approves computer security policies. Program products include policies 
and guidelines that locally implement DOE's Computer and 
Telecommunications Security Orders, templates to assist the development 
of system-specific security plans, and checklists and testing 
guidelines to support certification of classified computer systems. In 
addition, an individual in each directorate serves as the central point 
of contact for cyber security. These Directorate Cyber Security 
Officers, who meet regularly with the Computer Security Program, 
oversee and ensure uniformity of Cyber and Telecommunications Security 
implementation. This system of Cyber Security Officers has been in 
place for the last six years.
    University of California Actions to Enhance Security. As the 
Laboratory has developed and continues to develop plans for and 
implemented changes to enhance confidence in security, we depend on 
outside review to help surface the best ideas and provide quality 
assurance. We have benefited considerably from the efforts of the 
University of California Office of the President. In addition to hiring 
a security expert, retired Air Force Colonel Terry Owens, to serve as 
UC Director for Safeguards and Security, the University formed a 
Laboratory Security Panel of the UC President's Council. It was able to 
attract highly respected counterintelligence and security experts to 
participate. The panel, chaired by retired Rear Admiral Thomas A. 
Brooks III, is helping us to identify potential security weaknesses and 
develop improvements. Just last April the panel conducted a high-level 
review of our computer security program.
    The University's commitment to work with the DOE to improve 
security at the two laboratories is further demonstrated by the 
specific actions UC has taken since the Los Alamos incident. In 
addition, since early this year, UC and representatives from the 
laboratories have been pursuing an initiative to develop and implement 
an Integrated Safeguards and Security Management System (ISSM) at both 
Livermore and Los Alamos national laboratories. This system, when in 
operation, will fully integrate security awareness, the principles of 
sound security practices, and the needed tools into the day-to-day 
performance of individuals and institutional activities.

          CHALLENGES IN THE CONTROL OF CLASSIFIED INFORMATION
    Accountability of Classified Materials. Accountability requirements 
for classified restricted data documents go back to the days of the 
Atomic Energy Commission. At first, these requirements included 
tracking and keeping precise inventory of specific pieces of paper by 
document and copy number. As copying machines multiplied the number of 
documents and copies, the inventory requirement was dropped in the late 
1970's and then reinstated in the late 1980's. With changing missions 
and decreasing budgets, DOE aligned with the requirements of the NISPOM 
(National Industrial Security Program Operating Manual) and moved away 
from full accountability in 1992. Basically, it was concluded total 
accountability does not necessarily translate into total control and 
effective protection of the material in an age of copying machines and 
FAX machines. An unfortunate consequence of the change is that it 
created an overall environment in which the formality of handling 
classified information has been reduced.
    In some areas--the handling of Top Secret documents and Sigma 14 
and 15 weapons data--Livermore has continued to follow more stringent 
than DOE-required control procedures. Greater accountability and 
control of such materials system-wide may be warranted. Major concerns 
also arise because of the revolutionary changes that have occurred in 
information technologies. Accountability of pieces of paper is a far 
different issue than accountability of hard drives that can hold 
Gigabytes of data, roughly a thousand times more than the main memory 
of the Cray-1 computer, the Laboratory's most capable machine in the 
late 1970s. As recent events make it very clear, we need to enhance 
controls over and the accountability of portable, highly-concentrated 
collections of sensitive data. We are taking steps to do so.
    The Need for Investments. Security upgrades do not come without 
cost. For example, at Livermore, resources devoted to our Computer 
Security Program increased from $1.3 million two years ago to $18.4 
million this year. To implement the cyber security upgrades that we are 
expected to complete over the coming year without seriously eroding 
programmatic work, additional funds--beyond what was in the President's 
budget request--are needed. This is a DOE Defense Programs complex-wide 
issue that merits serious attention. Adequate funding must be 
complemented by a consistent set of policies and thoroughly vetted 
planning to make certain that costs and benefits are carefully weighed 
as we deliberate about new directives and revised procedures.

                            CLOSING REMARKS
    I appreciate the opportunity to address the Committee on our 
efforts to increase security at our Laboratory and to enhance the 
control of classified information based on the painful lessons learned 
from the recent security incident at Los Alamos. As I have stressed, 
secure operations are vitally important to Livermore--they underpin all 
our research and development activities and protect some of our 
nation's most closely held secrets. We continue to upgrade physical 
security, cyber security, and our counterintelligence program to 
strengthen these areas, address new threats and concerns, and deal with 
any perceived weaknesses. Our efforts are made more challenging by 
rapid changes in information technologies and would benefit from an 
infusion of new investments--particularly directed at cyber security.

    Mr. Upton. Mr. Aftergood.

                  STATEMENT OF STEVEN AFTERGOOD

    Mr. Aftergood. Thank you, Mr. Chairman. Thank you for 
holding this hearing. We have been talking not about security 
as much as about the rules for security. And I think that is an 
important distinction that has gotten lost.
    GAO presented a list of rules that have been modified over 
the past 10 years in the direction of relaxing security. They 
did not ask whether those rules, in their prior form, had 
actually been implemented. I provide some evidence in my 
written statement that such rules were not implemented, in 
particular, annual inventories and others.
    A deeper question is whether the rules were tighter or not 
and whether they were implemented or not? Was security better 
or not? An investigation done in 1990 found that there were 
over 5,000 Secret restricted data documents that were missing 
and unaccounted for. It is at least a logical possibility that 
security is better today, not worse, than it was 10 years ago. 
And because we have been focusing on the rules and not the 
reality of security, we are missing that important possibility.
    Let me just skip very quickly. Dr. Robinson mentioned a few 
words critical of the declassification program of the 1990's. I 
would like to suggest to you that declassification is not a 
problem, but it is part of the solution. It is how we take this 
vast mass of classified information and turn it into a 
tractable management problem. We are always adding stuff to the 
mountain of classified material. It is important that we have 
an orderly process to remove information control.
    Congressman Cox spoke about the polygraph tests, the 
scientists wearing buttons. I would suggest to you that the 
scientists are well within their rights. Polygraph has not been 
proven as a useful device for employee screening. There is some 
data that the polygraph is useful for incident-specific 
investigations. In other words, to investigate a particular 
security violation. There is no documentation to support 
polygraph testing for employee screening.
    You may recall that Secretary of State George Schulz 
famously threatened to resign during the Reagan administration 
rather than undergo polygraph testing. It wasn't because he was 
a scientist or indifferent to national security, but because 
the polygraph is a problematic and dubious technology.
    Last, I would just like to stress the point about balance. 
Balance is not a word that has been mentioned much today, I 
think until Dr. Browne mentioned it. It is a mistake, I 
believe, to look at security in isolation. Security is part of 
a larger picture. The larger picture is the health and vitality 
of our national laboratories. And whenever we think about 
changes to security, we should ask at least two questions: What 
would those changes cost financially, and more important, what 
will their impact be on the viability of the laboratories?
    You know, the Department of Defense has research 
laboratories also, and we do not hear any complaints about 
security there. The problem is we do not hear anything good 
about them either. Army General William Odom, many of you know 
I am sure, has actually called for the DOD research labs to be 
abolished. He said they haven't invented anything of value for 
years and years. That should not be our goal for the DOE 
national laboratories. Security is an important part of the 
picture, but it is only a part. And we should always think 
about the larger picture. Thank you very much.
    [The prepared statement of Steven Aftergood follows:]

   Prepared Statement of Steven Aftergood, Senior Research Analyst, 
                   Federation of American Scientists

    My name is Steven Aftergood and I am a senior research analyst at 
the Federation of American Scientists (FAS), which was founded in 1945 
(as the Federation of Atomic Scientists) by Manhattan Project 
scientists at Los Alamos. FAS performs policy research and advocacy on 
a range of national security policy issues, with an emphasis on nuclear 
arms control. I direct the FAS Project on Government Secrecy, which 
studies government secrecy and information security policies, and 
generally advocates a reduction in the scope of the national security 
classification system. As required by Committee rules, I hereby state 
that neither I nor FAS has received any federal grants or contracts 
that are relevant to the subject of this hearing during the current 
fiscal year or the two preceding fiscal years.

                     BALANCING COMPETING INTERESTS
    The basic conundrum for information security policy is how to 
balance security with other competing interests such as cost and 
mission performance. Security is ``too good'' if it precludes or 
significantly interferes with achievement of program goals. And since 
funding resources are finite, there are practical limits to security in 
any case.
    It is necessary to accept the fact that there can be no absolute 
security. The best one can aim for is to manage the security risks, 
keeping them to a reasonable minimum, while optimizing mission 
performance and limiting costs.
    The proper balance is not obvious, because it depends on multiple 
considerations, including threat level, resource availability, and 
other factors, all of which may change over time. In practice, a 
different balance has been proposed at different times over the last 
decade. Some benchmarks of shifting security policy positions, as they 
apply to document ``accountability'' and classification, follow.
a. The 1990 Freeze Report: Thousands of Unaccounted-For Secret 
        Documents
    In 1990, DOE conducted a major review of security policy, which 
raised many of the same issues of accountability for classified 
documents that have recently surfaced. The Report of the Secretary's 
Safeguards and Security Task Force, chaired by Major General James F. 
Freeze, USA(ret.), noted that DOE document accountability requirements 
had come and gone and come again:
          Historically, the Department had not required Secret document 
        inventories except for weapons data, and the Task Force was 
        advised that requirement had been dropped ``in the early 1970's 
        for cost benefit reasons.'' However, weaknesses in the 
        accountability for Secret documents were identified by a 
        Classified Document Control Action Team in late 1986. 
        Therefore, the requirement to conduct an ``initial inventory'' 
        of Secret documents was included [for both Department elements 
        and contractors] . . .
    This new Secret document inventory requirement was not fully 
implemented. Even so, a partial inventory revealed that thousands of 
Secret documents were accounted for:
          Failure to complete the required complex-wide 100% inventory 
        of Secret documents on a timely basis has resulted in an 
        unsatisfactory condition . . . The estimated number of Secret 
        documents throughout the complex was 6,165,969. The number of 
        documents inventories at that time [October 1989] totaled 
        3,299,936, and there were 5,716 unreconciled or unaccounted for 
        documents.
    Interestingly, control of Top Secret documents was found to be 
satisfactory. No Top Secret documents were unaccounted for.\1\
---------------------------------------------------------------------------
    \1\ Report of the Secretary's Safeguards and Security Task Force 
(the ``Freeze Report''), December 1990, pp. 17, 70-71, emphasis added.
---------------------------------------------------------------------------
b. National Industrial Security Program Eliminates Secret 
        Accountability
    The National Industrial Security Program arose in response to 
President Bush's National Security Review 25 (4 April 1990). It was an 
attempt to develop uniform security policies for government contractors 
in the interests of cost efficiency. As President Bush put it: ``The 
development of a single, coherent and integrated industrial security 
program should be explored to determine the extent of cost savings for 
industry and government while improving protection of our national 
security interests.''
    In the early post-cold war days, cost savings were given higher 
priority than improved protection, and requirements for Secret document 
accountability at contractor facilities were soon dispensed with. 
(Secret document accountability within most government agencies had 
been abandoned decades earlier.)
    A DOE security official articulated DOE's opposition to document 
accountability at a 1993 meeting of the NISP steering committee:\2\
---------------------------------------------------------------------------
    \2\ Minutes of the NISP Steering Committee Meeting of 20 July 1993 
(unpublished).
---------------------------------------------------------------------------
          Ed McCallum, DOE, advised that DOE does not concur with 
        retention of SECRET accountability, stating that it is very 
        expensive to account for SECRET when such a security 
        requirement can so easily be circumvented. Moreover, Ed stated 
        that in his opinion, such a security requirement dictates that 
        an inspector spends a good portion of their time in an 
        inspection ``chasing paper,'' rather than concentrating on the 
        real security vulnerabilities at the facility.
    The Central Intelligence Agency representative at the meeting also 
expressed opposition to accountability for Secret documents. The 
Defense Department favored accountability, but ``with a more 
liberalized approach to the administrative methodology employed by the 
contractor.'' Ultimately, a requirement for Secret accountability was 
eliminated government-wide by the National Industrial Security Program 
Operating Manual, published in 1995.
c. The Higher Fences Initiative: Increased Classification for the Most 
        Sensitive Information
    In 1993, then-Energy Secretary Hazel O'Leary established a 
``Fundamental Classification Policy Review'' (FCPR), a comprehensive 
review of all DOE classification policies that was intended ``to 
determine which information must continue to be protected and which no 
longer requires protection and should be made available to the 
public.'' It was endorsed by Congress in the conference report on the 
FY 1994 Energy and Water Appropriations Act. This was the first 
comprehensive review of DOE classification in fifty years, and was 
conducted by government scientists from DOE and DoD. To my knowledge, 
no other government agency has undertaken a comparable review of its 
own classification policies.
    Along with numerous recommendations for declassification, the 
Review also include a call for increased classification of 137 
categories of certain highly sensitive nuclear weapons information.\3\ 
This recommendation became known as the Higher Fences Initiative, since 
it envisioned higher, Top Secret security ``fences'' around a small, 
select subset of very sensitive information. [It may be noted that any 
such upgrade to Top Secret would entail document accountability for the 
affected information, among other increased protections.]
---------------------------------------------------------------------------
    \3\ Report of the Fundamental Classification Policy Review Group, 
Dr. Albert Narath, Chair, unclassified version, December 1997, page 26. 
An initial draft report was published for public comment on February 1, 
1996.
---------------------------------------------------------------------------
    Contrary to some erroneous news reports, the recommendations of the 
FCPR were accepted by Secretary O'Leary and formed the basis for 
ongoing negotiations with the Department of Defense beginning in 1997. 
However, the proposal to upgrade certain Secret information to Top 
Secret was rebuffed by DoD for cost reasons, even after DOE had 
significantly shortened the recommended list of 137 topics. DoD 
explained its opposition to Higher Fences in a 1999 letter:\4\
---------------------------------------------------------------------------
    \4\ Letter to General Eugene E. Habiger, Director, Office of 
Security and Emergency Operations, U.S. Department of Energy, from Hans 
Mark, DDRE and Arthur Money, ASD(C3I), Office of the Secretary of 
Defense, December 17, 1999.
---------------------------------------------------------------------------
          Even working with this significantly shortened list, we 
        anticipate that the costs of implementing such a program would 
        be substantial. They would extend to such requirements as the 
        upgrade of clearances with Single-Scope Background 
        Investigations, the establishment or addition of TOP SECRET 
        storage facilities at government and contractor facilities, the 
        sanitization of SECRET-level computers and computer networks 
        where this information currently resides and institution of new 
        TS-level capabilities, etc . . .
          In addition to purely financial considerations, the DoD is 
        concerned that there may also be operational costs. For 
        example, the ability to respond to urgent stockpile problems 
        may be inhibited if it should happen that the necessary 
        responders are not cleared at the appropriate level . . .
    This DoD assessment provides a vivid illustration of how security 
professionals may balance the competing interests of security, cost, 
and ease of operational use in different ways. Neither DOE nor DoD is 
obviously wrong, nor is either agency clearly derelict or oblivious to 
security. They have simply reached different, and conflicting, 
professional judgments.
    (It should be noted in passing that DOE's Secret-Restricted Data 
[SRD] category is comparable in some respects to ``ordinary'' [i.e. 
non-Restricted Data] Top Secret elsewhere in the government. So, for 
example, the ``Q'' clearance required for access to SRD is 
approximately as rigorous as the Top Secret clearance. For that reason, 
DOE relies heavily on SRD and has rarely used the classification 
category ``Top Secret Restricted Data,'' which entails security 
measures beyond those required for ordinary Top Secret elsewhere in the 
government. The 1990 Freeze Report found that there were no more than 
3,451 Top Secret documents throughout the entire DOE complex, a 
comparatively minuscule number.)

                 DECLASSIFICATION AS A SECURITY MEASURE
    Neither the declassification measures nor the classification 
upgrades recommended by the Fundamental Classification Policy Review 
have been fully implemented by the Department of Energy. Both aspects 
of the Higher Fences Initiative deserve continued consideration.
    Since the need for increased protection may seem obvious at the 
moment, I would like to stress the equal importance of relaxing 
protection in areas of lower sensitivity, i.e. declassification.
    There is a tendency among some to believe that greater secrecy 
translates directly into greater security, and that declassification 
means increased vulnerability. This is not so.
    Declassification is an indispensable component of a rational 
information security program. Removing information that is obsolete or 
no longer sensitive from security controls through declassification 
keeps security focused where it is most needed. It also preserves the 
credibility of classification, which can otherwise become simply a 
bureaucratic habit, instead of a vital instrument of national security. 
Any information security reform program that does not provide for 
appropriate declassification is incomplete.

                     NUCLEAR SECRECY IN PERSPECTIVE
    The Department of Energy should make every reasonable effort to 
ensure the protection of sensitive nuclear weapons information. But no 
more than a reasonable effort. The limits of what information security 
can achieve should be understood by everyone concerned so that 
responsible security policies can be formulated and implemented.
    In the first place, it should be obvious that information is only 
one ingredient in nuclear proliferation, and it is not the most 
important one. No nation or sub-national group can use classified 
information to build a bomb unless it also has access to sufficient 
quantities of suitable nuclear material, and an engineering and 
manufacturing infrastructure to produce the bomb. But if it has the 
latter two items--the nuclear material and the engineering capacity--
then it can dispense with classified information.
    Thus, ``Access to classified information is not necessary for a 
potential proliferator to construct a nuclear weapon,'' according to a 
1995 report of the National Academy of Sciences.\5\ This is partly due 
to the fact that much information about nuclear weapons design has been 
declassified since 1945, and partly due to the fact that such 
information, classified or not, can be independently replicated.
---------------------------------------------------------------------------
    \5\ ``A Review of the Department of Energy Classification Policy 
and Practice,'' National Academy Press, 1995, p. 19.
---------------------------------------------------------------------------
    Fundamentally, it is not within the power of any classification 
system or any information security policy to prevent the proliferation 
of nuclear weapons. The most that classification of scientific or 
technological information can generally accomplish is to delay the 
independent achievement of any particular scientific discovery or 
technological feat. But discovery or duplication cannot be prevented.
    Thus, according to a DOE report, ``The considerable progress of 
Iraq toward becoming a nuclear power was largely independent of U.S. 
classification policy.'' \6\
---------------------------------------------------------------------------
    \6\ ``Classification Policy Study,'' prepared for the Department of 
Energy by Meridian Corporation, July 4, 1992, p. 35.
---------------------------------------------------------------------------
    Finally, everyone should understand that the number of nuclear 
weapons secrets is diminishing and will, in time, approach zero. The 
``economics'' of nuclear secrecy favor disclosure, not continued 
secrecy: Secrets that took hundreds of person-years and billions of 
dollars to invent can be disclosed by a single individual and 
disseminated around the world in an instant at no cost--whether through 
official declassification, independent discovery, foreign disclosure, 
espionage, malice, dissent, or error. In short, it is far easier to 
disclose nuclear secrets than to create them. And unlike the secrets of 
diplomacy or intelligence, nuclear secrets are not replenished on a 
daily basis. There aren't many fundamentally new ones being created. As 
a result, we must anticipate that, whether in five years or twenty-five 
years, there will be no appreciable nuclear secrets left to protect. 
Some would say we are there already.

                       CONCLUSION: ENDS AND MEANS
    Information security is a means to a larger end, and is not an end 
in itself. The frustration generated by recurring security failures at 
the weapons labs tends to obscure this distinction. So, for example, a 
proposal recently offered in the Senate would ``short-circuit'' the 
necessary balancing of security, costs, and mission performance 
discussed above by simply declaring that ``the protection of sensitive 
and classified information'' should be ``the highest priority of the 
National Nuclear Security Administration.'' \7\ But in the real world, 
the NNSA must have higher priorities than protecting information. 
Sometimes, one or more of its mission priorities--including the 
promotion of international nuclear reactor safety and nonproliferation, 
for example--will require the sharing or disclosure of classified 
information, not its protection.
---------------------------------------------------------------------------
    \7\ ``Implementation of Security Reforms at the Department of 
Energy,'' a sense of the Senate resolution introduced by Senators Kyl 
and Domenici, June 21, 2000, Congressional Record, pp. S5573-4.
---------------------------------------------------------------------------
    The biggest risk of all concerns the institutional health of the 
DOE national laboratories. Whether one is committed to stockpile 
stewardship, to deep cuts in the U.S. nuclear arsenal, or to 
dismantlement and eventual abolition of nuclear weapons, the 
availability of a cadre of skilled nuclear weapons professionals is a 
prerequisite for the foreseeable future. These professionals are 
becoming an endangered species, and the laboratories are becoming a 
deeply unattractive place to work.
    Whatever the defects of current security policy, and whatever 
reforms are ultimately determined to be necessary, the viability of the 
national laboratories is an even larger and more important issue. The 
labs should not be sacrificed in the name of an unachievable absolute 
security.

    Mr. Upton. Thank you very much as well.
    We will now proceed to rounds of questions like we did with 
the first panel of 5 minutes for each member.
    Lab directors, Drs. Robinson, Browne and Tarter, what 
authority did you have as individuals in terms of overseeing 
the NEST security at your particular labs?
    Dr. Robinson? We will start and go in order. Do you have a 
direct chain-of-command link in overseeing in terms of what 
they did in security?
    Mr. Robinson. Certainly all the activities conducted on my 
site, I am directly responsible for including the security and 
the operations.
    When the NEST team is deployed to the field, they must 
operate under the rules of the particular site. We, thank God, 
have mostly deployed them for exercises at other sites, rather 
than actual threat conditions. They operate under the site 
rules at that site under those conditions.
    Mr. Upton. Dr. Browne?
    Mr. Browne. My answer would be very similar. I am 
responsible for all activities at the laboratory. I think in 
the case of this particular NEST program at our laboratory, I 
did uncover some issues that I believe could have contributed 
to the particular incident. One of those was that in looking at 
the security plans that were in place, they are pretty explicit 
that people are supposed to take care of the information, 
according to DOE Secret restricted data rules.
    What was missing for me personally was that there was no 
cross-cutting NEST security plan. There were pieces of security 
plans. There was computer security plans, et cetera. There was 
no signature on those computer security plans or other security 
plans of any line manager of my laboratory. That is not typical 
of how we would run a program. Someone in line management who 
is responsible for the people, the facilities, would be in the 
chain of command for ensuring that the practices of the 
activities of the people were being actually followed. So I 
think that may have been a shortfall.
    Mr. Upton. You did not know about those shortcomings until 
it was discovered that the two hard drives were missing?
    Mr. Browne. That is correct.
    Mr. Upton. Dr. Tarter.
    Mr. Tarter. Again, a very similar answer on our site. I am 
responsible. We are responsible for the security process. I 
think our NEST program people had a set of procedures, both for 
having personnel within the program, for having them vetted for 
the program, for having the spectacular security things that we 
implemented on the site. On-site, of course, they are under the 
direction and the rules of whatever site they do their work 
within.
    Mr. Upton. Can you also tell me the differences in 
functions, if there are any, between the NEST teams at each 
particular lab?
    Mr. Robinson. Let me go first. I think ours are the most 
unique. Sandia's responsibility concentrates on the arming 
devices, the electronics and how one might overcome those, 
rather than the nuclear design. Consequently, we had no 
analogous cores for NEST in any of our vaults.
    Mr. Browne. We have several functions in the NEST program. 
One is a group of people who are very good at measuring 
radiation so that one can detect the presence of nuclear 
devices and determine what might be there. There are also some 
people who are good about analyzing how one might--not disarm 
but disable a device. And the third party is the device 
assessment team. That was the team that was involved in the X 
Division incident in the loss of the hard drives.
    Those are the people that one would turn to to evaluate if 
you found an unknown object in the field--what it was.
    Mr. Tarter. Essentially identical with Los Alamos.
    Mr. Upton. General McBroom, what type of relationship did 
you have in establishing the security of the NEST team? And 
specifically, why--you know, again, I mentioned this in the 
first panel, I would--it would seem to me that there is no 
data--there is no data more important than what was on those 
hard drives that were missing and how in the world could it 
possibly be classified as Secret versus Top Secret?
    Mr. McBroom. Yes, sir, I not do classification, although I 
am going to take a course in it so that I can do it in the 
future. I would like to make those calls. We are looking at an 
equipment guide that we are going to put out pretty soon, which 
will classify all the equipment which we deal with in NEST. But 
I really can't address the equipment on the hard drive. Those 
are classified at the site and primarily with the scientists 
and with the security people.
    Mr. Upton. And to answer the second part of the question, 
what type of oversight did you have working with the lab 
directors to try and ensure----
    Mr. McBroom. Oversight at the lab is lab daily business. 
They may have 40 different programs or 50 different programs 
going on there. They can't have 50 different people trying to 
manage everything. There is a comprehensive lab program that 
manages all equipment, all security; they do the training, they 
do everything at the lab. Now, when they deploy to the field, 
then we provide some oversight, but they still use the 
procedures from the site.
    Mr. Upton. So did you feel removed then from the security 
aspect of the material that they use?
    Mr. McBroom. Well, to some degree, because my focus is 
emergency management. My title is director of emergency 
operations, so what I do is handle an emergency. In handling 
that emergency, I look at security, safety, all of these things 
as normal course of business. But that is not my focus. I am 
more worried right now about Los Alamos floods than I am 
anything else.
    Mr. Upton. How about their fire?
    Mr. McBroom. I was worried about that when it happened, 
sir. Now it's all burned up and it is not going to be a 
problem.
    Mr. Upton. Mr. Stupak.
    Mr. Stupak. Well, it will be a problem with flooding 
because of the pollution that is there, and it is going to 
affect the river and the streams and everything else around 
there, correct.
    Mr. McBroom. It could be a big problem. I am heading out 
there next week.
    Mr. Stupak. General Habiger, you indicated that you were 
going to provide a time line. You had those minimum controls up 
there and you said you wanted to show how DOE developed though 
time lines, you could provide a time line?
    Mr. Habiger. That was my request of GAO. If GAO were to go 
look across the government, you would see that we lagged the 
rest of the government.
    Mr. Stupak. By ``rest of the government,'' NSA, CIA? Labs?
    Mr. Habiger. State, Defense, yes, sir.
    Mr. Stupak. Because we are all under this one national 
security standard that came up in 1988, 1990 I think it was 
implemented?
    Mr. Habiger. Yes, sir.
    Mr. Stupak. So that was the impetus for these minimum 
controls?
    Mr. Habiger. Yes.
    Mr. Stupak. Regardless--I will direct this to the lab 
directors--regardless of what minimum controls at the labs may 
be under, there is no reason to lose documents or hard drives, 
is there? That does not fall under some minimum control saying 
that it is okay to lose these; right?
    Mr. Robinson. Of course not.
    Mr. Stupak. Okay. So we can't blame these time lines or 
minimum controls for what happened?
    Mr. Browne. Correct.
    Mr. Stupak. Were the labs--excuse me, the University of 
California, were they involved in this one national security 
standard? Do any of you gentlemen know that?
    Mr. Browne. In setting the standards? Not to my knowledge, 
I don't believe they were involved at all.
    Mr. Stupak. Okay.
    Dr. Browne, how long is a contract usually?
    Mr. Browne. It is a 5-year contract.
    Mr. Stupak. So the earlier testimony about the Secretary, 
average lifetime of a Department of Energy Secretary being less 
than 2 years, that wouldn't impact your contract in any way, 
would it?
    Mr. Browne. Well, the contractual relationship is usually 
handled by more than just the Secretary. There are people in 
the Department who have the continuity between various 
contracts.
    Mr. Stupak. So the change in Secretary really doesn't 
affect the continuity of that?
    Mr. Browne. Not directly. It can, I guess, depending on the 
Secretary's personal interest.
    Mr. Stupak. And the University of California, if my memory 
serves me right, has had these contracts for the last 50 years; 
correct?
    Mr. Browne. That is correct. 47 years at Los Alamos.
    Mr. Tarter. 48 years.
    Mr. Browne. 57 at Los Alamos. Excuse me.
    Mr. Stupak. In those contracts it talks about security, do 
they not?
    Mr. Browne. The most recent contracts that I have looked at 
which date back to 1992, it is explicitly called out in the 
contract.
    Mr. Stupak. For security?
    Mr. Browne. That's correct.
    Mr. Stupak. So if there's been a problem with security, we 
can't blame DOE, we can't blame U of C, we have security 
responsibilities that we all have to adhere to; correct?
    Mr. Browne. That's my opinion. We all must share 
responsibility for security.
    Mr. Stupak. Well, in the short time that I have been on 
this subcommittee now, 6 years, it seems like we are always 
back here talking about security at labs. So we just can't 
blame DOE, the labs have to share some responsibility here too.
    Mr. Browne. Absolutely.
    Mr. Stupak. Okay. And if the hard drives were missing at 
the end of March, it would appear that they were not lost in 
the confusion of the fire then at Los Alamos.
    Mr. Browne. That's correct. I don't think you can blame 
this incident on the fire.
    Mr. Stupak. Okay. Mr. Glauthier, in June, I and six other 
members of this subcommittee asked the Secretary to terminate 
the contract with the University of California for the Los 
Alamos Laboratory because of its repeated security and other 
violations, and, frankly, its refusal to take responsibility 
for or to fix the problems. This contract has never been up for 
bid. I think we have established today it's 47, 48 years. But 
from your testimony it sounds like the Department is going to 
make some cosmetic changes and let UC continue on. Am I reading 
it properly?
    Mr. Glauthier. No, we believe that this is a significant 
change. The current contract at Los Alamos I think is 57 years, 
the director said. And what we are going to do now is a change. 
For the first time, we are going to have another firm be 
responsible for the security and probably some of the other 
industrial-type practices at the site.
    I do want to be clear, though, that that is not to relieve 
the university or any of the laboratory employees from their 
responsibility to also take the proper care of secure 
information, classified information and materials and the like. 
But the practices of who is inspecting the vaults, who is 
actually being sure that the procedures are being carried out 
properly----
    Mr. Stupak. But if you are going to have a separate firm or 
separate entity be involved with security operations, which UC 
does not control or is responsible for, it sounds like it's 
just really another disaster waiting to happen. How is this new 
firm, entity, going to really carry out the mandates of the 
Department or what Secretary Richardson wants and what GAO 
pointed out? It seems like there is an atmosphere within these 
labs that just doesn't do it. How is another entity going to 
fix that?
    Mr. Glauthier. Well, the atmosphere is necessary to deal 
with no matter how security is done. What we are talking about 
with this firm is some organization to actually have a targeted 
responsibility to see that the requirements are sensible, 
appropriate ones at the site, follow through, make sure they 
are being implemented. We talked earlier about implementation. 
We need to see that they are actually being carried out. There 
are several models and the Secretary----
    Mr. Stupak. Who is going to carry them out, this new firm 
or UC?
    Mr. Glauthier. The responsibility for actually performing 
security is going to be one that individual scientists will 
have to have. For example----
    Mr. Stupak. So University of California, then?
    Mr. Glauthier. If the scientist has got a classified 
document, that person is responsible for putting it in the 
right place at the end of the day or transporting it in a 
proper way.
    Mr. Stupak. If I am a scientist and I work for UC and I am 
responsible for this document and I am responsible for it and I 
am there, and this other firm or entity comes in and tells me 
to do something different, who would I look to then as the 
scientist? Am I supposed to listen to the so-called new 
security entity who I have no contractual relationship with, 
who I can say buzz off because you have nothing to do with my 
evaluation, or do I listen to UC?
    Mr. Glauthier. First of all, we are not sure whether there 
will be a contractual relationship or not. That is part of what 
Under Secretary Gordon will be looking at over the next several 
months, whether this ought to be a subcontract to the 
university, a joint venture, or separate contracts. All of 
those models are on the table. But the management of the 
university at the laboratory will be responsible for seeing 
that all of its employees are carrying out procedures. They 
have the line responsibility to make sure it's all being 
managed properly.
    Mr. Stupak. Have you discussed this with Dr. Browne?
    Mr. Glauthier. Yes, we have.
    Mr. Stupak. Any comment on it? This other entity?
    Mr. Browne. My opinion is that whatever mechanism the 
Department of Energy comes up with, we are still going to 
ultimately be responsible because we not only have the 
information, we create the information. The scientists are 
creating the information that winds up on the hard drives or 
pieces of paper. So we can't get away from that individual 
personal responsibility at the working level or at the 
management level.
    Mr. Stupak. Thank you. Thanks for letting me go over, Mr. 
Chairman.
    Mr. Upton. Mr. Burr.
    Mr. Burr. To both the generals, do you both agree with what 
the Secretary just said about a decision at the labs to break 
out security separately and negotiate a new contract with the 
labs that would allow you to put a security entity in place to 
be in charge of security?
    General Gioconda?
    Mr. Gioconda. Sir, I am the staff officer that is assigned 
by the Secretary to come up with the range of recommendations.
    Mr. Burr. Is this your recommendation?
    Mr. Gioconda. The range of options to choose--yes, sir.
    Mr. Burr. It is?
    General Habiger, are you in agreement with it?
    Mr. Habiger. Sir, I will defer to see what General Gordon 
comes up with, sir.
    Mr. Burr. I will take that as a very hesitant answer.
    Mr. Habiger. It is.
    Mr. Burr. I appreciate it, then. I appreciate the honesty. 
Because I am sitting here as a member, and the last thing I 
want to do is try to make some decision as to what the proper 
security is for Los Alamos or for Livermore or for Sandia. And 
for some of the people that come in here and testify, I feel 
like I have been there as many times as they have, once. And 
the last thing you need is input from me.
    But we have had an opportunity over the last several years 
to see the problem in its totality. And one of the problems is 
the right and the left hand never see each other. One of the 
problems is that the line of communication--and I think Mr. 
Robinson said it very well in his testimony--just does not 
exist to the degree it has to for something as sensitive as 
national security. And for that reason, I am flustered, for the 
lack of a better word right now, to believe that we can just go 
out and renegotiate a contract, bring in a new entity, call 
this a security program and without fundamental changes in the 
line of communication, both with the labs, the new security 
company, walk away and feel good and believe that anything is 
different.
    One of the problems I am convinced today, right or wrong, 
it was believed that there were areas that the labs weren't 
responsible or did not think they were responsible for as it 
related to special programs, because I can't believe that there 
wouldn't have been stricter things in place if they thought it 
was their decision. And I think they have expressed, through 
faxes and through conference calls, hesitancy with the 
deterioration of some of the security methods.
    So it sounds great, Mr. Secretary, but I don't think it can 
work without a significant fundamental change to the operation, 
both on the labs' part and the security part. And if we can 
accomplish that, I am not yet convinced that they can't 
continue to supply the appropriate security, and we have 
eliminated another layer that might further blur the problem 
down the road. It is a personal observation, and I wait with 
some degree of anxiousness to watch how, in fact, this is 
structured.
    Mr. Secretary, on March 1, 1999, these three directors had 
a conference call with Secretary Moniz, and they faxed to him a 
recommendation to reinstate the formal accountability. Do you 
know what happened to that recommendation?
    Mr. Glauthier. I am not clear exactly what happened. I 
understand that that was written up after a meeting at which 
some of those topics were discussed.
    Mr. Burr. I believe it was a conference call between the 
three directors, am I correct, to any of the directors?
    Mr. Robinson. That was my memory, yes.
    Mr. Glauthier. When I discussed it with the Under Secretary 
yesterday, he did not have a recollection of the specific memo 
and the like. It's clearly a topic that was discussed at some 
level, and it was at a time when security issues were very 
prominent last year, as you recall. The Secretary and the 
Department took a lot of action on various fronts. We had, as I 
indicated in the testimony, about 50 different security and 
counterintelligence measures that were implemented as a result 
of last year's event. So I think that this must have been a 
part of the overall pattern. But it came in just before I 
arrived and I am not sure exactly what happened to it.
    Mr. Burr. Let me just read the last paragraph. I don't 
think I read it when I entered it into the record. And I assume 
that it got there, and maybe somebody can tell me whether it 
was acknowledged: ``The directors of all three of the DOE 
nuclear weapons design laboratories are in agreement that the 
former controls should be reinstated as quickly as possible. 
This recommendation is presented to the Under Secretary and 
counterintelligence officials for their evaluation of what, if 
any, problems might result from prompt reinstatement of the 
previous policy.''
    Let me ask General Habiger--I think you have been there the 
longest--next. Did you have any recollection of this? Or was it 
ever mentioned to you?
    Mr. Habiger. No, sir. The first I was made aware of that 
was approximately 2 weeks ago.
    Mr. Burr. I hope all of you can understand how that makes 
us feel as we try to wade through this. There were some pretty 
good signs from our lab directors, we do not think we are doing 
the right thing, that seem to not only have been discarded by 
the individuals that were given those, they can't even be 
uncovered now except for the process that we are going through. 
I know that we will have another round, and I thank the 
chairman and I yield back.
    Mr. Upton. Thank you.
    Mr. Cox.
    Mr. Cox. Thank you. I just want to register--I'm sorry Mr. 
Stupak has left--my strong agreement with my colleague from 
Michigan. He is absolutely right. The Department of Energy used 
private security at foreign launches--the Department of 
Defense, I should say, used private security at foreign 
launches, and it was a failure. And one of the recommendations 
of Congress was to make sure that we take that responsibility 
on as the U.S. Government. The U.S. Government is responsible 
for the national security. It must not be privatized. And the 
notion that we are going to, because we necessarily use 
academics when we are trying to contract for science, that we 
are going to contract now additionally for security ought to be 
unacceptable on its face.
    That is why Congress created the NNSA. Congress created the 
NNSA so that there would be a clear line of authority virtually 
independent of all the rest of the bureaucracy at the 
Department of Energy, and it would have exclusive 
responsibility at the national labs over intelligence and 
counterintelligence, for example.
    But I am hearing here today another endorsement of blurred 
lines of authority, and I wonder whether you could, Mr. 
Glauthier, explain why it is that Congress should look 
favorably upon bringing in additional private contractors to be 
a new layer of authority in providing security direction for 
the national laboratories?
    Mr. Glauthier. Certainly, Congressman. First of all, we 
agree very much with the need for line accountability and for 
clearing up what has been, in many cases, a blurred sense of 
responsibility, of staff versus line responsibilities in the 
Department. We want very much to see the NNSA responsibility 
carried out very directly from Under Secretary Gordon to 
Defense Programs, to the field offices, to the laboratories, 
and have that accountability apply to missions and security and 
safety and all the other functions there.
    Having said that, we also see in the past that the 
experience of the laboratories has not always been outstanding 
in some areas that are not the science areas. Science is 
clearly their forte. It is the strongest area. But security, 
construction management, some other things that are not as 
closely allied to the academic areas, for the University of 
California labs at least, have not been as outstanding. And it 
is those areas we are looking to try to strengthen. We might do 
it through a joint venture with the university and another 
firm. I have talked with the provost and the management of the 
university about different models. They feel very strongly that 
they ought to have some continued responsibility.
    Mr. Cox. What the laboratories are telling us is that they 
are creating the information--and I think we are misusing the 
term ``responsibility'' here, because--or at least we are using 
it in multiple senses. Obviously, lab employees, scientists and 
others, are responsible for the information they handle. They 
are responsible in that sense. But it should be equally obvious 
that every employee cannot be equally responsible for 
establishing the rules. And that ought to be the responsibility 
of someone who clearly has authority to implement those rules. 
And when the rules aren't followed, there ought to be clear 
accountability, which we have been lacking every time we have 
had an oversight hearing when something goes wrong.
    And every group that has looked at this, the Select 
Committee that I chaired, was one in a long stream that 
extended earlier and went beyond that, all said the same thing. 
Everybody that has looked at this has said that the lines of 
authority are not clear, and that is why the Congress created 
the NNSA.
    Now, earlier when we had a report from the Office of 
Independent Oversight and Performance Assurance, we heard from 
the head of that office that he does not know much about 
polygraphing; he does not know much about counterintelligence, 
and so on. The compartmentalization of this and the blurring of 
lines of authority is incongruous with the real world.
    If you take now a private contractor and slide them in 
between the Department of Energy, the NNSA, the lab management, 
and so on, I cannot imagine how that does not make matters 
worse.
    Obviously, they are going to be setting the rules--or are 
they not going to be setting the rules? What are they going to 
be doing?
    Mr. Glauthier. Their focus will largely be on 
implementation. They will set some of the specific practices 
for how to actually live up to the standards.
    Mr. Cox. So when they are setting specific practices, do 
the labs report to them?
    Mr. Glauthier. Well, I think, for example, what kind of a 
log should there be in the vault?
    Mr. Cox. Let me ask a more specific question. How does this 
private contractor relate to the NNSA? Does it work for the 
NNSA?
    Mr. Glauthier. Yes.
    Mr. Cox. All right. And does it work for the lab or above 
the lab?
    Mr. Glauthier. Well, that is part of what General Gordon is 
supposed to decide this summer with the university. Should it 
work directly for the NNSA in parallel with the University of 
California contract or----
    Mr. Cox. What is the advantage of not making these people 
employees of the U.S. Government and the NNSA? What is the 
advantage of having it be privatized?
    Mr. Glauthier. Well, they are it is already not employees 
of the Federal Government. They are now the University of 
California employees, in the case of those two laboratories.
    Mr. Cox. The function you are talking about creating does 
not presently exist. You are talking about going out presumably 
to the private sector and sliding it in. So it is not fair to 
say that presently it exists when it isn't created yet. The 
NNSA does not yet exist. Even though the Congress passed the 
law a year ago, the administration has so dragged its feet that 
we have had nothing. And of course, the politics in the Senate 
as well, the minority in the Senate held up the confirmation of 
the administrator, as you know. Now we are finally getting it 
off the ground and it is just a matter of weeks now. With the 
NNSA just now getting up and running, why would we not want to 
have the NNSA perform the functions that Congress just gave it 
in statute? Those very functions you are talking are about the 
statutory functions of the NNSA.
    Mr. Glauthier. And we do intend for the NNSA be responsible 
for carrying this out. The way they perform most of their 
functions is through contractors at the various facilities. So 
it will be natural for them to use a contractor in some mode. 
The question is in what mode? What's the right way? Should it 
be through the university or in parallel to it? Those are 
things I think they need to----
    Mr. Burr. Will the gentleman from California yield for a 
clarification? Do you also envision that the field offices 
would be in charge of the evaluations for the security company 
as well, the DOE field offices?
    Mr. Glauthier. The field office, in their role as 
administering the contracts, would continue to do that. We 
have, as you saw this morning also, an Independent Office of 
Security Oversight headed by Glenn Podonsky. We would expect 
that office to also provide oversight and evaluation of these 
activities.
    Mr. Burr. I thank the gentleman for yielding.
    Mr. Cox. Well, I think we are headed off in the forest 
here. I think it is going to get much worse if you do this.
    Mr. Upton. Ms. Wilson.
    Mrs. Wilson. Thank you, Mr. Chairman. I would like to pick 
up this same line of questioning here, and I am glad that there 
are some members of the DOE at this table who are skeptical 
about this proposed new arrangement, because I think it 
exacerbates the very problem that we are identifying here, and 
it sounds pretty dysfunctional to me.
    I have to always put things in a little bit simpler terms, 
I am afraid. At our house we have some rules. You have to close 
the front door when you come in and out. You are supposed to 
keep the lid on the jug of milk. You are supposed to close the 
refrigerator door and push in your chair after you get up from 
the table. We repeat those rules. We try to be clear about 
those rules. We train to those rules. And there are 
consequences if you do not follow those rules.
    But what I hear you saying with this new contract here is 
that you are going to bring somebody in and post the rules on 
the refrigerator, and then you are going to come in and check 
and see if people have done what they are supposed to do. But I 
am no longer in charge of training and controlling and 
repeating and consequences and all those things. That may be a 
little simple, but that is kind of the way I see this new 
security contractor.
    And I wonder if perhaps, since I noticed, Paul, you 
referred to, in your testimony, the importance of integration, 
and since you are not the direct guy who is immediately 
affected by this possibility of a new contract, if this kind of 
thing were imposed on the other labs, would it work?
    Mr. Robinson. I am worried about anything that splits the 
authority and responsibility. As I said in my written 
testimony, I believe the preferred direction is to try and 
streamline authority, responsibility, and accountability. Only 
if you do that do you have a chance of knowing who is 
responsible and being able to take action.
    I also am a believer with a little bit of experience over 
time that when you have that clean line of responsibility, 
people, in fact, grow to deserve it instead of shrinking from 
it if the lines are blurred.
    Mrs. Wilson. Thank you. I want to change the subject a 
little bit, because I have some questions about the NEST chain 
of command. And I wonder if maybe General McBroom, you are the 
person to ask this. Can you describe the chain of command for 
the NEST and who is responsible for what?
    Mr. McBroom. There is normally--we pay for a couple of 
people in each site. The number varies. Most of them we pay 
them, I think, seven full-time salaries at Los Alamos, but that 
includes the secretary, and we have a small contingent there 
that works primarily on NEST operations, and then we will have 
another couple hundred people that do not. Normally, there is a 
designated point of contact at each site that we deal with from 
the staff that deals directly with the NEST team. So that chain 
of command would go from myself to my program manager at the 
staff, right down to that program manager at the site.
    Mrs. Wilson. The University of California said in a letter 
on June 20, and Dr. Browne also mentioned it in his testimony, 
that line managers at labs had little or no access to ensure 
that lab safety and security rules are met for these close-hold 
programs. Is that--do you agree with that?
    Mr. McBroom. I think that there was nothing preventing them 
from doing that. I think that there was some confusion at the 
site. I would go that far. But I mean, there is nothing--I went 
back to the--I have been there for 9 months now. I went back to 
the two previous directors and talked to both of them and they 
both said no, definitely we've never said that people can't 
look at it, that it shouldn't be looked at or anything like 
that.
    Mrs. Wilson. But there was confusion as to who was 
responsible?
    Mr. McBroom. I think there was some confusion there. I 
hope--I sent something out the first week of June moving the 
control to Albuquerque Operations. Because the operation, when 
I got there, was done with the headquarters deploying with the 
teams. And I thought that kind of confused the mission, the 
oversight mission and the--and what we were really supposed to 
be doing at the headquarters.
    Mrs. Wilson. General, when was the last time the Department 
of Energy did a program-wide security audit or assessment of 
the NEST program?
    Mr. McBroom. I have no idea. I am a force employer. I am 
not a security person. That is a security question.
    Mrs. Wilson. Who would be responsible within DOE? You talk 
about this is a team drawn from people from all over the 
country, all different responsibilities; they end up in some 
airport somewhere. Who within DOE is responsible for this whole 
thing?
    Mr. McBroom. When they are on the road?
    Mrs. Wilson. No--well, for the program. Who runs the 
program?
    Mr. McBroom. I run the program. I am responsible for the 
team when they are on the road. When they leave that lab, I 
have operational control. I do not have administrative control. 
Administrative control, disciplinary action, firing, things 
like this, remains with the lab. Just like when they are on the 
road, they follow lab procedures. My people are out there to 
focus on the emergency and to help the scientists do their job.
    At the same time, we look at security and safety just from 
a standpoint of doing the way the headquarters said we should 
do it.
    Mrs. Wilson. Dr. Browne, did your folks feel as though they 
had the authority to do security audits of the NEST team?
    Mr. Browne. Well, I think you hit one of the points that 
the General referred to about some concerns at our laboratory. 
Our program manager, who I am no longer allowed to talk to 
because of the FBI investigation, but what I can talk to you 
about is that he wore a couple of different hats. He wore a hat 
inside the laboratory where he reported to our management for 
organizing and coordinating the program inside the laboratory, 
and he also wore a hat for the Department where he was 
responsible for activities at Livermore and Sandia.
    He made some comments to our security people that they were 
not allowed to look at the NEST operational security because 
that was his function. And my opinion is that there was a lack 
of formality of operations that would have clearly defined the 
roles and responsibilities of people at Los Alamos for this 
program. I think it's missing. You know, I'll share some of the 
blame for that. I think we should have caught that. But, in 
fact, I believe it was missing. There was no line manager that 
had his or her signature on that plan, the security plan.
    Mrs. Wilson. One final question, Mr. Chairman, if I may. 
This memorandum from the lab directors concerning increasing 
level of security from March, I understand the Under Secretary 
has no recollection of receiving this. And I can understand 
that. All of us up here get about 5,000 letters a month. But in 
our office, we do have a process for identifying, by number, 
each incoming letter. Does the Under Secretary have a similar 
system?
    Mr. Glauthier. We do have that kind of tracking system, and 
my understanding yesterday, when I discussed this in our 
office, was that this was never actually submitted to us in the 
mail or in the normal transmittal system. It was faxed to his 
office and, thereby, avoided the regular process. It wasn't 
captured in the regular tracking system.
    Mrs. Wilson. Let me make sure I understand. The Under 
Secretary's correspondence management system, you have checked 
it and you can find no reference to this memo?
    Mr. Glauthier. That was what I was told yesterday, that's 
right.
    Mrs. Wilson. Thank you, Mr. Chairman.
    Mr. Upton. Thank you. I want to go back to a question that 
was I focussing on when my time expired a little bit early.
    Mr. Glauthier, who is the individual or the department that 
is actually responsible for the classification in terms of 
security with regard to the material at the labs?
    Mr. Glauthier. The classification responsibility?
    Mr. Upton. Who determines whether it is Secret or Top 
Secret?
    Mr. Glauthier. I think it is actually at the laboratories 
themselves, the people who develop the material. No?
    Mr. Upton. Dr. Tarter?
    Mr. Browne. There is a classification guide that is 
developed by the Department that the laboratories provide 
technical input to.
    Mr. Glauthier. But the actual decision on a particular 
document using the guide I thought was actually done at the 
lab. The guide itself is developed by the Security Office.
    Mr. Upton. So who would have been responsible? For example, 
these hard disks--the hard drives that were missing, who 
actually determined that it was Secret versus Top Secret?
    Mr. Habiger. We have----
    Mr. Upton. Whose chain of command?
    Mr. Habiger. Chain of command would go from the program 
office to the laboratory. I have a group of people, who are 
subject matter experts, develop classification guides. Those 
guides are then sent to the field offices, the laboratories, 
and the program offices.
    Mr. Upton. So are you saying are the directors--ultimately, 
as they are in charge of the security of the entire lab site, 
are the three lab directors, these particular NEST tapes that 
the NEST team lost, is it--was it Dr. Browne's responsibility 
that they were Secret versus Top Secret?
    Mr. Habiger. It would be classifiers at the laboratory.
    Mr. Upton. Who did they report to? I mean, ultimately to 
Dr. Browne and up, or did they go back to General McBroom or 
who?
    Mr. Browne. Mr. Chairman, let's see if I can explain this. 
Each piece of information on the hard drive by itself was 
secret RD and would have been classified as such if it were a 
piece of paper or on an electronic medium.
    Mr. Upton. Right.
    Mr. Browne. The compendium, I think, is the issue here, the 
large amount of information. There was no guidance in existence 
about how we treat large encyclopedic data bases at a higher 
level.
    I would like to mention that I just found out, after I 
read--after I wrote my testimony, that we did submit in 
September 1999 to the Department a letter requesting that these 
hard drives be encrypted. One of the difficulties is that the 
software for encrypting information, until recently, and I 
believe General Habiger can point out in more specificity, that 
it did not exist. So even though we made a request in 
September, it was not possible to accommodate it.
    Mr. Upton. Although I am told that, at least at Livermore, 
some portions of the hard drives have, in fact, been encrypted 
and at least for a number of months, is that not true?
    Mr. Tarter. What we did, we used a nonNSA-approved 
encryption technique because, as Dr. Browne said, there was not 
an NSA-approved encryption. It was our decision that--we call 
it--some encryption was better than no encryption.
    Mr. Upton. Did you share that information with the other 
labs, or did the NEST teams--was it actually a part of the NEST 
team that did that?
    Mr. Tarter. It was part of the NEST team that did that.
    Mr. Upton. And did they not share that information with the 
NEST teams at the other two sites?
    Mr. Tarter. They did, and I have the--you know, we can go 
into more detail if you wish. I have the head of the NEST team 
here. I think we had those discussions, and I think in the 
absence of an official NEST policy and since ours was not 
approved in the NSA sense, I think it became local option.
    Mr. Upton. General McBroom, were you aware of that at all?
    Mr. McBroom. No, sir.
    Mr. Upton. So you have really wiped your hands clean 
altogether of the security at the site of the material, is that 
right? Your role is really just the operations; the phone rings 
and then out the door and then you have them under charge; is 
that right?
    Mr. McBroom. Yes, sir. I am the force employer. They 
provide a head, two arms, two legs, and a 20-pound brain with a 
piece of equipment. I employ those people out there. I watch to 
make sure, while they are in my charge, what they do when they 
are at that site, but primarily they still come under those 
rules.
    Mr. Upton. Dr. Tarter, your answer again as to whether that 
information was shared between the three teams, it just wasn't 
done; or was it?
    Mr. Tarter. We did--we had those discussions with Los 
Alamos. We said what we were going to do, and I think they 
chose, in the absence of either an approved status for the 
encryption technique we were using or formal guidance, to 
continue with the local option.
    Mr. Upton. Did you talk to DOE about what you were doing? 
Was DOE aware?
    Mr. Tarter. Apparently yes. Again, if you wish, you could 
swear in the head of our NEST team for a more precise----
    Mr. Upton. We might just do that. Just get that--is that 
individual here, behind you?
    Mr. Tarter. He retired a week ago but, yes, he is here.
    Mr. Upton. Just come up and identify yourself for the 
record.
    Mr. Tarter. This is Dr. Alan Mode.
    Mr. Upton. Just remain standing there for just a second.
    [Witness sworn.]
    Mr. Upton. You are now under oath.
    If you would just describe the set of circumstances behind 
this. I know my time has expired, and I will yield to Mr. 
Stupak.
    Mr. Mode. It is, as Dr. Tarter has described, the request 
and information had been discussed within the NEST community. 
There was not an approved encryption technique available at the 
time. DOE had made that request some time ago for an approval 
from--NSA-approved encryption technique. It was purely a local 
option. We--our people just felt a little more comfortable. We 
also recognized that it was not an approved encryption 
technique, and in one sense you could argue that we were, in 
fact, acting outside of our bounds by imposing an encryption 
technique that had not been approved.
    We encrypted the Livermore portions of the information. We 
did not encrypt the Los Alamos portions. Again, with their 
knowledge and----
    Mr. Upton. How long did it take to encrypt the information?
    Mr. Mode. I am sorry. I don't know. We used--in open 
hearing, I won't say exactly how we did it, but not an extended 
period of time.
    Mr. Habiger. Mr. Chairman, if I could point out that NSA, 
National Security Agency, certified encryption on June 19 and 
we were the first ones in the government to buy it.
    Mr. Upton. Right. I understand that, but I think this 
actually took place--nonNSA-approved happened, what, September 
last year, thereabout?
    Mr. Mode. Approximately January 1999.
    Mr. Upton. January 1999?
    Mr. Mode. Yes.
    Mr. Upton. So literally a year and a half it took.
    Okay. Mr. Stupak.
    Mr. Stupak. Thank you, Mr. Chairman.
    Dr. Browne, you said something that bugs me a little bit. 
You said that you are responsible for the information that 
would go on the hard drive that--whatever segment it is--and 
there are many Top Secret segments on this hard drive.
    Mr. Browne. Secret. Secret RD.
    Mr. Stupak. Okay. Secret?
    Mr. Browne. Correct.
    Mr. Stupak. So in, say, year one, there might be a thousand 
pieces of Secret on that hard drive?
    Mr. Browne. It is less than that, but let's say many.
    Mr. Stupak. But then you said you weren't responsible for 
the encyclopedia of the information on it there.
    Mr. Browne. No. I said there is no DOE guidance that tells 
anyone that once you have accumulated any amount of 
information, that you should classify it at a higher level.
    Mr. Stupak. But do you really need a guideline to figure 
this out?
    Mr. Browne. We don't have the authority----
    Mr. Stupak. I mean, if you have one piece of information 
that's so important, now you have all kinds of pieces on there, 
I think that hard drive just becomes more valuable. I don't 
think I need a government guideline to tell me not to drop it 
behind the copier.
    Mr. Browne. Well, I don't disagree with that, but we don't 
have the authority to classify something Top Secret or not.
    Mr. Stupak. But you have the authority to provide security 
and control----
    Mr. Browne. Correct.
    Mr. Stupak. [continuing] for this?
    Mr. Browne. Absolutely.
    Mr. Stupak. Because I guess my concern--and is it your 
testimony that you did not believe you were responsible for 
security over the NEST team and the information under their 
control?
    Mr. Browne. No. I believed I was. My comment was that our 
security people were told by our NEST program manager that they 
did not have the right to come in and look at the NEST program 
operations; that it was a closely held need-to-know program. A 
limited number of people had access to that program and access 
lists, and so they were--they were told that they were not to 
look at this program.
    Mr. Stupak. Who do the security people work for?
    Mr. Browne. They work for me. They did not bring that to my 
attention.
    Mr. Stupak. So even the people under your control who are 
doing security, plus your scientists, they don't agree who can 
look at what and who has control over what?
    Mr. Browne. That's an issue, and I brought that up with 
them since I found out about this.
    Mr. Stupak. So now the proposal is to put another entity 
out here, yet to be hired, to even have more arguments on who 
is controlling and who has the authority?
    Mr. Browne. No. General Gioconda sent me a very excellent 
letter, I believe it was June 16, saying if there is any 
confusion about any program, you have the authority to 
investigate it unless you are directed not to investigate it.
    I have used that letter now to look into a series of 
programs that are very similar to NEST.
    Mr. Stupak. When did you get that letter? Maybe I was out 
of the room and I had to make a phone call.
    Mr. Gioconda. I happen to have a copy.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T7110.089
    
    Mr. Stupak. How long ago--when was that written?
    Mr. Gioconda. Well, sir, I sent that letter on June 16 
because I was surprised, too. John brought it to my attention. 
Let me read it to you.
    Mr. Stupak. Okay.
    Mr. Gioconda. It says, ``This memorandum is to reconfirm 
the responsibility of the Nation's nuclear weapons laboratories 
for assuring that proper security procedures are followed in 
ALL''--all capitalized--''activities performed on laboratory 
property or under laboratory auspices. No program can be exempt 
from such oversight without written approval from me or my 
superiors.''
    Mr. Stupak. That was because labs were saying that they 
didn't have responsibility here?
    Mr. Gioconda. They were--as Dr. Browne described, 
apparently the program manager said stay away from my program. 
No, he did not have the authority to do that.
    Mr. Stupak. Well, this is really sort of the same argument 
that we have been hearing since about 1976 when Mr. Dingell 
first brought this to our attention. And if you go through 
this, this responsibility, this lack of accountability, we have 
had these concerns brought up in 1976, 1982, 1988, 1992, 1997, 
1998, 1999 and now again in 2000. We always get these 
assurances things will be different. Now we have a letter 
saying they have to be different, but they never really are. 
And I guess that's the frustration we see on this side of the 
dais.
    Mr. Glauthier. Congressman, may I comment?
    Mr. Stupak. Sure.
    Mr. Glauthier. One of the changes that Secretary Richardson 
made in April of last year was a reorganization to make 
explicit staff versus line responsibilities, and at that time 
we actually had iscovered that the head of Defense Programs 
claimed he had no responsibility for security; it was somebody 
else's responsibility.
    We made it very clear that that responsibility is a line 
responsibility, and implementation and accountability for 
security flows right through the whole organization, but that 
has been a problem over the years.
    Mr. Stupak. Sure, but that was last year. And now it seems 
like we don't get this thing really cleared up now until this 
June 16 letter here from the General.
    Mr. Glauthier. I think what you are hearing is one specific 
area. These NEST programs were a point of confusion at one of 
the laboratories. I believe, you know, the vast majority of the 
people understood the responsibility was in fact much clearer, 
and this was just to clear that one piece up.
    Mr. Stupak. But it really should be clear that the NEST 
program manager is a lab employee, right?
    Mr. Glauthier. Absolutely.
    Mr. Stupak. I was really interested, Dr. Tarter, you 
mentioned your own little local option that you put on the hard 
drives, the encryption?
    Mr. Tarter. Yes.
    Mr. Stupak. That's just something that you thought was 
necessary?
    Mr. Tarter. It seemed good practice.
    Mr. Stupak. And security is part of your responsibility, 
right?
    Mr. Tarter. Right.
    Mr. Stupak. Thanks.
    Mr. Upton. Mr. Burr.
    Mr. Burr. We have spent a lot of time on the 3-1-99 fax, 
whether it came or didn't come. Let me just share with you, Mr. 
Secretary, and this is out of the Redmond report: 
``Comprehensive classified document control system--document 
controls for the most sensitive data of the weapons lab should 
be reinstituted by the agency director. The program should be 
constantly monitored by a centralized agency authority to 
ensure compliance''--basically what the three directors said.
    So if you didn't get it in March, in June you certainly got 
the same message from Senator Rudman; and still today, a year 
later, we don't have that policy back in place, or if we do 
it's a recent one.
    And, General Gioconda, I want to commend you for 
recognizing there might have been a lack of communication on 
the labs' understanding of their jurisdiction and where it did 
or did not stop, and your quick response to get a memo out that 
says, no, here is where it extends to; because I think that's 
the type of thing we have got to clear up, some of the 
misunderstandings that exist, if we are going to move forward 
at all, and I think that the directors, though they may not 
always be in agreement, I think they are appreciative of 
clarification.
    Mr. Gioconda. Sir, I have only been in an acting capacity 
since August of 1999. I am a history major, so I went back and 
read all of the history that you have read. It really boils 
down to--and I just want to say--because I got the impression 
that when I gave you a ``yes sir,'' that I am supportive of the 
decision to go and look at options and how to make this 
situation better, that somehow was a problem. I would wait 
until you see what Under Secretary Gordon comes out with on 5 
September, regarding negotiations with the University of 
California before you make your judgment about whether this can 
work, because this decision will be made within the NNSA 
process.
    General Gordon is my boss. I am the Acting Deputy 
Administrator to him for Defense Programs.
    But it really boils down to four things. When I took over 
and told everybody here at the table that it is, one, you have 
to stay focused on the mission, and we have to be very clear to 
do that. Really, the mission is safe, secure, and reliable 
nuclear weapons. It isn't harder than that. And if we do 
anything to damage that, I am concerned about any security, any 
arrangement we have. That's important.
    Mr. Burr. So you feel confident--I may not be here and you 
may not be here, but there will be someone on this 
subcommittee, if it doesn't work, who asks the question why did 
they do this and why didn't they have more vision than that?
    Mr. Gioconda. Yes, sir.
    Mr. Burr. I am not prejudging it. I am raising what I think 
are legitimate questions but, more importantly, legitimate 
concerns based upon my interpretation of the history that I 
have read and certainly what I have seen firsthand for the last 
5\1/2\ years since I have been here as it relates to the 
relationship between the agency and these labs.
    Mr. Gioconda. Sir, if I may, two more things.
    Mr. Burr. You may.
    Mr. Gioconda. Accountability and responsibility has to be 
in this environment. I agree with you, as the staff officer 
that's going to put some of the ideas together, that if you 
remove accountability and responsibility from individual 
scientists who create a lot of this data, this won't work.
    And then the third thing I will tell you is the chain of 
command. The chain of command has to be followed in this 
organization, and that's a lot of what happened back in April 
when they made sure that the line is involved.
    That's why I am at this table. I am responsible for this 
incident. Defense Programs is responsible down to the weakest 
link in its program. We have got to get that across to 
everybody in Defense Programs, and if you walk around the 
complex, sir, as I know you have, 99 percent of them know that.
    Mr. Burr. Well, one of the questions that I had earlier was 
from--and I can't lay my fingers on it right now, but it was 
basically the fact that many of the Secretary's initiatives of 
late, this last round, were not decisions that were based upon 
conversations with the directors of the labs. And it may have 
come from Mr. Robinson's testimony, that this was a--this was a 
somebody makes the rules and somebody else lives by them. This 
is not a shared process of adults that get together to try to 
figure out how to make it work the most effectively and the 
most securely that we can. And I would tell you, that's an 
important part of the process and any criticism of how we reach 
that, I would hope that you and others would take it hard and 
that we would find inclusion in the process.
    I have just a couple of--I know my time is already out, but 
I have to finish this before I go because I have got a meeting.
    Let me just ask one of the directors, do all scientists 
sign a commitment to take a polygraph if the need ever arises?
    Mr. Robinson. They do not.
    Mr. Burr. They do not. But my understanding, and correct me 
if I am wrong, NEST members have signed an agreement for a 
polygraph, if needed?
    Mr. Robinson. They have not.
    Mr. Tarter. No, they have not.
    Mr. Mode. No.
    Mr. Robinson. What is the case--and let me first go to non-
DOE programs where polygraphs have been employed for a decade. 
If a scientist were going to be assigned to that compartment, 
they had to then agree to take a polygraph or they could not go 
into the information in that compartment, but it is not a 
general thing throughout the laboratory. So it is program-
specific, compartment-specific for polygraphs.
    Over the course at our laboratory, about 220 people were 
polygraphed as a part of those programs.
    Under DOE programs, we identified just above 200 people who 
are members of the compartments that were just made--that 
polygraphs were just made mandatory. Taking some of the people 
who had been polygraphed within the previous 5 years, so you 
didn't have to do them again, our number came down to 171 
people. We have polygraphed 46 of those as of a week ago, so I 
suspect the number is well above 56 at the present time.
    Some of the members of our NEST team, when faced with the 
question of a polygraph to continue as members of NEST, chose 
to opt out and resign from this responsibility.
    Mr. Burr. So it is not a requirement of NEST now?
    Mr. Robinson. It is a requirement now.
    Mr. Browne. I don't think so.
    Mr. Tarter. No.
    Mr. Robinson. No?
    Mr. Burr. Just to express my own frustration, somewhere 
in--since the latest problem at Los Alamos, somewhere in the 
conversations, whether it is with labs or whether it is with 
DOE, I was led to believe that it was standard protocol that 
every member of the NEST team signed a waiver that said I will 
be polygraphed if you ever need it. So we can even be mistaken 
up here, based upon the information that we hear.
    I hope that if there is a policy on that, somebody would 
let us know.
    Mr. Robinson. I have got a clarification from my own folks. 
Those who are in certain roles within the program have to be, 
but not all members of NEST have to be polygraphed if they are 
a part of what is called the PSAP program, Personal Security 
Assurance Program.
    Mr. Burr. I would say to Mr. Aftergood, if those people 
have signed a pre-waiver on a polygraph, I would not expect to 
see them with a badge on in the facility saying no polygraphs.
    And you are right, they do have a right to. They also have 
a choice of where they work.
    One last thing, Mr. Robinson. You said in your testimony--
and if this is not something we can get into, then certainly 
feel free to tell me, we will follow up in another way. In your 
testimony it said, talking about controls on electronic media, 
said the other issue--talking about two things that you have 
found as you have gone back and looked at your system--reported 
on June 30 involved a single 3\1/2\ inch 1.44 megabyte disk 
that had not been yet located. Inquiry is currently underway in 
accordance with DOE's procedures.
    Is that still the case? Have we still got something that's 
missing?
    Mr. Robinson. It is unaccounted for at the present time.
    Mr. Burr. And is that of a nature that we should be 
concerned?
    Mr. Robinson. It is always a concern if you have anything 
that's a secret item that is accountable.
    I might point out that only because that work group, which 
is our largest holder of classified information in the weapons 
engineering department, never took off the accountability 
system for Secret or Top Secret information, that we in fact 
know that it is missing; but the content of what is on the disk 
we know, and it is not of the same magnitude as other things. 
It is very high-level information. There is no detailed 
information. There are no figures.
    Mr. Burr. Well, we are relieved with that. And just for the 
purposes of my colleagues, I want to point out two things in 
Mr. Browne's testimony. The first one was, ``since 1994 we have 
had 19 DOE inspections that cover vault operations. These 
resulted in two findings.'' One finding that's closed, 
involving a technical issue regarding alarm testing, and has 
corrective action. Neither of the two findings address the 
issues surrounding this incident.
    And later on in--or earlier in your testimony, I would like 
to point out, ``the laboratory security programs were reviewed 
16 times in 1999 alone.''
    I say this for the purpose of everybody here. This is not a 
question of whether we have investigated, whether we have had 
enough inspections. I truly think that if we asked Mr. Podonsky 
to go back six more times to every facility, he would very 
politely do it. He would come in with a very detailed analysis.
    Folks, until we all care, until we decide that we are going 
to make the fundamental changes that have to be made and that I 
believe the people that we have got in place are capable and 
willing to make, we are not going to solve the problem. No 
matter what we come up with in the way of new inspections, no 
matter what we come up with in breaking the security entity out 
separately, if you are not willing to make the structural 
changes and to require the accountability, then you have got to 
be prepared to keep coming back to this subcommittee.
    Mr. Chairman, I yield back.
    Mr. Upton. Thank you.
    Mr. Cox.
    Mr. Cox. Thank you. Mr. Glauthier, earlier, not in this 
round but in the previous round, Mr. Burr asked a question. And 
then perhaps Mr. Burr can help me. Mr. Burr, as you leave, you 
and Mr. Glauthier had an exchange about the field offices and 
the relationship potentially to these new privatized security 
people we are thinking about hiring. Do you remember what your 
question was and what the answer was?
    Mr. Burr. My question was, did the Secretary envision that 
the field offices would be in charge of the evaluations of this 
new security entity, just like they are currently responsible 
for the evaluation of the contractors of the labs, both for 
their administrative and their security performance?
    Mr. Cox. And my recollection, Mr. Glauthier, is that you 
answered yes.
    Mr. Glauthier. Yes, that's right.
    Mr. Cox. Now, I don't know whether you have read the House 
Armed Services Committee Report dated February 2000 on the 
proposed DOE implementation plan of Title 32?
    Mr. Glauthier. No.
    Mr. Cox. Which sharply criticizes the maintenance of pre-
Title 32 reporting relationships and specifically focuses on 
the role that the field offices have played.
    Let me just read a portion of it. ``The panel notes with 
concern that the plan''--this is the Department of Energy's 
plan--``explicitly sustains current reporting relationships 
between the NNSA contractors''--and these new contractors would 
fall, of course, into this category--``field offices, and 
headquarters staff. Thus, NNSA contractors will report to the 
Deputy Administrator for Defense Programs through the field 
offices rather than directly to the Deputy Administrator. 
Several studies have found that this arrangement has generated 
redundant and confusing lines of authority in the past. Despite 
strong criticism in the President's Foreign Intelligence 
Advisory Board and other reports, no changes in the field 
office reporting structure are contemplated. Furthermore, 
section 3214 of Title 32 states''--that's the law--``that the 
NNSA facility should report to the Deputy Administrator.''
    Now I have just read while we were sitting here, the whole 
Title 32 again to make sure I understood the law. Why is it 
that you are violating the law?
    Mr. Glauthier. My recollection of the law, I don't have it 
in front of me, is that it permits us to use a field structure 
in the line organization if we wish.
    Mr. Cox. Is the field structure part of the NNSA?
    Mr. Glauthier. Yes.
    Mr. Cox. Are the people who work in the field offices NNSA 
employees and not employees of the Department of Energy?
    Mr. Glauthier. They are both. NNSA is a part of the 
Department of Energy.
    Mr. Cox. Are they people who are hired exclusively by the 
Administrator of NNSA?
    Mr. Glauthier. It depends on the field office. The 
Albuquerque----
    Mr. Cox. Well, no, the law doesn't say that. The law says 
that except for certain named positions in the statute, it is 
the role of the Administrator to hire and fire people within 
the Administration, and furthermore the Administrator is given 
the statutory authority to set policies within the NNSA that 
are different from the policies and procedures in the 
Department of Energy, and only the Secretary of Energy himself 
can reverse those.
    Mr. Glauthier. Or the Deputy Secretary, if he is given that 
responsibility by the Secretary; that's correct. And in fact, 
the Secretary has the authority under the law to set policies 
that will apply to the NNSA as well.
    Mr. Cox. So why are we using these structures from the old 
system before the creation of NNSA?
    Mr. Glauthier. The field offices are part of a line 
organization, and that's where the contracting is done. They 
have processing of vouchers.
    Mr. Cox. I know that's how it used to work, but what about 
the new statute?
    Mr. Glauthier. The new statute doesn't require that we 
change that. It is up to the NNSA administrator, as you 
indicate, how that structure is going to be carried out and the 
implementation plans----
    Mr. Cox. Well, now, General Gioconda used to be an employee 
of the Department of Energy and now is a--is that correct, 
General?
    Mr. Gioconda. I am not the best example to use, sir. I am a 
detailee from DOD to DOE.
    Mr. Cox. But you had a DOE function before?
    Mr. Gioconda. Yes, sir.
    Mr. Cox. Now you have an NNSA function?
    Mr. Gioconda. Yes, sir.
    Mr. Cox. So your relationship to the Department of Energy 
is semiautonomous.
    Mr. Gioconda. Yes.
    Mr. Cox. In other words, the authority of the people who 
work at the Department of Energy over you can be exercised only 
through the Secretary himself or, if the Secretary is 
incapacitated or otherwise unavailable, by other statutory 
authority through his deputy, but acting qua Secretary because 
the statute is very explicit about that, and not in any other 
way. Is it your understanding that the same can be said for 
every employee in, say, the Albuquerque field office?
    Mr. Gioconda. Sir, in Albuquerque they are all in the NNSA. 
That is clear.
    Mr. Cox. And then the DOE exercises no authority over that 
field office?
    Mr. Gioconda. No, sir. The business functions are connected 
to DOE. They do have authority over the business functions that 
are connected to DOE.
    Mr. Cox. That sounds awfully confusing. Which is which? How 
do we know?
    Mr. Glauthier. May I? Congressman, may I respond?
    Mr. Cox. Well, the----
    Mr. Glauthier. The policies----
    Mr. Cox. I just want to remind you why I am concerned about 
this, because in questioning an earlier panel I read this 
portion of the report of 2 weeks ago from the Redmond panel, 
chaired by the former head of counterintelligence at the 
Central Intelligence Agency.
    He said the DOE operational field offices at Albuquerque 
and Oakland continue to refuse to share relevant information 
from employee personnel files under their control with DOE CI, 
counterintelligence, or laboratory counterintelligence 
components. The Department of Energy counterintelligence is not 
even informed by these three offices when an employee loses his 
or her security clearance.
    That's a mess.
    Now, if NNSA is in charge of these people, then I want to 
call NNSA on the carpet for this performance. If DOE is 
responsible, then I want to call DOE on the carpet for this 
performance.
    But the truth is, as we sit here in this hearing we don't 
know. Whose responsibility is it? Whose responsibility is that 
failure, NNSA or DOE?
    Mr. Habiger. Mr. Cox, if I may, sir, that is very dated 
information and is no longer applicable.
    Mr. Cox. Well, it is 2 weeks old.
    Mr. Habiger. Well, the report may be 2 weeks old, sir, but 
the assertions have been corrected some time ago.
    Mr. Cox. Were those assertions relevant to a time period 
prior to the enactment of Title 32?
    Mr. Glauthier. Before the implementation of it.
    Mr. Cox. Well, I understand you didn't obey the law for a 
very long time. And I am quite serious about this, because 
starting with the President of the United States own signing 
statement, there was a direct effort, documented by the 
Congressional Research Service, to subvert the statute. But I 
wonder whether or not this situation--independent of who shot 
John in this circumstance--obviously nobody is willing to own 
up to responsibility for this. But let me ask this question: 
Who is responsible for any defalcation today at the field 
offices? Would it be DOE? Would it be NNSA? Or is the answer, 
it depends?
    Mr. Glauthier. If it is a practice that they should be 
carrying out, the policy is in place and they are not doing 
what they are supposed to be doing, there is an NNSA 
responsibility; their line accountability to NNSA. On the 
specific information sharing of those personnel files, I would 
be willing to go back and get the specifics. I don't have those 
at this point.
    [The information referred to was not received at time of 
printing.]
    Mr. Cox. Is there any aspect of the performance of the 
field offices for which DOE is responsible and not NNSA?
    Mr. Glauthier. Only in establishing some of the policies. 
There may be Department-wide policies on procurement, for 
example, that are issued to the NNSA and then implemented 
through the NNSA.
    Mr. Cox. Obviously that's not how the statute is supposed 
to work. The NNSA has ample authority to do its own 
procurement.
    Mr. Glauthier. But the statute also provides for the 
Secretary to determine policies that would be applicable to the 
NNSA.
    Mr. Cox. Well, I think the answer, plainly, which you have 
just given, is it depends on whether it is one or another kind 
of function at that field office. And sometimes presumably the 
very same people working in the Albuquerque or Oakland field 
offices we are describing here would be responsible to 
headquarters DOE, and other times they would be responsible to 
the NNSA. And what we are now talking about doing is sliding in 
a new contractor that will have the same questions about who it 
reports to, because it is going to be reporting to somehow this 
field office which is itself a hybrid of DOE and NNSA, exactly 
what the statute was meant to prevent.
    I think if I were out at the labs, I would not know who in 
the hell I am supposed to report to, and this is making it 
worse, not better.
    Mr. Glauthier. One point we are clear on is no one in the 
NNSA can take direction from people who are not in NNSA. We do 
understand that and have tried to implement it that way.
    Mr. Cox. Well, I think the chairman is being--perhaps I 
have more time. Do I have time further?
    Mr. Upton. I stopped the clock. If you want to ask another 
question, you may.
    Mr. Cox. The chairman is being generous. I do hope that we 
will recognize that there is a Presidential election in a few 
months, that whether it is a Gore administration or a Bush 
administration, if past transitions are any guide, most of the 
people in the Presidential appointment positions, not for terms 
of years, will be changed and so this ought not to be viewed as 
a turf battle. It shouldn't be about somebody in Congress 
taking away my power. We are not trying to take away the power 
of any individuals.
    This is not a threat to Bill Richardson. This is a question 
about whether or not there can be an independent agency with 
only rare reporting relationships through the Secretary himself 
in charge of this function. And this administration, the 
Clinton-Gore administration, has fought it every step of the 
way, and I think it is doing a great disservice to our national 
security.
    Mr. Upton. Mr. Bilbray.
    Mr. Bilbray. Thank you, Mr. Chairman.
    I am going to ask one open question and would ask anybody 
to answer it as truthfully as possible. Can this Member of 
Congress assure his constituency, or, more important, assure 
his children that the security and the problems we have 
articulated here in this hearing, both structural and 
institutional, will be corrected before January of next year?
    Will the next administration have to solve this problem or 
will we have it corrected before January 1? Is anybody here 
willing to say that we think we will have it all taken care of 
by January 1; it will be wrapped up?
    Mr. Glauthier. I will be the first one to try to respond to 
you. I simply can't give an absolute answer, I think, to 
anything. One of our experiences over the years has been that 
that has always been a mistake. We are working our hardest to 
try to deal with the institutional and structural issues, as 
you have put it, and our hope is to have those in place, to 
have the NNSA elements in implementation, and then to have the 
continuing problem of, of course, the human element being 
something we always will have to deal with. But our hope is to 
be as far along that path as possible.
    Mr. Bilbray. Well, Mr. Chairman, I just want to say in 
closing that I grew up in a family where my father was a damage 
control officer who was at Bikini, at Eniwetok, who studied 
nuclear arms--was involved in the nuclear arms development in a 
peripheral manner as a warrant officer. And I darn well believe 
that we all have a responsibility to make sure that his 
grandchildren do not have the technology he helped develop 
turned against those children, and I certainly hope that we can 
take care of this before we expect a new administration will 
have to take care of the problems of the past.
    I yield back, Mr. Chairman.
    Mr. Upton. Mrs. Wilson.
    Mrs. Wilson. Thank you, Mr. Chairman.
    Just to follow-up on what Congressman Burr was talking 
about a little bit, and what I asked as well about this issue 
of the facts. I don't want to belabor the point too much, but 
as you well know, representing Albuquerque, New Mexico, we have 
quite a bit of correspondence with the Department of Energy. 
And I asked my staff to go back and check, and everything that 
we send, whether by letter or by snail mail or by fax, gets a 
registration number and that registration number comes back as 
a reference on the reply.
    And so without being too difficult about this at first, I 
would ask the chairman if he would request from the Department 
of Energy, copies of records of all items entered into DOE 
correspondence management systems for the week surrounding 
March 1, 1999, and also for a record of the fax receipts for 
March 1, 1999, for what I believe is Under Secretary Moniz's 
fax number, which is 586-7210.
    Mr. Upton. Without objection, Mr. Glauthier, if you can 
provide that for us?
    Mr. Glauthier. Yes, we will be happy to provide it. 
Normally, this would be logged in, so you are correct to expect 
that the system should have captured it.
    [The information referred to was not received at time of 
printing.]
    Mrs. Wilson. Dr. Robinson, there are some statements in 
your testimony which I found very interesting in light of your 
32-year perspective of security. You talk a little bit about 
changes to the classification system that introduced systemic 
weaknesses in DOE's security system. I wonder if you could 
elaborate on that a little bit.
    Mr. Robinson. I wonder if you would let me have 1 minute to 
comment on the question of the fax. In addition to the lab 
directors expressing our views in March of last year, as I say 
on page 9 in my testimony, I twice brought up in congressional 
testimony, once to this committee, exactly the same content 
that is the conclusion of this fax. So it has been something 
that has been a botherment to not only the three of us but to 
most of the folks who work in the laboratories; that all of 
this material, Secret, Restricted data as well as Top Secret, 
must be accountable.
    The classification has taken on some serious problems in 
the decade of the 1990's. There was an order to declassify a 
larger amount of material and to speed up the declassification. 
In particular, within the Department of Defense, a lot of 
documents were declassified by category rather than someone 
looking at the document to see if there are paragraphs within 
the document that should not be released.
    Unfortunately, in that process, some things went into the 
open that should not have gone into the open; and when we 
learned of it, we have been trying to pull it back.
    The one unique thing about Restricted data, the Atomic 
Energy Commission controlled information, is it never has a 
time line associated with it, that it's declassified after X 
years, as is the practice in Department of Defense and most 
other parts of the government, Department of State, et cetera.
    If the information could lead to the building of a nuclear 
weapon, as Mr. Bilbray suggests, to threaten our children, we 
would like to keep that information as bottled up as we 
possibly can in perpetuity.
    So I considered it a fairly serious breach in the 1990's of 
declassification that led to some information going out.
    I believe that was not the intent of the people who did the 
higher fences initiative. It was to still keep anything that 
could make a functioning nuclear weapon more possible to keep 
it classified, to keep it restricted from distribution.
    Mr. Cox. Would the gentlewoman yield for just a moment for 
a point of clarification?
    Dr. Robinson, I think I understood you to say that the 
material at the labs is classified under the Atomic Energy Act.
    Mr. Robinson. Correct.
    Mr. Cox. Is it the case that it is never classified under 
the Executive Order 12958?
    Mr. Robinson. No. Some of the information in other programs 
than nuclear weapons that we work on and contribute to fall 
under that Executive Order and we carry out and use the stamps 
of declassify after 12 years, declassify after 25 years; but 
not information that could lead to a functioning nuclear 
weapon.
    Mrs. Wilson. With respect to that, I understand that the 
lab directors resisted a lot of the changes that happened in 
the 1990's with respect to security and material control and so 
on. Were you ever told by the Department of Energy that if you 
didn't reduce your security controls you wouldn't be 
compensated for the cost?
    Mr. Robinson. There is such a statement from the 
Albuquerque Operations Office, that this would not be cost 
reimbursable. I must tell you it was at that point not an issue 
of whether we were reimbursed or not. It is a question of 
national security.
    Mrs. Wilson. So as a contractor, in this case not 
University of California but I would assume either AT&T or 
Lockheed Martin, you were told that you couldn't have a higher 
standard anymore; is that right? Or if you had a higher 
standard, it would come out of the hide of the contractor?
    Mr. Upton. Can I inquire about the date of that?
    Mr. Robinson. I am quoting from a memorandum of June 19, 
2000--whoops. Is this an attachment to it?
    Oh, the attachment is June 29, 1992, and it says--the 
question is: May sites continue to account for all secret 
documents on a voluntary basis?
    And the answer given by the Department was: Sites may 
continue to account for documents that do not require 
accountability under paragraph 2 but it must be at no cost to 
DOE. Costs associated with document accountability will be 
calculated only for documents that must be accounted for.
    Mrs. Wilson. Mr. Chairman, I would like to ask if we could 
add that document to the record, if possible?
    Mr. Robinson. Sure.
    Mr. Upton. Yes.
    [The information referred to follows:]
    
[GRAPHIC] [TIFF OMITTED] T7110.090
    
    [GRAPHIC] [TIFF OMITTED] T7110.091
    
    [GRAPHIC] [TIFF OMITTED] T7110.092
    
    [GRAPHIC] [TIFF OMITTED] T7110.093
    
    [GRAPHIC] [TIFF OMITTED] T7110.094
    
    [GRAPHIC] [TIFF OMITTED] T7110.095
    
    [GRAPHIC] [TIFF OMITTED] T7110.096
    
    [GRAPHIC] [TIFF OMITTED] T7110.097
    
    [GRAPHIC] [TIFF OMITTED] T7110.098
    
    [GRAPHIC] [TIFF OMITTED] T7110.099
    
    [GRAPHIC] [TIFF OMITTED] T7110.100
    
    Mrs. Wilson. So basically you were told by DOE Albuquerque 
that you could have a higher standard if you wanted to but it 
was going to be at no cost to the government?
    Mr. Robinson. Correct.
    Mrs. Wilson. Thank you, Mr. Chairman.
    Mr. Upton. Thank you. I just have one further question and 
then a comment. We are expecting a vote in the next 5 or 10 
minutes. Mr. Glauthier, I know you have a meeting downtown as 
well, and I will let other members ask if they have additional 
questions.
    Dr. Browne, the list of new controls that you mentioned in 
your testimony, you did not include procedures to ensure that 
those who remove materials from vaults check out such documents 
or disks. And I just wondered why you did not include that type 
of reform. And I am wondering, maybe from General Habiger, in 
terms of why that was not required in his June 23 list of new 
security directives. Dr. Browne?
    Mr. Browne. With respect to the NEST program, we have had 
that vault closed as part of the FBI investigation and have 
done a full inventory of all the NEST equipment.
    So that program is sort of an off-limits program right now.
    With respect to all the other information, until we 
reestablish tracking ability for the documents, we don't have a 
mechanism to find where the information goes. We have started 
down that path with the computer storage media that I mentioned 
earlier, the 66,000 devices. So we can track those, but we are 
not in a position to track everything that comes out of a vault 
unless it is done by hand; you know, the name of the person, et 
cetera. We have not done that.
    Mr. Upton. Do you expect to have some type of tracking, 
whether it be a bar code or something of that nature?
    Mr. Browne. That's what we had before, and the mechanism 
for transfer of documents between one individual and another 
one required a tracking of the bar code and the copy number, 
and so one had a record of when it left and went somewhere 
else.
    Mr. Upton. And are you on the path to encrypt some of this 
data as well?
    Mr. Browne. That's correct. That's part of the 
Department's----
    Mr. Upton. On both Top Secret and Secret data material?
    Mr. Browne. That's correct.
    Mr. Habiger. Mr. Chairman, the big problem we have with 
encryption is that we have one certified software package that 
is only good for Windows NT. The Department of Energy had many, 
many operating systems. The vendor tells us it could be up to a 
year before we are able to have other operating systems 
covered.
    Mr. Upton. General McBroom, what has happened to this 
particular NEST team while the investigation is going on? Are 
they in limbo? Have they gone back to their other functions?
    Mr. McBroom. Well, sir, that's really a lab question. I 
haven't been allowed out there or to see them. I am going out 
there next week. I can tell you in talking to Dr. Browne, they 
have been through a lot, sir. Personally and professionally it 
has been very hard on them.
    We are going to have to really stroke some of these people 
because--and I think Dr. Browne had a very, very valid point. 
Ninety-nine percent of these people are just really neat United 
States American citizens.
    Mr. Upton. You need to find that 1 percent.
    Mr. McBroom. Yes, sir, I have to find them in a hurry.
    Mr. Gioconda. Sir, also for the record to understand, the 
NEST team are a group of volunteers. They volunteer to be in 
this program. They are not assigned to this particular program. 
They step up to be assigned. I think that it is important to 
understand that when you go through a situation like this, and 
we have talked about this often, what are we going to have on 
Monday morning. Will that person volunteer after going through 
this? And we are all very, very concerned about that.
    Mr. Browne. Mr. Chairman, may I add a comment to that?
    Mr. Upton. Yes.
    Mr. Browne. What we did with our NEST team was essentially 
had the entire team stand down to go through in great detail 
their security procedures for the entire team, not just the 
device assessment team that I mentioned but the entire team, 
because we wanted them to update all of their security 
procedures and to assure themselves, not just assure us but 
assure themselves that they had the best practices in place. 
They have just completed that and they are back at work.
    We have some compensatory measures in place because of the 
FBI investigation that's going on, but I feel very comfortable 
that we are doing the right thing by allowing the NEST team 
members back to work.
    Mr. Upton. Mr. Glauthier, I know you mentioned at the very 
beginning of your testimony sort of the update in terms of 
where we were with regard to the investigation. I am certainly 
not a police officer or a detective, as my colleague Mr. Stupak 
was with the Michigan State Police. But are we getting close to 
the end of this? I mean, I know that a number of folks, in 
fact, were polygraphed. It has been almost a month since those 
began. Where are we in terms of the end of this investigation 
so we can put things back together?
    Mr. Glauthier. I think it is all right to mention here that 
one of the delays has been that the lawyers for these 
individuals felt they needed to get clearances in order to 
properly deal with their clients and to deal with these issues. 
Those clearances were granted last week. It took some time for 
them to submit the paperwork to us. We turned it around in a 
matter of few days.
    Mr. Upton. But they were polygraphed almost from the 
beginning, right? June 15 or so?
    Mr. Glauthier. The individuals were, but the lawyers 
representing those individuals needed to get clearances, they 
said, in order to proceed with the case. So some of the 
investigation has been on hold. Now, those clearances have been 
in place for a matter of a few days at least and I understand 
that the FBI and the U.S. Attorney out there are proceeding.
    Our hope is that this will----
    Mr. Upton. Do you expect some charges to be brought within 
this month, July?
    Mr. Glauthier. You would have to ask the FBI and the U.S. 
Attorney's Office. I can't comment on that.
    Mr. Upton. Okay. Let me just say this, as part of my 
conclusion. As Chairman of this subcommittee, we have had more 
hearings on security at our energy labs than on any other 
topic--Medicare fraud, anything else--maybe, I would guess, 12 
to 15 hearings in the last year and a half.
    At the suggestion of the lab directors last year, for a 
number of us that had not ever been to one of these labs and 
really not been to the West Coast much, I know that we did take 
your suggestion. We visited the labs, and I have to say that 
for me, I could not have been more impressed with the physical 
security of those labs; the drills that the teams did, all the 
different things that were shown to us over those couple of 
days, Mr. Cox, myself, Mr. Burr and Mrs. Wilson and some of our 
staff that went out.
    It seems as though we have focused on--we have gone from 
one thing to the next.The hearings last year followed along the 
lines of the Q clearances and the access to some of our secret 
material by folks that really should not have been in those 
areas. Changes were made.
    One of the things that we focused quite a bit on in our 
visit last January was looking at the cyber security details 
and to make sure that there were air locks and a whole number 
of different things that would prevent someone from hacking in 
and getting access to that material.
    I just hope that as we have looked now at this GAO report, 
that again it sort of goes back to the basics, logging in 
material; I mean, what we can do at a Meyers, a Thrifty Acres, 
or maybe a Safeway here in the Washington area type of thing, a 
library logging in material using the tools that we have, 
encryption and others, to make sure that, in fact, that 
material--you know, if we find that 1 percent that, in fact, 
may be out there that, in fact we can prevent that individual 
or individuals from leaking or selling that information 
someplace else, let alone misplacing it, I mean that to me is 
fundamental.
    We--as Chairman of this subcommittee, and I know I speak 
for every member of this subcommittee--we have got to have 
accountability by all of you to make sure that the system 
works. We are tired of the blame game. We would rather be 
focusing on other things than this. But these really are the 
crown jewels. And whether it is a culture, whether it is just 
mistake after mistake, we need to get to the bottom of this and 
we need to get it resolved. We don't necessarily need another 
level of bureaucracy. We want results and we want to know that 
when the lights get turned off, that that material is safe and 
cannot get into the hands of the wrong people.
    Virtually every one of you, with the exception of Mr. 
Aftergood, are Federal employees; particularly General McBroom 
and others, you need to take every effort. We are prepared as a 
Congress to fund whatever it takes to make sure that these 
secrets remain just that. Now you have a tremendous 
responsibility. The American public has entrusted you and we 
want to make sure it works. I would just hope that as we follow 
up on this hearing today that, in fact, we won't see further 
miscues.
    Mr. Glauthier, your comment earlier about taking the 
pledge--I think it was by Mr. Bilbray--by January 1, Secretary 
Richardson did that. You might have offered him some different 
advice last year when he assured us in fact that those things 
would not take place. We want your word to be good and we want 
the fire doors to be closed so that this does not happen again.
    As we look at further GAO reports and other things that may 
come our way, we want to hear from you first and see what 
suggestions you might have that we might help you do a better 
job to make sure that, in fact, that fire door remains closed.
    Mr. Cox, I don't know if you want to make a closing 
statement, Mrs. Wilson, but I yield to you if you would like to 
do that.
    Mr. Cox. I thank you, and I just want to thank every member 
of our panel. These are difficult topics and they are made more 
difficult by the fact that there have been so many things that 
everybody wishes hadn't happened go on over the last few years.
    My greatest concern is the seeming consistency of the 
bureaucratic problems, notwithstanding all of the renewed vigor 
to attack them at this time and to get it right.
    When the House of Representatives nearly unanimously 
created this select committee that I chaired, it was 4 months 
after the President had issued PDD 61, and then we went through 
a whole year on our select committee and had more public impact 
with that, and then we had damage assessment by the CIA which 
confirmed what our select committee had found. We had the 
President's Foreign Intelligence Advisory Board complain about 
security and counterintelligence at the laboratories and about 
DOE mismanagement. We had recommendations for reform. And yet 
it was not until March of this year that one of the key 
elements of the President's directive to the Secretary of 
Energy, polygraphing, was even begun to be implemented.
    It was not really until these hard drives turned up missing 
that people in sensitive positions in that connection were 
subjected to polygraphs. I think that it is a fair thing to 
argue, particularly for scientists who are technically minded, 
to argue about the relative merits and demerits of polygraphs. 
They are well equipped to do so. But once the President of the 
United States orders it done, it oughtn't take the bureaucracy 
so many years to begin it.
    The same holds with the creation of the NNSA. The NNSA was 
created in direct response to recommendations from all the 
outside groups that have looked at it and the bureaucracy has 
been fighting it because of turf. Now we are talking about new 
creative ways to restructure the bureaucracy, all of them 
compounding the prolix nature of the Department of Energy's 
relationship to the labs, and I am very sorry for that. I hope 
that one of these days they will listen to the advice and 
follow the legislation.
    I thank the chairman.
    Mr. Upton. Thank you. Mrs. Wilson, do you have a closing 
comment?
    Mrs. Wilson. Thank you, Mr. Chairman. I wanted to thank you 
again for allowing me to sit in and participate in this 
hearing. I think I walk away with kind of a reconfirmation that 
the problems relating to security in the nuclear weapons 
complex are systemic. They relate more to policy and the 
implementation of that policy than they do to isolated acts by 
individuals. And I look forward to General Gordon taking the 
reigns and being able to look at the complex systematically 
over a long period of time to ensure its continued health for 
the country, and I think that's the right direction to go in. 
And I thank the chairman again.
    Mr. Upton. Again, I thank all members for participating. I 
would note for the record that there are a number of 
subcommittees meeting during these hours. We do look forward to 
hearing from General Gordon probably this fall, once Congress 
returns from the August break. Again we thank you for your 
testimony. We look forward to working with you. This hearing is 
now adjourned.
    [Whereupon, at 2:55 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

                          Federation of American Scientists
                                                     August 1, 2000
Hon. Fred Upton, Chairman
Subcommittee on Oversight and Investigations
Committee on Commerce
U.S. House of Representatives
2125 Rayburn House Office Building
Washington, DC 20515-6115
    Dear Mr. Chairman: Attached please find my answers to the questions 
for the record from the July 11, 2000 hearing on weaknesses in 
classified information security control's at DOE's nuclear weapons 
laboratories.
    Thank you for the opportunity to present my views to the 
Subcommittee.
            Sincerely,
                                           Steven Aftergood
                                            Senior Research Analyst

                     Questions for Steven Aftergood
    Q. In your testimony, you quoted a National Academy of Sciences 
report which states that ``access to classified information is not 
necessary for a potential proliferator to construct a nuclear weapon.'' 
The Academy said that access to nuclear material and an engineering and 
manufacturing infrastructure to build a bomb are most important. Iraq 
became a nuclear power without stealing our secrets, as did India. Was 
the Cox Commission and the Congress in error last year when they placed 
so much emphasis on the alleged theft of our technology for China's 
weapons advances?
    A. The espionage threat from China and other nations is certainly a 
legitimate and necessary subject of inquiry. But I believe the Cox 
Committee and Congress erred by failing to place the espionage threat 
in proper perspective.
    The People's Republic of China has possessed thermonuclear weapons 
since 1964 and has a mature nuclear weapons manufacturing capacity. Yet 
today, fifteen years after China's alleged theft of W-88 warhead design 
information described by the Cox Committee, there has been no 
``apparent modernization of their deployed strategic force or any new 
nuclear weapons development,'' according to the CIA's Jeremiah panel. 
Espionage, if it occurred, evidently did little to alter the threat 
facing the United States.
    Instead of clarifying the issues, the continuing emphasis on 
Chinese nuclear espionage has led to a serious distortion of public 
perceptions. Senator Bob Kerrey said last year that the Cox Committee 
report ``has left the impression that China is a bigger threat to the 
United States in terms of nuclear weapons than Russia is. Nothing can 
be further from the truth.'' But a Time-CNN public opinion poll found 
that 46 percent of Americans consider China a serious threat, compared 
to 24 percent who hold that view of Russia.
    Finally, the preoccupation with espionage has incurred serious 
damage to the nuclear weapons laboratories where morale a,'Id 
recruitment have fallen precipitously. This is a potentially far more 
serious blow to national security than any espionage that may have 
taken place.
    Q. What do you see as the solution to these embarrassing security 
breaches at DOE?
    A. There is no solution. That is to say, it is impossible to 
guarantee that security breaches will not occur in the future.
    Again, it is important to keep these matters in perspective. There 
can be no absolute security. There is no national security agency in 
the U.S. government that has not been deeply penetrated by a foreign 
intelligence service at one time or another. Meanwhile, minor security 
infractions are literally a daily occurrence.
    It is easier to say what is not the solution. I do not believe that 
Congress should legislate specific security requirements (such as 
document accountability, polygraph screening, etc.) because such 
system-wide requirements can have unintended consequences and may need 
to be modified to meet local needs and circumstances.
    On the other hand, it would be appropriate to identify an official 
at each facility who is responsible for security at that facility. 
While I believe it was absurd to suggest that the Secretary of Energy 
should be accountable for the fact that a particular classified item at 
Los Alamos was missing, it would be entirely sensible to assign 
responsibility for such cases to a particular official at every 
laboratory. That official should have the flexibility and discretion to 
tighten or relax baseline security requirements, as appropriate, and 
then should be held responsible for overall security performance.
    I would only add, as I stated in my testimony, that security should 
not be permitted to significantly erode the quality of the labs. If it 
were necessary to choose, I would prefer second-rate security at a 
first-rate laboratory to first-rate security at a second-rate 
laboratory.
    Q. What will it take to implement the ``higher fences'' initiative?
    A. The ``higher fences'' concept of focusing security resources on 
the most sensitive information makes obvious, intuitive sense. But like 
any change to established practices in a bureaucracy, it faces 
resistance that will require high-level leadership to overcome.
    DOE officials now refer to the adoption of a ``graded approach'' to 
security, involving stronger protection for more sensitive materials, 
The ``graded approach'' seems to be similar to the ``higher fences'' 
initiative except that it omits declassification.
    This is a mistake, in my opinion. Proper declassification is an 
essential component of an information security classification system. 
The system will not function properly, and will eventually break down, 
if there is no reliable mechanism for removing controls on information 
that no longer warrants protection.
    For this reason, I believe that the DOE Fundamental Classification 
Policy Review group (which last reported in 1997) should be reconvened 
at perhaps 5-year intervals to identify which categories of information 
should be newly declassified and which categories, if any, should 
receive increased protection.
    I also believe that Congress should increase support for 
declassification review. Congress should clearly communicate to DOE the 
expectation that while sensitive information must be properly 
classified, information that is no longer sensitive should be 
efficiently removed from classification controls.
                                 ______
                                 
Answers to Questions for the Record of Dr. C. Paul Robinson, Director, 
                      Sandia National Laboratories
    Question: The Committee understands that Sandia played a big role 
in the Higher Fences initiative. Can you describe your lab's 
involvement and why you believe DOE has not reached closure on this 
issue after four years of trying?
    Did Sandia object to DOE's initial proposal on higher fences, and 
if so, why?
    Did Sandia object to reclassifying these sensitive categories as 
Top Secret, and if so, why? What value would there be in re-classifying 
these sensitive topics as Top Secret, as proposed by DOE, if DOE didn't 
require additional controls for Top Secret, as evidenced by its January 
1998 decision to eliminate such controls?
    Response: Sandia National Laboratories was a major participant and 
contributor in the Higher Fences Initiative beginning with the 
Fundamental Classification Policy Review, which began its work in May 
1995. Secretary O'Leary appointed Dr. Albert Narath, the director of 
Sandia, to be chairman of the review group. (It should be noted that 
Dr. Narath left Sandia in August 1995 to accept a position with the 
Lockheed Martin Corporation. He continued to chair the review team 
while in his new position.) The Fundamental Classification Policy 
Review Group consisted of about 50 experts from the DOE community and 
other agencies, including several individuals from Sandia. The review 
team issued a final report in January 1997.
    Sandia National Laboratories also played a major role on the second 
of two Higher Fences working groups. A first working group had been 
formed at DOE headquarters shortly after the Fundamental Classification 
Policy Review issued its report, but the results of this first effort 
were deemed inadequate by many reviewers in the field and at 
headquarters. The considerable criticism of the first working group's 
proposal prompted the DOE Office of Declassification to charter a 
second Higher Fences Working Group in July 1998 to resolve the issues 
identified in the critiques. The DOE Office of Declassification 
appointed the classification officer at Sandia National Laboratories to 
lead this group of classification experts from the field and DOE.
    Sandia National Laboratories fully supported (and continues to 
support) the initial Higher Fences recommendation of the Fundamental 
Classification Policy Review Group (January 1997). However, Sandia and 
other DOE elements in the field and at headquarters had several 
criticisms of the work of the first Higher Fences Working Group, which 
issued a memorandum for comment in March 1998. That report received a 
largely negative response. A major concern shared by Sandia and the 
other nuclear weapon laboratories was that DOE had recently removed (in 
January 1998) the longstanding requirement for formal document 
accountability of Top Secret Restricted Data. To classification 
professionals in the field, it seemed inconsistent to propose to 
reclassify certain information to Top Secret while at the same time 
weakening the accountability controls on Top Secret. Thus, 
reclassification on the Higher Fences criteria would be a paper 
exercise resulting in no significant increase in protection within the 
DOE community.
    In May 1998, the DOE Technical Evaluation Panel submitted its 
concerns on the initial Higher Fences guidance in a memorandum to the 
director of the DOE Office of Security Affairs. The Technical 
Evaluation Panel is a committee of weapon designers that provides 
consultation for the DOE classification community, and it was chaired 
at that time by a Sandia weapon program manager. The panel's basic 
criticism of the initial Higher Fences guidance was that the lack of 
consistency in the level of protection provided for Top Secret 
Restricted Data by the various DOE orders governing security of 
documents and computer systems undermined the initiative. The panel 
predicted that these inconsistencies, together with the failure to 
address the costs of implementation, would result in failure of the 
Higher Fences Initiative.
    The second Higher Fences Working Group issued an unclassified draft 
report to the DOE Office of Declassification in February 1999, followed 
by a full, classified report in April. The report filled in some of the 
detail that would be required for implementation and added much-needed 
rigor to the sensitivity criteria for reclassification. This work 
provided a foundation for moving forward with the Higher Fences 
Initiative within the Department's decision structure, and eventually 
to DoD.
    DOE issued a final report for implementing the Higher Fences 
recommendation in October 1999. At that point, considerable 
disagreement still existed both within the Department and in the field 
concerning how Higher Fences should be implemented, although the 
concept and intent of the Higher Fences Initiative were generally 
accepted. The most significant issues of concern were:

1. DOE's decision in January 1998 to remove the requirement for formal 
        document accountability for Top Secret Restricted Data;
2. The lack of consistent guidance within DOE on handling paper and 
        electronic forms of Top Secret;
3. The lack of implementation guidance and associated funding for 
        segregating new Top Secret and handling existing Top Secret;
4. The lack of funding to upgrade Secret-level computer networks to Top 
        Secret networks, which was estimated to run $20 to $30 million 
        per site.
    Notwithstanding these concerns, the DOE leadership decided to press 
forward with implementation. In October 1999, the Assistant Secretary 
for Defense Programs and the Director of the Office of Security and 
Emergency Operations sent a letter to the Nuclear Weapons Council (a 
joint DoD/DOE coordinating group of senior officials) requesting the 
assistance of the Council in encouraging DoD to participate in a joint 
working group to develop an implementation plan for Higher Fences. Buy-
in by DoD was essential because much Secret Restricted Data that would 
be reclassified to Top Secret under the Higher Fences plan was in the 
custody of DoD.
    In December 1999, DOE received a response from the Office of the 
Secretary of Defense (signed by the director of Defense Research and 
Engineering and by the Assistant Secretary for Command, Control, 
Communications, and Intelligence) in which DoD declined to participate 
in an interagency working group for the Higher Fences Initiative. The 
letter cited increased costs, operational difficulties, and DoD's 
belief that such information is adequately protected at the Secret 
level. The letter also indicated that DoD would review the Higher 
Fences recommendations from a cost-benefit perspective so that the 
initiative could receive serious consideration. At this time, I am 
unaware that DoD has completed its review. However, the evident lack of 
serious interest by DoD is the principal reason for the failure of the 
Higher Fences Initiative to continue to move forward toward 
implementation.
                                 ______
                                 
    General Accounting Office Responses to Questions For the Record
    Q. Was the 1992 change in DOE Secret-level accountability controls 
mandated by Executive Order or government-wide changes that occurred in 
that year, as DOE has suggested in article in the Washington Post, or 
was DOE free to set its own policies in this regard?
    A. The 1992 change in DOE Secret-level accountability controls was 
not mandated by Executive Order or any government-wide requirements as 
far as we can determine. The Executive Order in force at the time--EO 
12356, dated April 2, 1982, and its implementing directive-allowed 
heads of agencies to set policies for accountability for Secret-level 
documents. Therefore, DOE could set its own policies within this 
framework.
    Q. This same article also states that, in January 1993, just two 
weeks before the end of the Bush Administration, an executive order 
extended these new relaxed rules to government contractors, such as Los 
Alamos. Is that an inaccurate statement based on your research? What 
did the Executive Order actually do? Please provide a copy of the 
Executive Order for the record.
    A. The statement ``in January 1993, just two weeks before the end 
of the Bush Administration, an executive order extended these new 
relaxed rules to government contractors, such as Los Alamos'' is 
inaccurate. Executive Order 12829, dated January 6, 1993, created a 
National Industrial Security Program to establish a single, integrated, 
cohesive program to protect classified information that is released to 
contractors, licensees, and grantees of the United States Government. 
While the Program was created to promote uniformity, the Executive 
Order did not specify that accountability requirements were to be 
relaxed.
    Q.  To your knowledge, was there any government-wide decision made 
to reduce controls on Secret data prior to 1995?
    A. Our audit work concentrated on DOE actions in accountability for 
Secret documents. As such we did not examine what other government 
agencies were doing to control Secret data. We will examine this issue 
as part of our ongoing work in the area.

[GRAPHIC] [TIFF OMITTED] T7110.101

[GRAPHIC] [TIFF OMITTED] T7110.102

[GRAPHIC] [TIFF OMITTED] T7110.103

[GRAPHIC] [TIFF OMITTED] T7110.104

[GRAPHIC] [TIFF OMITTED] T7110.105


</pre></body></html>
